APPENDIX

1a

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 16-13020
D.C. Docket No. 2:10-cv-02218-LSC
EUGENE MILTON CLEMONS, II,
Petitioner - Appellant,

versus

COMMISSIONER, ALABAMA DEPARTMENT OF
CORRECTIONS, WARDEN, HOLMAN CF
Respondents - Appellees.
Appeal from the United States District Court
for the Northern District of Alabama
(July 30, 2020)
Before WILSON, JILL PRYOR and MARCUS,
Circuit Judges.
MARCUS, Circuit Judge:

2a
In 1994, an Alabama jury convicted Eugene
Clemons for the capital murder of Drug Enforcement
Administration Special Agent George Douglas
Althouse. Thereafter, a unanimous jury recommended
that Clemons be sentenced to death; the state trial
court followed the jury’s recommendation and
sentenced the petitioner to die. Nearly a decade later,
the Supreme Court held it unconstitutional to execute
intellectually disabled people. See Atkins v. Virginia,
536 U.S. 304 (2002). After Atkins, Clemons timely
brought a claim of intellectual disability in Alabama
state court. The Alabama courts concluded that
Clemons had failed to demonstrate either significant
subaverage intellectual functioning or significant
deficits in adaptive functioning, as required by Atkins
and Alabama case law, and denied the petition.
Because the state court’s decision was neither contrary
to nor an unreasonable application of clearly
established Supreme Court law, nor was it based on an
unreasonable determination of the facts in light of the
evidence presented, we are obliged to deny his federal
habeas petition.
Clemons also attempts to bring thirty-one other
claims in his federal habeas petition, but those claims
are untimely. The Antiterrorism and Effective Death
Penalty Act (“AEDPA”) requires most claims to be
brought within one year of a conviction becoming final
on direct review. A “properly filed” state-court petition
tolls the one-year federal limitations period. But
Clemons’s state petition was not “properly filed” -because his attorneys neither paid the filing fee nor
filed a motion to proceed without paying the fee -- until
more than one year after his conviction had become
final. Clemons now says his lawyer received
misinformation from the state court clerk’s office, so

3a
the federal limitations period should be equitably
tolled. But the extraordinary remedy of equitable
tolling cannot excuse the simple negligence of an
attorney. We affirm the district court’s determination
that those thirty-one claims are untimely and must be
dismissed.
I. Background
On May 28, 1992, Eugene Milton Clemons II shot
and killed DEA Special Agent George Douglas
Althouse during a carjacking. That evening, Althouse
and Naylor Braswell, a Jefferson County Sheriff’s
Department officer with whom Althouse was working
and sharing an apartment, drove a black Camaro to
meet another narcotics officer. On the way, they pulled
into a service station. Braswell went inside to borrow
a telephone book while Althouse remained in the
passenger’s seat of the car. Braswell looked outside
and saw a man get into the driver’s seat of the car,
armed with a revolver. At trial, he identified Clemons
as looking like the man he saw behind the steering
wheel. He then heard two shots and saw Althouse dive
out of the car. Althouse had been shot, and although
he initially returned fire, he eventually succumbed to
his injuries and died. Braswell added that a
bulletproof vest and a shotgun had been in the
Camaro’s trunk.
One of Clemons’s accomplices, Kenny Reed, also
testified at trial. Clemons called him at their mutual
friend Herman Shannon’s house and asked Reed to
pick him up to get “a car.” Reed said they drove to an
area near a service station and Clemons got out of the
car. Reed later heard two gunshots, followed a short
time later by several more shots. Clemons then drove
off in a black Camaro. When Reed returned to

4a
Shannon’s house, Clemons was there and said that “no
one better open their mouths” because he had killed a
DEA agent. Clemons had previously told Reed that
Clemons’s car needed a new motor.
The following day, on May 29, 1992, the black
Camaro was recovered near Shannon’s house and the
shotgun that had been in the trunk of the car was
discovered near Clemons’s home. Shortly thereafter,
Clemons was arrested in Cleveland, Ohio. His uncle
who lived there testified that Clemons’s sister had
called to say Clemons was coming to Cleveland.
Clemons told his uncle that he shot a police officer
because the officer was trying to kill him and that he
stole the car to get away.
Because Althouse was a federal narcotics officer,
Clemons was first tried for murder in federal district
court. He was convicted in April 1993 and sentenced to
life without parole. The federal conviction was upheld
on direct appeal. United States v. Clemons, 32 F.3d
1504 (11th Cir. 1994), cert. denied, 514 U.S. 1086
(1995). In a parallel proceeding, Alabama indicted
Clemons for capital murder in March 1993. He was
tried and convicted on September 25, 1994, and
sentenced to death soon thereafter. Clemons’s direct
appeals from his state-court conviction and death
sentence became final when the United States
Supreme Court denied his petition for certiorari on
January 25, 1999. Clemons v. Alabama, 525 U.S. 1124
(1999).
On December 27, 1999, Clemons submitted his
petition for post-conviction relief, pursuant to Rule 32
of the Alabama Rules of Criminal Procedure, in Shelby
County Circuit Court. At that time, however, he
neither paid a filing fee, nor moved to proceed in forma

5a
pauperis, nor finally did he include a certified copy of
his prison account showing his indigency. Clemons
says the clerk of the court advised his counsel that
there was no filing fee required for a Rule 32 petition.
On January 28, 2000, Clemons refiled his Rule 32
petition, only this time along with a request to proceed
in forma pauperis and a certified copy of his prison
account and a completed nine-page form that is
contained in the Rule 32 appendix. After allowing
Clemons to amend his petition twice, the circuit court
held a limited evidentiary hearing, allowing each
party to depose only one witness. The circuit court
denied relief on all claims.
At the time of Clemons’s trial and the initial filing
of his Rule 32 petition, Supreme Court precedent had
held that the execution of intellectually disabled
persons was not per se unconstitutional. See Penry v.
Lynaugh, 492 U.S. 302, 340 (1989) (plurality opinion).
But on June 20, 2002, the Court decided Atkins v.
Virginia,
holding
that
it
is
categorically
unconstitutional to execute someone who is
intellectually disabled. 1
536 U.S. at 321. The
substantive constitutional rule announced in Atkins
applies retroactively on collateral review. See, e.g., In
re Holladay, 331 F.3d 1169, 1173 (11th Cir. 2003) (“At
this point, there is no question that the new
constitutional rule . . . formally articulated in Atkins
Although Atkins uses the term “mentally retarded,” the
Supreme Court has since adopted the term “intellectually
disabled” to describe the same condition. See Hall v. Florida, 572
U.S. 701, 704 (2014) (“Previous opinions of this Court have
employed the term ‘mental retardation.’ This opinion uses the
term ‘intellectual disability’ to describe the identical
phenomenon.”). We too now use the term “intellectually
disabled.” Kilgore v. Sec’y, Fla. Dep’t of Corr., 805 F.3d 1301,
1303 n.1 (11th Cir. 2015).
1

6a
is retroactively applicable to cases on collateral
review.”).
Because Atkins was decided after the circuit
court’s denial of his Rule 32 petition, but before his
appeal to the Alabama Court of Criminal Appeals,
Clemons argued for the first time on appeal that his
death sentence was unconstitutional because of his
intellectual disability. However, Clemons had
advanced a related argument, based on the same
underlying facts, in his initial Rule 32 petition,
claiming that his counsel was ineffective at trial for
having failed to present mitigating evidence of his
limited mental capacity.
On August 29, 2003, the Alabama Court of
Criminal Appeals remanded Clemons’s case to the
circuit court with instructions to conduct an
evidentiary hearing and make written findings on both
his Atkins claim and the ineffective-assistance-ofcounsel claim based on his trial attorneys’ failure to
present mitigating evidence of his intellectual
disability. See Clemons v. State, 55 So. 3d 314, 322
(Ala. Crim. App. 2003).
The circuit court conducted an extensive
evidentiary hearing on Clemons’s Rule 32 petition
from June 15 to June 18, 2004. Over the four-day
hearing, the court heard testimony from four
witnesses: Dr. Charles Golden (Clemons’s medical
psychological expert); Joseph Chong-Sang Wu
(Clemons’s PET brain scan expert); Dr. Helen Mayberg
(Alabama’s PET brain scan expert); and Dr. David
Glen King (Alabama’s medical psychological expert).
The evidence pertinent to Clemons’s Atkins claim
included seven intelligence quotient (“IQ”) tests. His
scores on those tests, discussed in more detail in

7a
section III.B.1 of this opinion, varied widely from a
score of 84 to a score of 51, and in several instances the
administrators of the tests opined that the scores were
invalid because Clemons was “malingering,” that is, he
intentionally frustrated the efficacy of the IQ test. As
for adaptive functioning, only Clemons’s medical
expert testified. He had administered a test of
adaptive functioning -- the Adaptive Behavior
Assessment System test -- and found Clemons severely
deficient in six of the ten behavioral areas the test
covers.
On October 28, 2004, the Shelby County Circuit
Court denied Clemons’s petition, adopting nearly
verbatim a 90-page proposed order submitted by the
state. On June 24, 2005, the Alabama Court of
Criminal Appeals affirmed. See Clemons v. State, 55
So. 3d 314, 322–32 (Ala. Crim. App. 2005). The Court
of Criminal Appeals laid out the circuit court’s findings
and analysis on the Atkins claim verbatim, and
adopted them:
We have reviewed the record in light of
[relevant Alabama precedents], and we
conclude that it supports the circuit court’s
findings. Therefore, we adopt those findings as
part of this opinion. Based on the record before
us, we conclude that, even under the broadest
definition of mental retardation, the appellant
is not mentally retarded and that imposition of
the death penalty in this case would not be
unconstitutional.
Id. at 332.
Intervening appeals relating to procedural bar on
the ineffective-assistance-of-counsel claim (which are
not relevant here) took the case back and forth

8a
between the Court of Criminal Appeals and the
Alabama Supreme Court for several years. Finally, on
August 13, 2010, the Alabama Supreme Court denied
Clemons’s petition for certiorari without opinion. Ex
parte Clemons, No. 1070535 (Ala. Aug. 13, 2010) (per
curiam).
Three days later, on August 16, 2010, Clemons set
his sights on the federal district court, filing the
instant habeas petition in the United States District
Court for the Northern District of Alabama, pursuant
to 28 U.S.C. § 2254. On the same day, he filed a
successive Rule 32 petition in Alabama circuit court.
See Clemons v. State, 123 So. 3d 1, 3 (Ala. Crim. App.
2012). The federal petition was stayed and held in
abeyance while Clemons exhausted his successive
state petition. The Court of Criminal Appeals rejected
Clemons’s successive petition and found that the claim
he raised -- the jury must be allowed to consider his
low IQ as part of mitigation evidence -- was
procedurally defaulted. Id. at 12. That petition was
resolved on March 22, 2013, when the Alabama
Supreme Court denied certiorari. Ex parte Clemons,
No. 1120150 (Ala. Mar. 22, 2013). Thus, the only
reasoned state court opinion relevant to this appeal is
the Alabama Court of Criminal Appeals’s [sic] June 24,
2005 ruling, affirming the state court’s determination
that Clemons was not intellectually disabled, and thus
that the imposition of the death penalty was not
unconstitutional.
With the federal habeas action no longer stayed,
Alabama moved to dismiss it, arguing that it had been
filed untimely because it was past AEDPA’s one-year
limitations period. The district court denied the
motion as to Clemons’s Atkins claim, but granted it as
to all the other claims he made because they were

9a
untimely and equitable tolling was not warranted. The
court reached this conclusion because Clemons had
established nothing more than negligence on the part
of his counsel. In a subsequent order, the district court
denied relief on the Atkins claim, concluding that the
state court’s determinations were neither contrary to
nor an unreasonable application of clearly established
law, nor were they based on an unreasonable
determination of the facts in light of the evidence
presented. The district court highlighted the
credibility determinations made by the state circuit
court and found that those determinations were not
objectively unreasonable.
II. Standard of Review
“We review de novo a district court’s grant or
denial of a habeas corpus petition.” McNair v.
Campbell, 416 F.3d 1291, 1297 (11th Cir. 2005).
Because Clemons filed his federal habeas petition
after April 24, 1996, this case is governed by AEDPA.
“Under AEDPA, if a state court has adjudicated the
merits of a claim -- as the state court did here -- we
cannot grant habeas relief unless the state court’s
decision ‘was contrary to, or involved an unreasonable
application of, clearly established Federal law, as
determined by the Supreme Court of the United
States,’ or ‘was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.’ ” Kilgore v.
Sec’y, Fla. Dep’t of Corr., 805 F.3d 1301, 1309 (11th
Cir. 2015) (quoting 28 U.S.C. § 2254(d)). 2

Pursuant to § 2254(d): An application for a writ of habeas corpus
on behalf of a person in custody pursuant to the judgment of a
State court shall not be granted with respect to any claim that

2

10a
“Under § 2254(d)(1)’s ‘contrary to’ clause, we grant
relief only ‘if the state court arrives at a conclusion
opposite to that reached by [the Supreme] Court on a
question of law or if the state court decides a case
differently than [the Supreme Court] has on a set of
materially indistinguishable facts.’ ” Jones v. GDCP
Warden, 753 F.3d 1171, 1182 (11th Cir. 2014)
(alterations in original) (quoting Williams v. Taylor,
529 U.S. 362, 413 (2000)). “Under § 2254(d)(1)’s
‘unreasonable application’ clause, we grant relief only
‘if the state court identifies the correct governing legal
principle from [the Supreme] Court’s decisions but
unreasonably applies that principle to the facts of the
prisoner’s case.’ ” Id. (alteration in original) (quoting
Williams, 529 U.S. at 413). Here, there is no dispute
that the state court identified the correct legal
principle applicable to the only timely claim before us
(Atkins itself), so this case implicates the
“unreasonable application” clause of § 2254(d)(1).
Section 2254(d)(2) requires that we afford a state
trial court’s fact-finding substantial deference.
Brumfield v. Cain, 576 U.S. 305, 314 (2015). “If
‘[r]easonable minds reviewing the record might
disagree about the finding in question, on habeas

was adjudicated on the merits in State court proceedings unless
the adjudication of the claim –
(1)
resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United
States; or
(2)
resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.

11a
review that does not suffice to supersede the trial
court’s . . . determination.’ ” Id. (alteration and ellipsis
in original) (quoting Wood v. Allen, 558 U.S. 290, 301
(2010)).
III. Analysis
A. Thirty-One
Untimely

of

Clemons’s

Claims

are

The district court dismissed thirty-one of
Clemons’s federal habeas claims as untimely pursuant
to AEDPA’s one-year statute of limitations. 28 U.S.C.
§ 2244(d)(1). The one-year limitations period ran out
when Clemons failed to properly file his state habeas
petition, which would have tolled the federal
limitations period under AEDPA, within one year of
his judgment of conviction becoming final on direct
review. Although Clemons filed his state petition
within one year, he failed to either pay a filing fee or
move to proceed in forma pauperis (“IFP”). Thus, his
petition was not “properly filed” in accordance with
Alabama law. By the time he properly filed the petition
with the required motion to proceed IFP, the one-year
federal limitations period had run.
Clemons concedes that all of the claims in his
habeas petition, but for his Atkins claim, are barred
from consideration under AEDPA’s one-year
limitation. He argues, however, that the federal
limitations period should be equitably tolled because
his counsel received misinformation from an unnamed
person working in the state court clerk’s office. That
employee allegedly told Clemons’s counsel he was
neither required to pay a filing fee nor required to file
a motion to proceed IFP. But because Clemons was
represented by counsel, and because a petitioner is
bound by the negligence of his attorney, Clemons is not

12a
entitled to equitable tolling. Thus, we affirm the
district court’s dismissal of those thirty-one claims.
Under § 2244(d), “[a] 1-year period of limitation
shall apply to an application for a writ of habeas
corpus by a person in custody pursuant to the
judgment of a State court.” 28 U.S.C. § 2244(d)(1). For
claims that could have been brought immediately -because the constitutional right existed at the time
and the factual predicate was discoverable through the
exercise of due diligence -- the limitations period runs
from the date the conviction becomes final on direct
review. See id. § 2244(d)(1)(A)–(D). Clemons’s
conviction became final on January 25, 1999, when the
United States Supreme Court denied certiorari.
However, “[t]he time during which a properly filed
application for State post-conviction or other collateral
review with respect to the pertinent judgment or claim
is pending shall not be counted toward any period of
limitation under this subsection.” Id. § 2244(d)(2). Put
more plainly, a “properly filed” state habeas petition
pauses the clock on the one-year limitations period
until that state petition is resolved. If, for example, a
petitioner properly files a state habeas petition six
months after his conviction becomes final on direct
review, he still has six months to file his federal habeas
petition after the state courts finally resolve the
petition.
But Clemons’s state petition was not “properly
filed” until after the federal habeas limitations period
had expired. Rule 32.6 of the Alabama Rules of
Criminal Procedure sets forth the requirements for
properly filing a postconviction petition, including
these:

13a
“[The petition] shall . . . be accompanied by the
filing fee prescribed by law or rule in civil cases
in the circuit court unless the petitioner applies
for and is given leave to prosecute the petition
in forma pauperis. If the petitioner desires to
prosecute the petition in forma pauperis, he or
she shall file the “In Forma Pauperis
Declaration” at the end of the form. In all such
cases, the petition shall also be accompanied by
a certificate of the warden or other appropriate
officer of the institution in which the petitioner
is confined, stating the amount of money or
securities on deposit to the petitioner’s credit in
any account in the institution for the previous
twelve (12) months, which certificate may be
considered by the court in acting upon the
petitioner’s application for leave to proceed in
forma pauperis. If the application to proceed in
forma pauperis is granted, the filing fee shall
initially be waived, but may be assessed as
provided in Rule 32.7(e). Upon receipt of the
petition and the filing fee, or an order granting
leave to the petitioner to proceed in forma
pauperis, the clerk shall file the petition and
promptly send a copy to the district attorney (or,
in the case of a petition filed in the municipal
court, to the municipal prosecutor).
Ala. R. Crim. P. 32.6(a) (emphases added). In 1999,
there was a $140 filing fee for civil cases filed in circuit
court in Alabama. See 1999 Ala. Laws Act 99-427 (H.B.
53), Ala. Code § 12-19-71 (1999); see also Ex parte
Hurth, 764 So. 2d 1272, 1274 (Ala. 2000) (“The docket
fee for the filing of a petition for post-conviction relief
is $140.00.”).

14a
Clemons admits that he attempted to file his Rule
32 petition on December 27, 1999 without either a
filing fee or a motion to proceed IFP. The initial filing
contained the following request for relief: “Provide Mr.
Clemons, who is indigent and incarcerated, funds
sufficient to present witnesses, experts, and other
evidence in support of the allegations in this Petition
and any amendments thereto.” But this request did
not mention a filing fee or request any kind of waiver
of the fee, and though it did reference Clemons’s
indigent status, it did not provide the required
certified copy of his prison account necessary for an
IFP request. Notably, the omission was not remedied
by counsel until the following month, when Clemons
filed another copy of the Rule 32 petition with an
explicit request to proceed IFP on January 28, 2000,
accompanied by a certified copy of his prison account - three days after the federal limitations period had
expired. The circuit court noted in its case action
summary that Clemons’s petition was “filed” on
January 28, 2000. On March 14, 2000, Clemons filed a
motion in state court to correct what he termed a
“clerical error” in the notation, asking the court to
direct the clerk to docket his Rule 32 petition as having
been filed on December 27, 1999, obviously
anticipating the timeliness issues in federal habeas
proceedings. Alabama at the time had a two-year
statute of limitations, so the petition was timely in the
Alabama courts.
In an accompanying affidavit and at a state court
hearing on the motion, local counsel for Clemons at the
time, James S. Christie, Jr., associated with the law
firm of Bradley Arant, explained that he was prepared
to file the petition on December 23, 1999. Because it
was proving difficult to have the prison process the

15a
paperwork to execute Clemons’s IFP motion, he told
Clemons’s out-of-state counsel at the law firm of
Winston & Strawn, that he would pay the fee and file
the petition. Christie’s secretary could not determine
the amount of the fee, so Christie called the circuit
court clerk’s office to ask. He thought it was reasonable
to call the clerk’s office because filing fees differ from
county to county, in part because of a library tax that
is assessed differently in each court, making it
impossible to determine the exact amount of the fee
from statute alone. When he called, he spoke to a
woman in the clerk’s office, though he could not
remember her name or the precise words of their
conversation. Christie said at the hearing that he was
familiar with the people in the clerk’s office and that
his understanding was that “nobody down there
remembers talking to” him. He claimed, however, that
he “understood” from their conversation that a fee was
not necessary to file the petition, so he had his firm’s
runner file it without a fee. It “made sense” to him
because Clemons had already been granted IFP status
in the underlying case. In early January, he saw a copy
of the petition stamped “Dec 1999 received & filed,” so
he believed it had been properly filed.
According to Clemons’s counsel, later investigation
revealed not only that the petition was not filed by the
clerk, but also that the clerk’s office apparently lost it
for approximately four months, and the petition was
never docketed. On January 24, 2000, one day before
the AEDPA one-year limitation period would expire,
Clemons’s counsel mailed to the state court an IFP
motion in anticipation of other fees expected in the
litigation. He also submitted an amended Rule 32
petition, which contained no substantive changes but
merely inserted the identical petition into the state

16a
court’s Rule 32 template. Clemons says the petition
was mailed rather than hand-delivered because
counsel had no notice of any filing deficiencies in the
December 1999 petition. The clerk of court received
the IFP petition and the amended Rule 32 petition on
January 28, 2000 and docketed them on that date.
Months later, in April 2000, the original filing was
found, and it was docketed as though it had also been
filed on January 28, 2000. The Shelby County Circuit
Court issued a minute order on the docket in May 2000
that read: “Petitioner’s Motion to Correct Clerical
Error: Denied, as the Court finds the Defendant’s Rule
32 petition was properly filed on January 28, 2000.”
The Alabama Court of Criminal Appeals affirmed the
denial of the motion.
Clemons’s counsel does not dispute that Alabama
law required his Rule 32 petition to be accompanied by
a filing fee or a motion to proceed IFP -- that is, he does
not dispute that the petition was not “properly filed”
until January 28, 2000. Thus, it is crystal clear that
statutory tolling pursuant to § 2244 is unavailable to
Clemons. Rather, Clemons says he is entitled to
equitable tolling because of the misinformation his
attorney allegedly received when he called the clerk’s
office.
Equitable tolling “is an extraordinary remedy
limited to rare and exceptional circumstances” and
typically should be “applied sparingly.” Cadet v. Fla.
Dep’t of Corr., 853 F.3d 1216, 1221 (11th Cir. 2017)
(quotations omitted); see also Holland v. Florida, 560
U.S. 631, 649 (2010); Lawrence v. Florida, 549 U.S.
327, 336 (2007); Hunter v. Ferrell, 587 F.3d 1304, 1308
(11th Cir. 2009) (per curiam); Steed v. Head, 219 F.3d
1298, 1300 (11th Cir. 2000). Indeed, equitable tolling
may only be applied where there are “extraordinary

17a
circumstances that are both beyond [the petitioner’s]
control and unavoidable even with diligence.”
Lawrence v. Florida, 421 F.3d 1221, 1226 (11th Cir.
2005) (quoting Sandvik v. United States, 177 F.3d
1269, 1271 (11th Cir. 1999)), aff’d, 549 U.S. 327.
Moreover, the petitioner seeking equitable tolling
bears the burden of demonstrating that he is entitled
to it. Drew v. Dep’t of Corr., 297 F.3d 1278, 1286 (11th
Cir. 2002), overruled on other grounds as recognized
by Jones v. Sec’y, Fla. Dep’t of Corr., 906 F.3d 1339,
1351 (11th Cir. 2018). Under Supreme Court law, “a
petitioner is entitled to equitable tolling only if he
shows (1) that he has been pursuing his rights
diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely
filing.” Holland, 560 U.S. at 649 (quotations omitted);
see also Helton v. Sec’y for Dep’t of Corr., 259 F.3d
1310, 1312 (11th Cir. 2001) (per curiam) (“Equitable
tolling can be applied to prevent the application of the
AEDPA’s statutory deadline when extraordinary
circumstances have worked to prevent an otherwise
diligent petitioner from timely filing his petition.”
(quotation omitted)). Clemons has not met his burden.
We begin with the critical fact that Clemons was
represented by counsel when he failed to properly file
his Rule 32 petition within the one-year AEDPA
statute of limitations. Put another way, this is a case
in which an attorney made a mistake. As we have held,
“attorney negligence, even gross or egregious
negligence, does not by itself qualify as an
‘extraordinary circumstance’ for purposes of equitable
tolling; either abandonment of the attorney-client
relationship, such as may have occurred in Holland, or
some other professional misconduct or some other
extraordinary circumstance is required.” Cadet, 853

18a
F.3d at 1226–27 (emphases omitted)); see Maples v.
Thomas, 565 U.S. 266, 281 (2012). Whatever can be
said about the negligence of Clemons’s attorney, it is
clear it was just that, negligence. Clemons nonetheless
argues that the negligence of his counsel should be
excused and the limitations period equitably tolled
because he received misinformation from an unnamed
clerk. While we have extended the extraordinary
remedy of equitable tolling in limited cases where
misinformation from the state causes a pro se
petitioner to miss a filing deadline, Clemons was not a
pro se petitioner. He had counsel. And although his
counsel negligently relied on the advice of an unnamed
person in the clerk’s office in the face of clear statutory
filing requirements, this brings us to the end of the
analysis: Clemons is bound by the negligence of his
counsel and thus, he is not entitled to equitable tolling.
The cases implicating attorney negligence or
mistake are clear: negligence is not enough to warrant
equitable tolling. The Supreme Court has repeatedly
held “that ‘a garden variety claim of excusable neglect,’
such as a simple ‘miscalculation’ that leads a lawyer to
miss a filing deadline, does not warrant equitable
tolling.” Holland, 560 U.S. at 651–52 (quoting Irwin v.
Dep’t of Veterans Affairs, 498 U.S. 89, 96 (1990) and
Lawrence, 549 U.S. at 336); see also Smith v. Comm’r,
Ala. Dep’t of Corr., 703 F.3d 1266, 1271 (11th Cir.
2012) (per curiam) (“As to exceptional circumstances,
the general rule is that ‘when a petitioner’s
postconviction attorney misses a filing deadline, the
petitioner is bound by the oversight and cannot rely on
it to establish cause.’ ” (quoting Maples, 565 U.S. at
281)).
“[T]here are circumstances where ‘an attorney’s
unprofessional conduct can . . . count as an

19a
“extraordinary circumstance” justifying equitable
tolling.’ ” Smith, 703 F.3d at 1271–72 (quoting Maples,
565 U.S. at 281); see also Holland, 560 U.S. at 649–52
(rejecting a per se rule that “grossly negligent”
attorney conduct can never amount to a showing of
extraordinary circumstances). But the controlling case
law is clear on this point: attorney mistakes are
generally attributable to a client by agency principles;
because the attorney acts as his client’s agent, the
client is bound by the mistakes of the attorney.
In Holland, for example, the petitioner’s attorney
waited until there were twelve days remaining of the
one-year limitations period to file the state petition; he
failed to communicate with his client despite his
client’s repeated attempts to address the timing
problem; and he failed to inform his client of the state
court’s ultimate denial of his state petition, despite the
client having written repeatedly to plead for
information, including citing AEDPA in his
correspondence and expressing specific concerns about
timeliness. See Holland, 560 U.S. at 635–43. The
attorney in Holland finally responded to his client but
only weeks after the limitations period had expired
telling him -- incorrectly -- that the AEDPA limitations
period had expired before the attorney’s appointment.
Id. at 641. And, in Maples, the petitioner’s pro bono
counsel left their New York law firm while the state
petition was pending, were unable to represent Maples
under the terms of their new employment, and failed
to either inform Maples or seek leave of court to
withdraw. 565 U.S. at 270–71. The state court clerk
sent notice of the denial of Maples’s state petition to
those attorneys, but it was returned as undeliverable,
and Maples consequently failed to timely appeal the
denial. Id. at 271. There, the Supreme Court concluded

20a
that Maples had been “left without any functioning
attorney of record.” Id. at 288. In other words, he had
been abandoned.
Applying this standard, we have refused to
equitably toll statutes of limitations where there was
even gross negligence on the part of counsel. In Cadet,
we refused to equitably toll a limitations period where
the petitioner’s lawyer had misinterpreted the
language of § 2244 and failed to do even rudimentary
research after his client repeatedly questioned his
calculation. 853 F.3d at 1219–20. We explained that
while the attorney’s conduct was grossly negligent, “he
did not withdraw from representing Cadet, renounce
his role as counsel, utterly shirk all of his professional
responsibilities to Cadet, or walk away from their
attorney-client relationship.” Id. at 1234; see also
Thomas v. Att’y Gen., Fla., 795 F.3d 1286, 1293–94
(11th Cir. 2015) (noting that the relevant inquiry “is
not whether an attorney’s mistake or oversight was
egregious,” but rather “whether the attorney, through
her conduct, effectively abandoned the client,” and
remanding for the district court to apply the correct
standard).
In this case, it was clearly negligent for Clemons’s
attorneys to fail to investigate the statutory filing fee
and rely simply on the representations of an unnamed
person in the clerk’s office. For starters, the
requirements set forth in Rule 32.6(a) of the Alabama
Rules of Criminal Procedure are clear and
unambiguous. The petition “shall . . . be accompanied
by the filing fee prescribed by law or rule in civil cases
in the circuit court unless the petitioner applies for
and is given leave to prosecute the petition in forma
pauperis.” Ala. R. Crim. P. 32.6(a) (emphases added).
And if the petitioner seeks to prosecute the petition in

21a
forma pauperis, he is required to file the “In Forma
Pauperis Declaration” at the end of the form, along
with a statement concerning his prison account. Id.
Counsel for Clemons easily could have paid the filing
fee or could have filed an in forma pauperis motion
along with a certified copy of the petitioner’s prison
account when he filed the Rule 32 petition on
December 27, 1999. In fact, he filed these same
documents on January 28, 2000. While it may be true
that filing fees differ from county to county because the
Alabama Code authorizes local courts to assess local
fees above the statutory filing fee, a diligent lawyer
could plainly see that the filing fee was at minimum
$140, as set forth in the Alabama Code, and that the
only way to avoid paying the fee was to file a properly
supported motion to proceed IFP.
What’s more, even a rudimentary inquiry would
have revealed that the duties of the circuit clerk’s
office in Alabama as defined in Rule 4 of the Judicial
Administration Rules and in sections 12-17-93 and -94
of the Code of Alabama do not include the requirement
that the clerk inform counsel how to file a document
that complies with Alabama’s rules of procedure.
Alabama’s case law has made that point crystal clear.
See Smith v. Cowart, 68 So. 3d 802, 812 (Ala. 2011);
Ex parte Strickland, 172 So. 3d 857, 859–60 (Ala. Civ.
App. 2014).
Clemons nevertheless urges us to apply our law
equitably tolling statutes of limitations for pro se
litigants who rely on misinformation from court or
state officials. See Spottsville v. Terry, 476 F.3d 1241,
1245–46 (11th Cir. 2007) (equitably tolling AEDPA’s
statute of limitations where the state habeas court
advised a pro se petitioner to file his appeal in the
wrong state court, and the petitioner followed the state

22a
court’s misleading advice); Knight v. Schofield, 292
F.3d 709, 710–11 (11th Cir. 2002) (per curiam)
(equitably tolling AEDPA’s statute of limitations
where a pro se petitioner did not receive notice of the
Georgia Supreme Court’s denial of his habeas petition
for eighteen months after the court’s clerk
inadvertently sent notice to the wrong person).
But these cases take Clemons no further because
they are limited to pro se litigants, and Clemons was
represented by counsel. Clemons has pointed us to no
case that extended equitable tolling to a represented
party based on his attorney’s receipt of misinformation
from the state, and our research has turned up none.
Indeed, it is not unusual for us to treat pro se litigants
leniently while holding represented parties to a higher
standard. See, e.g., Erickson v. Pardus, 551 U.S. 89, 94
(2007) (per curiam) (“A document filed pro se is ‘to be
liberally construed,’ and ‘a pro se complaint, however
inartfully pleaded, must be held to less stringent
standards than formal pleadings drafted by lawyers.’ ”
(quoting Estelle v. Gamble, 429 U.S. 97, 106 (1976))).
Here, the misinformation purportedly provided by
someone in the clerk’s office was plainly contradicted
by the Alabama Code, which, as we have noted,
Clemons’s attorney should have consulted. We can
discern no sound basis to apply the extraordinary
remedy of equitable tolling to excuse the negligent
conduct of Clemons’s attorneys.
B. The State Court Properly Denied Clemons’s
Atkins Claim
Unlike his other thirty-one claims, Clemons’s
claim based on Atkins v. Virginia was timely. At the
time of Clemons’s trial and the initial filing of his Rule
32 petition, Supreme Court precedent had held that it

23a
was not per se unconstitutional to execute
intellectually disabled persons. See Penry, 492 U.S. at
340. But on June 20, 2002, the Court decided Atkins v.
Virginia, holding for the first time that the execution
of an intellectually disabled person categorically
violates the Eighth Amendment’s guarantee against
cruel and unusual punishment. 536 U.S. at 321. And
as we’ve said, the substantive constitutional rule
announced in Atkins applies retroactively to cases on
collateral review. See, e.g., Holladay, 331 F.3d at 1173.
Because Clemons properly raised his Atkins claim in
the state courts in a timely manner after the decision
and pursued it in this timely federal habeas petition
thereafter, Clemons’s Atkins claim is properly before
us.
1. The State-Court Proceedings
Clemons first argued his Atkins claim before the
Alabama Court of Criminal Appeals, which remanded
the matter to the state trial court for an evidentiary
hearing. After conducting an extensive hearing, the
state court denied the claim. Clemons now says the
state courts’ denial of his claim was either contrary to
or an unreasonable application of Atkins, or was based
on an unreasonable determination of the facts in light
of the evidence presented. We are unpersuaded.
Although the Court suggested in Atkins that an
evaluation of intellectual disability should conform to
current medical standards -- and embraced two
clinical definitions, that of the American Association
on Mental Retardation and the American Psychiatric
Association, which both set forth the three-part test we
use today -- it expressly left “to the State[s] the task of
developing appropriate ways to enforce the
constitutional restriction upon [their] execution of

24a
sentences.” 536 U.S. at 317 (quotation omitted and
alterations in original). The Alabama Supreme Court
took up this task in Ex parte Perkins, 851 So. 2d 453
(Ala. 2002). To show intellectual disability under
Alabama law, the petitioner is required to prove three
things: “(1) significantly subaverage intellectual
functioning (i.e., an IQ of 70 or below); (2) significant
or substantial deficits in adaptive behavior; and (3) the
manifestation of these problems during the
defendant’s developmental period (i.e., before the
defendant reached age 18).” Smith v. State, 213 So. 3d
239, 248 (Ala. 2007) (emphasis in original) (citing
Perkins, 851 So. 2d at 456).
The evidence adduced in the state court on
Clemons’s intellectual functioning included seven IQ
tests Clemons received over the course of his life,
beginning at age six. The scores varied widely, from
suggesting that he is highly disabled (51) to suggesting
that he has a functioning ability falling within the
range of ordinary (84). In two of the seven, the test
administrators explicitly found evidence of Clemons’s
“malingering,” a term psychologists use to describe an
examinee’s intentional frustration of a test, further
complicating the state court’s task of determining
Clemons’s level of intellectual functioning.
When Clemons was six years old, a school
psychologist
administered
the
Stanford-Binet
intelligence test, and although school records following
the test labeled Clemons “educable mentally
retarded,” his full-scale score on the test was a 77. In
1991, while in prison on unrelated charges at the age
of 19, one year before the Althouse murder, Clemons
took the BETA-II intelligence test and received a fullscale score of 84. This was the highest score Clemons
would receive on any intelligence test. The state

25a
court’s order referred to this test, but because it was
not introduced at the evidentiary hearing, Clemons
argues it should be disregarded.
Five
additional
intelligence
tests
were
administered following Clemons’s arrest for the
Althouse murder. In 1992, Drs. Mark Hazelrigg and
Bruce Berger administered the Wechsler Adult
Intelligence Scale-Revised (“WAIS-R”) at the federal
prison where Clemons was then held. Clemons
obtained a full-scale IQ score of 51, which was by far
the lowest score he would receive on any intelligence
test. The doctors noted that people in the low-50s IQ
range are “often in need of structured living and may
be institutionalized” and are typically unable to care
for themselves. They also observed that it would be
virtually impossible to validly score an 84 on BETA-II
and one year later validly score a 51 on WAIS-R, in the
absence of some intervening traumatic injury. Because
Clemons could care for himself before his arrest and
had scored an 84 on the BETA-II test administered the
year before, Hazelrigg and Berger concluded that the
score was invalid because Clemons was malingering.
In 2000, Dr. Kimberly Ackerson, who had been
retained by defense counsel, again administered the
WAIS-R. Clemons received a full-scale score of 73 this
time, and Dr. Ackerson said this score placed Clemons
in the “borderline” range for intellectual disability. In
contrast to the previous administration of WAIS-R, Dr.
Ackerson opined that Clemons did not appear to be
malingering; rather, he “appeared motivated,” was
“cooperative,” “deliberate in responding,” and
“interested in performance.” Then, in 2001, the state’s
expert, Dr. King, administered the Wechsler Adult
Intelligence
Scale-Third
Edition
(“WAIS-III”).
Clemons obtained a full-scale score of 77.

26a
In 2003, the defense expert, Dr. Golden,
administered the Stanford-Binet Intelligence ScaleFourth Edition. Clemons obtained a full-scale score of
58. Dr. Golden testified that because Stanford-Binet
uses a slightly different scoring system, the full-scale
score should be adjusted to be comparable with other
tests such as the WAIS. Thus, he said the full-scale
score of 58 should be adjusted to 61. Then he testified
that even 61 was too low and the “better estimate of
the Binet IQ is to average [the] four scores” on the
different portions of the exam, which in Clemons’s case
would yield a total score of 66.
Finally, in 2004, the state’s expert, Dr. King,
administered the original, unrevised WAIS, on which
Clemons obtained a full-scale score of 67. King
testified that WAIS is considered an easier test than
WAIS-III, and he adjusted the score to 60 to bring it in
line with the contemporary test scores. Dr. King also
testified that he suspected Clemons was malingering
on this test. He explained that Clemons appeared more
indifferent than when he had evaluated him in 2001
(pre- Atkins), and that Clemons gave incorrect
answers on several questions that he had previously
gotten right. King opined that without an intervening
medical event, such as a stroke, a 17-point drop in a
three-year period would be difficult to explain. Thus,
King concluded that Clemons must have been
malingering on the 2004 test. To substantiate this
hypothesis, King administered a Test of Memory
Malingering (“TOMM”), which is a 50-item recognition
test intended to assess malingering in psychological
examinations. King testified that Clemons’s score of 44
indicated that he was, in fact, malingering.
Moreover, the record contained additional
evidence suggesting that Clemons was malingering

27a
when he was psychologically evaluated. Thus, for
instance, Dr. Wilburn Rivenbark examined Clemons
in 1992 and 1994 for his competency to stand trial. In
the 1992 test, Rivenbark suspected that Clemons was
malingering for psychosis, because Clemons reported
“seeing and hearing a ‘little green friend,’ ” and several
times smiled or laughed inappropriately but stopped
acting this way when confronted. Moreover, Clemons
insisted that he had a history of mental illness despite
the absence of any documentation supporting the
claim. When Rivenbark evaluated Clemons again in
1994, Clemons refused to speak with him or make eye
contact, leading Rivenbark again to opine that
Clemons was malingering. In both evaluations,
Rivenbark concluded that Clemons was competent to
stand trial.
In 1993, Clemons was evaluated for competency by
Dr. William Grant at the request of defense counsel.
Dr. Grant similarly believed Clemons to be
malingering. Like Rivenbark, Grant noted that
Clemons would laugh inappropriately but stop when
confronted. Grant also said that Clemons asked for
Valium, and that Grant told him that the drug was
unlikely to be available to inmates. Grant did mention
twice that a different anti-depressant, Sinequan, was
sometimes available. He was later informed that
Clemons then asked prison staff for Sinequan by name
on multiple occasions. Grant added this: “I mention
these events because they are discordant with the
Defendant’s inability to repeat” simple phrases on the
test. Thus, the record evidence on Clemons’s
intellectual functioning was contradictory but
shadowed by a pattern of malingering on psychological
examinations.

28a
As for adaptive functioning, the second prong of
Perkins, the only evidence of Clemons’s deficits came
from the testimony of Dr. Golden. Dr. Golden
administered the Adaptive Behavior Assessment
System test (“ABAS-II”). The ABAS-II assesses
adaptive functioning in ten areas: communication, use
of community resources, functional academics, health
and safety, home living, leisure, self-care, selfdirection, social skills, and work skills. Dr. Golden
concluded that Clemons was severely deficient in selfdirection, social skills, work skills, home living, health
and safety, and leisure.
Ultimately, the state court concluded that
Clemons had not carried his burden to show that he is
intellectually disabled under Perkins or Atkins
because he had shown neither that his intellectual
functioning was significantly subaverage, nor that he
had substantial deficits in adaptive functioning. The
state trial court thoroughly recounted the testimony of
Dr. King and Dr. Golden at the evidentiary hearing, as
well as the intelligence tests submitted into the record.
The court discounted those scores for which the test
administrators noted evidence of malingering -- that
is, the 1992 score of 51 on the WAIS-R and the 2004
score of 67 (adjusted to 60) on the WAIS. It further
discounted the Stanford-Binet test administered by
Dr. Golden, where Clemons received a full-scale score
of 58, which Dr. Golden adjusted to a 66. The state
court noted that Dr. Golden did not satisfactorily
explain why the additional calculations were
necessary to accurately assess Clemons’s score, nor
why the Stanford-Binet test was a better measure of
intellectual functioning for those with intellectual
disabilities. Ultimately, the court discounted this score
-- originally a full-scale score of 58, which was at least

29a
15 points lower than Clemons’s remaining test scores
-- because of his extensive history of malingering.
Having discounted the very low scores, the state court
was left with four IQ scores: a 77 on the Stanford-Binet
when Clemons was a child; an 84 when the BETA-II
was administered in 1991; a 73 on the WAIS-R in 2000;
and a 77 on the WAIS-III in 2001. The state court
concluded, based on the tests, the evidence of
malingering, and the fact that, of all of the doctors who
evaluated Clemons over the years, only Dr. Golden
ever opined that Clemons was intellectually disabled,
that Clemons had failed to establish significant
subaverage intellectual functioning. The court
explained its finding this way: “when Clemons puts
forward some effort he consistently scores in the 70-80
range on intelligence tests” and “when Clemons
malingers he consistently scores in the 50-60 range.”
The state trial court likewise found insufficient
evidence of adaptive functioning deficits to support a
finding of intellectual disability. The state court did
not discuss Dr. Golden’s testimony or the ABAS-II test.
Instead, it relied on evidence of Clemons’s adaptive
strengths, including his employment history, his
ability to form intimate relationships, his extensive
involvement in criminal activity, his “post-crime
craftiness,” and his ability to use community
resources. Clemons, 55 So. 3d at 329. In particular, the
state court discussed Clemons’s job as a pizza delivery
worker and his relationships with women, including
the fact that he had fathered two children. The court
also highlighted Clemons’s efforts to evade law
enforcement and his false statements following the
Althouse murder. The court found that this
established a certain degree of criminal sophistication.
Finally, it noted Clemons’s ability to use community

30a
resources, as evidenced by his ability to take a bus to
Cleveland in order to elude capture. Id. at 331.
The Alabama Court of Criminal Appeals affirmed,
adopting the state trial court’s findings and decision as
its own. See Clemons, 55 So. 3d at 322–32. Finally, on
August 13, 2010, the Alabama Supreme Court denied
Clemons’s petition for certiorari without an opinion.
Ex parte Clemons, No. 1070535 (Ala. Aug. 13, 2010)
(per curiam). Clemons claims that the Alabama Court
of Criminal Appeals unreasonably applied Atkins and
unreasonably determined the facts in light of the
evidence.
2. Intellectual Functioning
Clemons says that the state court unreasonably
discounted certain valid IQ scores and unreasonably
credited other invalid scores. As we’ve elaborated,
there are seven IQ scores in the record: 77 in
childhood; 84 in 1991; 51 in 1992; 73 in 2000; 77 in
2001; 58 (adjusted to 66) in 2003; and 67 (adjusted to
60) in 2004. The parties dispute several of these scores.
But regardless of those specific disputes, the state
court’s factual determinations were not unreasonable.
First, it is abundantly clear that a state court may
discount IQ scores where there is evidence of
malingering. See Carroll v. Sec’y, DOC, 574 F.3d 1354,
1359, 1367–68 (11th Cir. 2009) (holding that it was not
objectively unreasonable to discount low IQ scores in
the face of evidence of malingering). It was not
unreasonable for the state court to discount an IQ
score of 51 obtained in 1992 and a score of 67 (adjusted
to 60) obtained in 2004. Both tests were rendered
infirm because, the state court found, Clemons was
malingering. Moreover, there was a substantial body
of additional evidence suggesting that Clemons had

31a
engaged in a pattern of malingering, including the
reports of several other doctors who had evaluated
Clemons over the years.
Second, as the trier of fact considering the Rule 32
petition, the state court was entitled to make
credibility determinations. There was nothing
objectively unreasonable about the state court having
discounted the testimony of Dr. Golden and the 2003
Stanford-Binet test he administered. In that one,
Clemons received a full-scale score of 58, but Dr.
Golden adjusted it to a 66. Golden’s testimony about
the reliability of the Stanford-Binet test and the need
to adjust Clemons’s score was contradicted by the
testimony of the state’s expert, Dr. King. The state
court was entitled to believe Dr. King and discount Dr.
Golden’s opinion.
Discounting three scores on account of
malingering left the state trial judge with four to
consider: a 77 in childhood; an 84 in 1991; a 73 in 2000;
and a 77 in 2001. Based on all the evidence it heard,
the court found that “when Clemons puts forward
some effort he consistently scores in the 70-80 range
on intelligence tests” but that “when Clemons
malingers he consistently scores in the 50-60 range.”
The valid scores placed Clemons in the 70–80 IQ
range; therefore, the state court determined that
Clemons failed to show significantly subaverage
intellectual functioning.
At the time the state court denied Clemons’s
petition, no clearly established federal law prohibited
state courts from using a bright-line cutoff for IQ
scores above 70. IQ scores at 70 and below indicate
intellectual disability, while typically those above 70
do not. The state court tellingly cited Alabama

32a
precedent which, at the time, explained that a fullscale score of 72 “seriously undermines any conclusion
that [a petitioner] suffers from significantly
subaverage intellectual functioning as contemplated
under even the broadest definitions.” Ex parte Smith,
213 So. 3d 214, 225 (Ala. 2003).
Years after Alabama’s denial of Clemons’s Atkins
claim, however, the Supreme Court decided Hall v.
Florida, 572 U.S. 701 (2014). There, the Court held for
the first time that “when a defendant’s IQ test score
falls within the test’s acknowledged and inherent
margin of error [+/- 5], the defendant must be able to
present additional evidence of intellectual disability,
including testimony regarding adaptive deficits.” Id. at
723; see also Kilgore, 805 F.3d at 1308. “Hall explained
that a state’s assessment of a defendant’s intellectual
disability should focus on whether he has evidenced,
beginning ‘during the developmental period,’ both (1)
‘significantly subaverage intellectual functioning,’ and
(2) ‘deficits in adaptive functioning (the ability to learn
basic skills and adjust behavior to changing
circumstances).’ ” Kilgore, 805 F.3d at 1308 (quoting
Hall, 572 U.S. at 710). Because these criteria are
“interrelated” and no “single factor [is] dispositive,”
“an individual with an IQ test score between 70 and 75
or lower may show intellectual disability by presenting
additional evidence regarding difficulties in adaptive
functioning.” Hall, 572 U.S. at 722–23 (quotation
omitted). However, we subsequently held that Hall’s
procedural constitutional rule was not retroactive. See
Kilgore, 805 F.3d at 1314, cert. denied, 138 S. Ct. 446
(2017) (mem.); In re Henry, 757 F.3d 1151, 1161 (11th
Cir. 2014).
Clemons relies heavily on Hall because the scores
he argues are valid and should be considered -- 73 in

33a
2000, 75 in 2001 (adjusted down to credit Clemons’s
claim that Dr. King made a scoring error that
produced the score of 77), 66 in 2003, and 67 in 2004 - average to 70.25. After Hall, this would place
Clemons in the standard error range of 70 to 75, and
the intelligence prong would not be dispositive on its
own, but rather must be considered in conjunction
with adaptive functioning. But we have already held
that before Hall was decided “[n]othing in Atkins
suggested that a bright-line IQ cutoff of 70 ran afoul of
the prohibition on executing the intellectually
disabled.” Kilgore, 805 F.3d at 1312. And thus, before
Hall, a state court could conclude that a petitioner
failed to satisfy the intellectual functioning prong of
Atkins when his scores were above 70 but below 75.
In short, it was neither contrary to nor an
unreasonable application of Atkins for the state court
to conclude, as it did, that “when Clemons puts
forward some effort he consistently scores in the 70-80
range on intelligence tests,” and thus that he had
failed to demonstrate significantly subaverage
intellectual functioning.
The state court’s conclusion was bolstered by the
fact that of the seven experts who evaluated Clemons
in his adult years -- five of whom administered tests of
intellectual functioning -- only one, Dr. Golden, ever
opined that Clemons was intellectually disabled.
Indeed, five out of the seven who examined him
(Hazelrigg, Berger, King, Rivenbark, and Grant)
opined that Clemons was malingering psychological
symptoms. In the face of this body of evidence, we
cannot say that the state court’s determination that
Clemons had failed to show significantly subaverage
intellectual functioning was based on an unreasonable
determination of the facts, or that it was an

34a
unreasonable application
Supreme Court law.

of

clearly

established

3. Adaptive Functioning
Finally, Clemons argues that the state court
unreasonably applied Atkins because it focused on his
adaptive strengths, rather than on his weaknesses,
and because it failed to account for Dr. Golden’s
testimony regarding adaptive deficits and the ABASII test. Clemons relies on Moore v. Texas, 137 S. Ct.
1039 (2017), a Supreme Court case that long postdates the state court’s denial of his Rule 32 petition
and thus could not have been “clearly established” at
the time the state courts decided this matter. 3 In
Moore, the Supreme Court held that the Texas Court
of Criminal Appeals had erred in “overemphasiz[ing]
[petitioner’s] perceived adaptive strengths,” despite
the medical community’s focus on “adaptive deficits.”
Id. at 1050 (emphasis in original). Moreover, the
Supreme Court heard Moore on direct review, rather
than on collateral review, where AEDPA requires
substantial deference. And in a more recent decision - Shoop v. Hill, 139 S. Ct. 504 (2019) (per curiam) -- the
Supreme Court, this time on collateral review, rejected
the argument that a pre-Moore state court decision
unreasonably applied Atkins by focusing on adaptive
strengths over adaptive deficits. The Court reasoned
that because “Atkins did not definitively resolve how
[the adaptive functioning prong] was to be evaluated
but instead left its application in the first instance to
the States,” it was not an unreasonable application of
This Court also has held that Moore cannot be applied
retroactively under Teague v. Lane, 489 U.S. 288 (1989). See
Smith v. Comm’r, Ala. Dep’t of Corr., 924 F.3d 1330, 1338–40
(11th Cir. 2019), cert. denied sub nom., Smith v. Dunn, 2020 WL
3578738 (July 2, 2020).

3

35a
Atkins to focus on adaptive strengths. Id. at 508. While
that approach today would be contrary to clearly
established federal law -- that is, contrary to Moore v.
Texas -- it was neither contrary to nor an unreasonable
application of clearly established Supreme Court law
when the state court denied Clemons’s petition.
***
At the end of the day, we hold that the district
court properly denied Clemons’s habeas petition and
AFFIRM its judgment.

36a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 16-13020-P
EUGENE MILTON CLEMONS, II,
versus

Petitioner - Appellant,

COMMISSIONER, ALABAMA DEPARTMENT OF
CORRECTIONS, WARDEN, HOLMAN CF
Respondents - Appellees.
Appeal from the United States District Court
for the Northern District of Alabama
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
Before WILSON, JILL PRYOR and MARCUS,
Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having

37a
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)
ORD-46

38a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 16-13020-P
EUGENE MILTON CLEMONS, II,
Petitioner - Appellant,
versus
COMMISSIONER, ALABAMA DEPARTMENT OF
CORRECTIONS, WARDEN, HOLMAN CF
Respondents - Appellees.
Appeal from the United States District Court
for the Northern District of Alabama
Before HULL, WILSON and JILL PRYOR, Circuit
Judges.
BY THE COURT:
EUGENE Milton Clemons, II’s motion for a
certificate of appealability (“COA”) is GRANTED on
the following issues:

39a
(1)

Whether, in its March 17, 2015 Order, the
district court erred in dismissing
Clemons’s Claims II through XXXII of his
28 U.S.C. § 2254 petition for a writ of
habeas corpus on the ground that those
claims were untimely filed under AEDPA’s
statute of limitations and Clemons had not
shown a basis for equitable tolling; 4 and

(2)

Whether, in its March 28, 2016 Order, the
district court erred in concluding that the
Alabama state courts’ ruling after an
evidentiary hearing—that Clemons was
not intellectually disabled within the
meaning of Atkins v. Virginia, 536 U.S.
304, 122 S. Ct. 2242 (2002)—was not
contrary to or an unreasonable application
of clearly established federal law, or was
not
based
on
an
unreasonable
determination of the facts in light of the
evidence presented.

To the extent Clemons raises other issues in his
application, the Court DENIES a COA as to those
issues.

Clemons is entitled to a COA on the first of these issues because,
at a minimum, jurists of reason would find it debatable whether
his trial counsel rendered ineffective assistance during the
penalty phase of his trial. See Slack v. McDaniel, 529 U.S. 473,
484 (2000); Spencer v. United States, 773 F.3d 1132, 1138 (11th
Cir. 2014) (en banc).

4

40a
APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
EUGENE MILTON CLEMONS, II,
Petitioner,
v.
WILLIAM G. SHARP, JR., Interim Commissioner,
Alabama Department of Corrections; WALTER
MYERS, Warden, Holman Correctional Facility,
Respondents.
______________
No. 2:10-CV-2218-SLB
______________
Before SHARON L. BLACKBURN, District Judge
MEMORANDUM OPINION
This case is presently pending before the court on
respondents’ Motion to Dismiss Eugene Clemons’s
Untimely-filed Petition for Writ of Habeas Corpus.
(Doc. 25.) 1 Petitioner Eugene Milton Clemons, II,
protectively filed a Petition for Writ of Habeas Corpus
in this court on August 16, 2010. (Doc. 1.) After a stay
of the matter pending additional state post-conviction
proceedings, respondents, William G. Sharp, Jr. and
Walter Myers, filed a Motion seeking to dismiss
Clemons’s petition as untimely filed. Upon
consideration of the record, the submissions of the
parties, and the relevant law, the court is of the
Reference to a document number, [“Doc.
”], refers to the
number assigned to each document as it is filed in the court’s
record.
1

41a
opinion that respondents’ Motion to Dismiss Eugene
Clemons’s Untimely-filed Petition for Writ of Habeas
Corpus, (doc. 25), is due to be granted in part and
denied in part.
Pursuant to the Antiterrorism and Effective Death
Penalty Act [hereinafter “AEDPA”], Antiterrorism and
Effective Death Penalty Act's (AEDPA):
(d)(1) A 1-year period of limitation shall apply to
an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a
State court. The limitation period shall run
from the latest of –
(A)
the date on which the judgment became
final by the conclusion of direct review or the
expiration of the time for seeking such review;
(B)
the date on which the impediment to
filing an application created by State action in
violation of the Constitution or laws of the
United States is removed, if the applicant was
prevented from filing by such State action;
(C)
the date on which the constitutional right
asserted was initially recognized by the
Supreme Court, if the right has been newly
recognized by the Supreme Court and made
retroactively applicable to cases on collateral
review; or
(D)
the date on which the factual predicate of
the claim or claims presented could have been
discovered through the exercise of due diligence.
(2)
The time during which a properly filed
application for State post-conviction or other
collateral review with respect to the pertinent
judgment or claim is pending shall not be

42a
counted toward any period of limitation under
this subsection.
28 U.S.C.A. § 2244(d). “[Subsection] 2244(d)(1)
provides that a ‘1-year period of limitation shall apply
to an application for a writ of habeas corpus.’ ” Pace v.
DiGuglielmo, 544 U.S. 408, 416 n.6 (2005)(emphasis in
Pace). Subsection 2244(d)(1) “provides one means of
calculating the limitation with regard to the
‘application’ as a whole, § 2244(d)(1)(A)(date of final
judgment), but three others . . . require claim-by-claim
consideration,
§
2244(d)(1)(B)
(governmental
interference); § 2244(d)(1)(C)(new right made
retroactive); § 2244(d)(1)(D) (new factual predicate).”
Id. In this Circuit, “the statute of limitations in
AEDPA applies on a claim-by-claim basis in a multiple
trigger date case.” Zack v. Tucker, 704 F.3d 917, 926
(11th Cir.)(en banc); see also id. at 927 (Carnes, J.,
concurring specially)(“Adopting the petitioner’s
interpretation of the statutory language [that §
2244(d)(1)(B)-(D) applied to the application as a whole]
would mean that every time the Supreme Court issued
a decision recognizing a new, retroactively applicable
constitutional right, the statute of limitations bar
would be lifted for any and all other claims a petitioner
wished to bring. And that would be true no matter how
old those other claims were, no matter how unrelated
they were to the new law claim, and no matter how
baseless the new law claim was in that case.”).
This case is a “multiple trigger date case.” See id.
at 926. Petitioner has raised an Atkins claim, 2 (doc. 1

On June 2, 2002, the Supreme Court decided Atkins v.
Virginia, 536 U.S. 304 (2002). In Atkins, the Supreme Court
held:

2

43a
¶¶ 27-41, at pp. 27-30 [stating as a ground for relief,
“Mr. Clemons is mentally retarded and cannot be
executed under the United States Supreme Court
decision in Atkins v. Virginia”]), which the parties
agree is timely pursuant to § 2244(d)(1)(C). (Doc. 28 at
25; doc. 30 at 22.) Therefore, respondents’ Motion to
Dismiss, (doc. 25), will be denied as to petitioner’s
Atkins claim.
As for Clemons’s remaining grounds for relief,
respondents contend the claims are barred by §
2244(d)(1)(A)’s one-year statute of limitations, and
such claims are not subject to either statutory or
equitable tolling.
A.

STATUTORY TOLLING

The issue for this court to decide is whether
petitioner’s Rule 32 post-conviction petition was
“properly filed” in the Alabama state court on
December 27, 1999, or on January 28, 2000. Clemons’s
Our independent evaluation of the issue reveals no reason
to disagree with the judgment of the legislatures that
have recently addressed the matter and concluded that
death is not a suitable punishment for a mentally
retarded criminal. We are not persuaded that the
execution of mentally retarded criminals will measurably
advance the deterrent or the retributive purpose of the
death penalty. Construing and applying the Eighth
Amendment in the light of our evolving standards of
decency, we therefore conclude that such punishment is
excessive and that the Constitution places a substantive
restriction on the State’s power to take the life of a
mentally retarded offender.
Id. (internal citation and quotations omitted). “[T]here is no
question that the rule . . . announced by the Supreme Court in
Atkins . . . is a new rule of constitutional law made retroactive to
cases on collateral review by the Supreme Court that was
previously unavailable.” In re Holladay, 331 F.3d 1169, 1172
(11th Cir. 2003).

44a
conviction became final on January 25, 1999, the date
the Supreme Court of the United States denied his
petition for writ of certiorari. Pursuant to § 2244(d)(1),
Clemons had one year to file his federal habeas
petition; however, this one-year limitations period is
tolled while “a properly filed application for State postconviction or other collateral review with respect to the
pertinent judgment or claim is pending,” id. (d)(2).
Therefore, if Clemons’s Rule 32 petition was “properly
filed” on December 27, 1999, the time for filing his
habeas petition in this court was tolled and his habeas
petition is timely. However, if his Rule 32 petition was
not “properly filed” until January 28, 2000, the time
for filing his federal habeas petition expired and his
petition, save his Atkins claim, was untimely filed. 3
See Sibley v. Culliver, 377 F.3d 1196, 1204 (11th Cir.
2004)(“We note in closing that none of the documents
Sibley attempted to file with the state courts after
August 10, 2001 – the deadline for filing a federal
habeas petition – could in any way toll that deadline
because, once a deadline has expired, there is nothing
left to toll. A state court filing after the federal habeas
filing deadline does not revive it.” (citing Moore v.
Crosby, 321 F.3d 1377, 1381 (11th Cir. 2003))).
The undisputed facts show that Clemons,
represented by counsel, filed his Petition for Relief
from Judgment Pursuant to Rule 32 of the Alabama
Rules of Criminal Procedure [hereinafter “Rule 32
Petition”] without a filing fee or application to waive
the filing fee and proceed in forma pauperis. Clemons
has filed a copy of his Rule 32 Petition, which was
stamped “received & filed” on December 27, 1999, by
The parties agree that, unless tolled, the deadline for filing his
federal habeas petition expired no later than January 26, 2000.
(See doc. 25 at 9; doc. 28 at 7).
3

45a
the Court Clerk of the Circuit Court of Shelby County.
(Doc. 28-1 at 2.) His Rule 32 Petition contained the
following request for relief – “Provide Mr. Clemons,
who is indigent and incarcerated, funds sufficient to
present witnesses, experts, and other evidence in
support of the allegations in this Petition and any
amendments thereto.” (Id. at 32.)
On December 27, 1999, Rule 32.6(a) of the
Alabama Rules of Criminal Procedures provided:
A proceeding under this rule is commenced by
filing a petition, verified by the petitioner or
petitioner's attorney, with the clerk of the court.
A petition may be filed at any time after entry
of judgment and sentence (subject to the
provisions of Rule 32.2(c)). 4 The petition should
be filed by using or following the form
accompanying this rule. If that form is not used
or followed, the court shall return the petition
to the petitioner to be amended to comply with
the form. The petition shall be accompanied by
two copies thereof. It shall also be accompanied
by the filing fee prescribed by law or rule in civil
cases in circuit court unless the petitioner
applies for and is given leave to prosecute the
petition in forma pauperis, in which event the
fee shall be waived. If the
On December 27, 1999, Rule 32.2(c) provided that a two-year
statute of limitations for filing a Rule 32 petition for postconviction relief, measured from the date the certificate of
judgment was issued by the Court of Criminal Appeals. Ala. R.
Crim. P. 32.2(c)(2000). Therefore, Clemons’s Rule 32 Petition was
“timely” filed under Alabama law whether it was deemed filed in
January 2000, when he filed his application to proceed in forma
pauperis, or December 1999, when he filed his Rule 32 Petition
without the filing fee and without a request to waive the fee.

4

46a
petitioner desires to prosecute the petition in
forma pauperis, he shall file the In Forma
Pauperis Declaration at the end of the form. In
all such cases, the petition shall also be
accompanied by a certificate of the warden or
other appropriate officer of the institution in
which the petitioner is confined as to the
amount of money or securities on deposit to the
petitioner's credit in any account in the
institution, which certificate may be considered
by the court in acting upon his application for
leave to proceed in forma pauperis. Upon receipt
of the petition and the filing fee, or an order
granting leave to the petitioner to proceed in
forma pauperis, the clerk shall file the petition 5
and promptly send a copy to the district
attorney (or, in the case of a petition filed in the
municipal court, to the municipal prosecutor).
Ala. R. Crim. P. 32.6(a)(2000)(footnotes and emphasis
added).
The Circuit Court’s Case Action Summary shows
that Clemons’s Rule 32 Petition was “filed” on January
28, 2000 – noting:
Motion to proceed In Forma Pauperis filed.
Declaration in support of [motion to] proceed In
Forma Pauperis filed.

The Alabama Court of Criminal Appeals held, “A Rule 32
petition is deemed filed for purposes of the limitations period the
date the petition, accompanied by a request to proceed in forma
pauperis, is submitted to the circuit court, not the date the circuit
court grants the request to proceed in forma pauperis.” Hyde v.
State, 950 So. 2d 344, 353 (Ala. Crim. App. 2006).
5

47a
Petition for relief from conviction or sentence
pursuant to Rule 32 of the Alabama Rules of
Criminal Procedure filed.
Grounds of petition filed.
(Doc. 28-3 at 2.)
On March 14, 2000, Clemons filed a Motion to
Correct Clerical Error, asking the court “to correct a
clerical error of the Clerk of the Circuit Court of Shelby
County,” and “direct[ ] the Clerk to docket, as filed on
December 27, 1999, Petitioner’s [Rule 32] Petition.”
(Doc. 28-7 at 2.) The state court set Clemons’s motion
for a hearing and specifically instructed counsel “to
provide the Court with appropriate case law re: the
issue of filing without the appropriate Motion to
Proceed In Forma Pauperis and order thereon being
filed with the original petition.” (Doc. 28-3 at 3.) On
May 4, 2000, after a hearing on the matter, the state
court denied Clemon’s Motion to Correct Clerical Error
because “the Court finds the Defendant’s Rule 32
Petition was properly filed on January 28, 2000.” (Id
at 5.)
The Circuit Court’s decision to deny Clemons’s
Motion to Correct Clerical Error was affirmed on
appeal. Clemons v. State, 55 So. 3d 314, 335 (Ala.
Crim. App. 2003), 55 So. 3d 348 (Ala. 2007)(holding
that Court of Criminal Appeals could not raise
procedural bar of preclusion sua sponte absent
extraordinary circumstances). In its decision, the
Alabama Court of Criminal Appeals held:
In this case, the petition that counsel
attempted to file on December 27, 1999, was not
accompanied by a filing fee or a request to
proceed in forma pauperis. Therefore, the

48a
petition was not properly filed at that time, as
contemplated by Rule 32.6(a), Ala. R. Crim. P.
Thereafter, on January 28, 2000, a Rule 32
petition and a request to proceed in forma
pauperis were presented to the circuit clerk, and
that was the date the circuit clerk used as the
filing date for the Rule 32 petition. The circuit
court did not grant the request to proceed in
forma pauperis until February 2, 2000.
Therefore, the circuit court should have used
February 2, 2000, as the filing date. 6 However,
as the appellant concedes, any error regarding
the filing date is not important in this case
because the appellant timely filed his petition.
Under these circumstances, the circuit court
properly denied the appellant's request to
change the filing date to December 27, 1999.
Id.
Clemons contends that his Rule 32 Petition was
filed on December 27, 1999, based on two rules:
First, when there is a discrepancy regarding a
filing date, the petition is deemed filed when
stamped as such by the court. See Ex parte
In Hyde v. State, the Court of Criminal Appeals held that the
Rule 32 Petition, overruled the Clemons’s court’s finding that the
Rule 32 Petition is deemed filed when the filing fee is waived by
the grant of IFP status. See Hyde v. State, 950 So. 2d 344, 348,
353 and n.6 (Ala. Crim. App. 2006). It held that, “to the extent
that Clemons holds that a Rule 32 petition is not deemed ‘filed’
until the date the circuit court grants the request to proceed in
forma pauperis, it is hereby overruled;” however, it noted, “In
those cases, as in Clemons, in which a petition is initially
submitted without a request to proceed in forma pauperis, the
correct filing date would be the date the request to proceed in
forma pauperis is eventually submitted.” Id. at 353 and n.6.
6

49a
Nesbitt, 850 So. 2d 228, 229 (Ala. 2002). Second,
if a petition initially contains some
insufficiency, such as an incomplete filing fee or
IFP request, Alabama law deems it properly
filed when first submitted to the court so long as
the defect is cured within a reasonable period of
time. See id. at 231-32; Garrett v. State, 644 So.
2d 977, 980 (Ala. Crim. App. 1994), overruled on
other grounds by Ex parte Jenkins, 972 So. 2d
159 (Ala. 2005); Hyde v. Alabama, 950 So. 2d
344, 353 (Ala. Crim. App. 2006). These two
rules, separately and together, dictate that Mr.
Clemons’[s] Rule 32 petition be deemed properly
filed on December 27, 1999 because (1) the court
stamped it filed and received on that date and
(2) the deficiency contained in Mr. Clemons’
initial IFP request was promptly cured.
(Doc. 28 at 10.)
The fact that the Circuit Court Clerk stamped
Clemons’s Rule 32 Petition “received and filed” does
not indicate that the Rule 32 Petition was “properly
filed” as that term has been interpreted by the
Supreme Court. In Artuz v. Bennett, 531 U.S. 4 (2000),
the Court stated, “If, for example, an application is
erroneously accepted by the clerk of a court lacking
jurisdiction, or is erroneously accepted without the
requisite filing fee, it will be pending, but not
properly filed.” Artuz, 531 U.S. at 9 (bold emphasis
added; other emphasis in original). The court,
therefore, finds that the “filed” stamp on the face of
Clemons’s Rule 32 Petition does not prove that his
Rule 32 Petition was “properly filed” on December 27,
1999.
The undisputed facts show that Clemons’s Rule 32
Petition was not accompanied by the required filing fee

50a
or an application to waive the filing fee in conformity
with Rule 32's requirements. However, Clemons
contends that a request for relief included in his Rule
32 Petition constituted an application to proceed in
forma pauperis, although not in the required “form.”
(Doc. 28 at 12.) As stated above, Clemons’s Rule 32
Petition contained this request for relief – “Provide Mr.
Clemons, who is indigent and incarcerated, funds
sufficient to present witnesses, experts, and other
evidence in support of the allegations in this Petition
and any amendments thereto.” (Doc. 28-1 at 32.) This
request for relief makes no mention of a filing fee or
ask for waiver of the same. The court has rejected this
argument in a factually-similar case. In Smith v.
Campbell, Case No. 5:05-CV-1547-LSC-JEO, a death
habeas case, the petitioner Smith, like Clemons, had
argued that his request to be provided “funds sufficient
to present witnesses, experts and other evidence”
contained in his Rule 32 Petition was the equivalent of
an IFP motion, although not in the proper technical
form. The court held:
Smith acknowledges that the Rule 32
application filed on September 27, 2001, was not
accompanied by an In Forma Pauperis (“IFP”)
Declaration or the filing fee. (Doc. 17 at 5-6). He
also does not deny that he never filed a
Declaration or statement of his prisoner
account, and did not pay the filing fee until
February 6, 2002. (Id.). Instead, he states that
“Alabama law does [not] require a motion to
proceed in forma pauperis to be in a prescribed
form.” (Id. at 6 n. 5 (citing ALA. R.CRIM. P.
32.6(a)). He further argues,
In the prayer for relief at the end of Mr. Smith’s
state habeas petition, Mr. Smith stated:

51a
“Petitioner Ronald Bert Smith, Jr. respectfully
asks this Honorable court to grant him the
following relief. . . (b) provide petitioner, who is
indigent, with funds sufficient to present
witnesses, experts, and other evidence in
support of the allegations contained in this
petition.” (E.H. CR. 157). While Mr. Smith’s
request to proceed in forma pauperis was not in
the proper form, Alabama courts have no
authority to provide funds to a petitioner absent
a petitioner being deemed in forma pauperis.
Accordingly, it is implied, that Mr. Smith, in his
prayer for relief, was requesting to proceed in
forma pauperis.
(Id.).
Contrary to Smith’s assertion, the foregoing
language in his prayer for relief does not imply
that he be granted IFP status so that the filing
fee could be waived. The filing fee is not even
mentioned nor did Smith file a certified copy of
his prison account funds as proof of indigence.
Smith also does not provide any case law
illustrating that Alabama has no authority to
“provide funds” in the absence of an IFP
declaration. In order to properly file the
petition, the mandatory language of Rule
32.6(a) required Smith [to file] a separate
declaration form and proof of financial
indigence by producing a certified copy of his
prison account. Smith clearly did neither.
For the foregoing reasons, this court rejects
Smith’s argument that he properly filed his
Rule 32 application in accordance with State
form and filing requirements. The September

52a
27, 2001, Rule 32 application was not properly
filed, and therefore did not trigger the tolling
requirements of 28 U.S.C. §2244(d)(2).
Smith v. Campbell, Case No. 5:05-CV-1547-LSC-JEO,
doc. 32 at 19-20 (N.D. Ala. Jan. 15, 2009).
The Eleventh Circuit affirmed and held:
Although the February 6, 2002 filing was timely
under Alabama's two year statute of
limitations, it was not within the one year
statute of limitations required by AEDPA.
Relying on statutory tolling, Smith[, the
petitioner], argues that we should consider the
Rule 32 Petition as having been “properly filed”
on September 27, 2001, when it was originally
submitted to the Clerk, albeit without the filing
fee or a motion to proceed in forma pauperis.
However, Alabama law precludes such a
construction of AEDPA's requirement for a
“properly filed” state petition. See Artuz v.
Bennett, 531 U.S. 4, 8, 121 S. Ct. 361, 148 L. Ed.
2d 213 (2000) (“[A]n application is ‘properly
filed’ when its delivery and acceptance are in
compliance with the applicable laws and rules
governing filings.”). Alabama law requires that
a Rule 32 petition “be accompanied by the filing
fee prescribed by law or rule in civil cases in the
circuit court unless the petitioner applies for
and is given leave to prosecute the petition in
forma pauperis.” Ala. R.Crim. P. 32.6(a).
Alabama courts have unequivocally required
that one of these formalities, either the payment
of the filing fee or the filing of an in forma
pauperis motion, be completed in order for a
Rule 32 petition to be considered properly filed.

53a
See, e.g., Ex Parte Carter, 807 So. 2d 534, 53637 (Ala. 2001)(holding that where neither a
filing fee nor a motion to proceed in forma
pauperis were filed with a Rule 32 petition, the
Alabama circuit court lacked jurisdiction to
consider the petition precisely because the
petitioner had omitted them); Hyde v. Alabama,
950 So. 2d 344, 353 (Ala. Crim. App. 2006)(“A
Rule 32 petition is deemed filed for purposes of
the limitations period the date the petition,
accompanied by a request to proceed in forma
pauperis, is submitted to the circuit court, not
the date the circuit court grants the request to
proceed in forma pauperis.”); Clemons v. State,
55 So. 3d 314, 333-37 (Ala. Crim. App.
2003)(“[I]n this case, the petition that counsel
attempted to file on December 27, 1999, was not
accompanied by a filing fee or a request to
proceed in forma pauperis. Therefore, the
petition was not properly filed at that time, as
contemplated by Rule 32.6(a), Ala. R.Crim.
Pro.”), rev’d on other grounds, Ex parte Clemons,
55 So. 3d 348 (Ala.2007), overruled in part by
Hyde, 950 So. 2d at 353. [Footnote] Accordingly,
we find no reversible error in the district court's
determination that Smith's federal habeas
petition was time barred because it was not filed
within AEDPA's one-year statute of limitations,
which was not statutorily tolled because Smith's
Rule 32 Petition had not been “properly filed”
during AEDPA's one-year limitation period. See
28 U.S.C. § 2244(d)(2).
[Footnote:] Smith's reliance on Hyde as support
for his position is unpersuasive. In Hyde, the
state court was willing to treat the date of the

54a
original submission of the Rule 32 petition as the
properly filed date because the petitioner had fully
complied with the state court filing fee rules by filing
a motion to proceed in forma pauperis and it was the
court that caused the delay by not ruling on the
motion to proceed in forma pauperis for some time.
950 So. 2d at 353. Hyde's rationale is simply
inapplicable here, where neither the filing fee nor
motion for in forma pauperis was filed. Nor do we
find Garrett v. State, 644 So. 2d 977
(Ala.Crim.App.1994), overruled by Ex parte Jenkins,
972 So. 2d 159 (Ala.2005), applicable to support
Smith's argument that his filing date should relate
back to the date that his petition was originally sent
to the Clerk. Garrett addressed the requisite form for
a Rule 32 petition. It is not applicable to the
circumstances here, 7 especially in light of the
Alabama law explicitly addressing the failure
involved in this case. Smith v. Commissioner,
Alabama Dept. of Corrections, 703 F.3d 1266, 127071 & n.4 (11th Cir. 2012) Clemons contends that his
situation “is readily distinguishable” from Smith
because Smith “addresses only a petition that did not
contain any sort of request for IFP status.” (Doc. 28
at 13.) However, Smith’s circumstances are
indistinguishable from Clemons’s circumstances.
Based on binding Supreme Court and Eleventh
Circuit caselaw, the court finds that Clemons’s Rule 32
Petition was not properly filed until after the
expiration of the deadline for filing his § 2254 habeas

Those “circumstances” included a request for relief, similar to
that included in Clemons’s Rule 32 Petition, and failure to pay
the filing fee or file an IFP petition. See Smith v. Campbell, No.
5:05-cv-01547-LSC-JEO, doc. 32 at 19-20.
7

55a
petition. Therefore, Clemons is not entitled to any
period of statutory tolling pursuant to § 2244(d)(2).
In the alternative, the court finds that the Rule 32
Petition was not “properly filed” based on the statecourts’ decisions denying his motion to have his Rule
32 Petition deemed filed on December 27, 1999. See
Carroll v. Price, Case No. 5:14-CV-0065-JHH-TMP,
2015 WL 225468, *4 (N.D. Ala. Jan. 16, 2015)(“For this
court’s purposes, therefore, these [state-court orders
finding Rule 32 Petition not timely filed because no
filing fee was paid with petition] mean that petitioner
never ‘properly filed’ the Rule 32 petition and it had no
statutory tolling effect.”). This finding is entitled to
deference. Allen v. Siebert, 552 U.S. 3, 7 (2007)(citing,
inter alia, Pace v. DiGuglielmo, 544 U.S. 408, 414-17
(2005); see also Cross v. McDonough, No. 4:06cv460RH/WCS, 2008 WL 817088, *6 (N.D. Fla. March 25,
2008).
B.

EQUITABLE TOLLING

“[Section] 2244(d) is subject to equitable tolling in
appropriate cases.” Holland v. Florida, 560 U.S. 631,
645 (2010). However, “a petitioner is entitled to
equitable tolling only if he shows (1) that he has been
pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way and
prevented timely filing.” Id. at 649 (quoting Pace, 544
U.S. at 418))(internal quotations omitted). “Because a
lawyer is the agent of his client, a federal habeas
petitioner – who does not have a constitutional right to
counsel – is ordinarily bound by his attorney’s errors .
. . .” Cadet v. Fla. Dep't of Corr., 742 F.3d 473, 477-78
(11th Cir.2014). Therefore, the Eleventh Circuit has
held “that attorney negligence, however gross or
egregious, does not qualify as an ‘extraordinary

56a
circumstance’ for purposes of equitable tolling;
abandonment of the attorney-client relationship . . . is
required.” Id. at 481.
But for counsel’s failure to pay the filing fee or
submit an application for waiver of the filing fee
Clemons’s Rule 32 Petition would have been filed on
December 27, 1999, and would have tolled the time for
filing his federal habeas petition. However, counsel did
not pay the filing fee or submit an in forma pauperis
application to waive the fee until January 28, 2000,
after the expiration of the statute of limitations for
filing the federal petition. Counsel’s failure to pay the
filing fee or submit an application for waiver of the fee
did not constitute an abandonment; rather, their error
appears to have been “garden variety” negligence. 8
Counsel for Clemons has submitted an affidavit, in which he
states that an employee in the Shelby County Circuit Clerk’s
Office “informed [him] that a check for a filing fee was not
necessary to file the [Rule 32] Petition.” (Doc. 28-12 ¶ 4.) Also, he
stated:

8

If the Shelby County Clerk’s office had indicated that a
filing fee was necessary, I would have sent a check . . . with
the Rule 32 Petition on December 27, 1999. If the Shelby
County Clerk’s office had indicated on December 27, 1999,
or anytime thereafter, that a filing fee was necessary, I
would have had a check sent immediately to the courthouse.
If I had not seen the file-stamped Rule 32 Petition marked
“received and filed” on January 3, 2000, I would have
inquired and then sent a check. Because there was no
indication that a check might be required until after the In
Forma Pauperis Petition had been filed, no check was ever
issued from my law firm for the Rule 32 Petition in this
matter.
(Id. ¶ 6.) Counsel contends, “As a result of my conversation with
the Clerk’s office, it was my understanding that no fee was
required to accompany the Rule 32 Petition.” (Id. ¶ 7.)

57a
Therefore, counsel’s error is not an extraordinary
circumstance sufficient to warrant equitable tolling of
the time for filing his federal habeas petition.
CONCLUSION
For the foregoing reasons, the court is of the
opinion that respondents’ Motion to Dismiss Eugene
Clemons’s Untimely-filed Petition for Writ of Habeas
Corpus, (doc. 25), will be granted in part and denied in
part. The court finds Ground I of Clemons’s § 2254
Habeas Petition, alleging “Mr. Clemons is mentally
retarded and cannot be executed under the United
States Supreme Court decision in Atkins v. Virginia,”
(doc. 1, subsection C.I., ¶¶ 27-41, at pp. 27-30), is
timely filed and, therefore, respondents’ Motion to
Dismiss will be denied as to this ground. However, all
other claims set forth in the habeas petition, (see doc.
1, subsections C.II.-XXXII), are untimely and the
Petition will be denied as to these grounds. An Order
The court does not question the reasons given by counsel
for his failure to pay the filing fee at the time he filed the Rule 32
Petition. Although he may have been misled to assume that no
filing fee or an application to waive the filing fee was necessary
at the time of filing, his assumption that the Rule 32 Petition
would be “properly filed” on December 27, 1999, was not
reasonable, even considering the statement and subsequent nonaction of the Shelby County Clerk’s Office. Rule 32.6 plainly
stated that the filing fee or waiver of the filing fee was required
at the time of filing. Moreover, nothing in the words or actions of
the Clerk’s Office constitute an extraordinary circumstance that
prevented counsel from paying the filing fee or submitting an
application to waive the fee on December 27, 1999, or filing his
federal habeas petition within the time allowed. See Sandvik v.
United States, 177 F.3d 1269, 1271 (11th Cir. 1999)(“Equitable
tolling is appropriate when a movant untimely files because of
extraordinary circumstances that are both beyond his control and
unavoidable even with diligence.”)

58a
granting in part and denying in part respondents’
Motion to Dismiss Eugene Clemons’s Untimely-filed
Petition for Writ of Habeas Corpus, (doc. 25), will be
entered contemporaneously with this Memorandum
Opinion.
DONE this 17th day of March, 2015.
s/ Sharon Lovelace Blackburn
SHARON LOVELACE BLACKBURN
UNITED STATES DISTRICT JUDGE

59a
______________
APPENDIX E
______________
UNITED STATES DISTRICT COURT
NORTHER DISTRICT OF ALABAMA
SOUTHERN DIVISION
EUGENE MILTON CLEMONS, II,
Petitioner,
v.
WILLIAM G. SHARP, JR., Interim Commissioner,
Alabama Department of Corrections; WALTER
MYERS, Warden, Holman Correctional Facility
Respondents.
______________
No. 2:10-CV-2218-SLB
______________
Order
______________
ARGUED OCT. 25, 2011–DECIDED FEB. 13, 2012
______________
Before SHARON L. BLACKBURN, District Judge
In accordance with the Memorandum Opinion
entered contemporaneously herewith, it is hereby
ORDERED that respondents’ Motion to Dismiss
Eugene Clemons’s Untimely-filed Petition for Writ of
Habeas Corpus, (doc. 25), is GRANTED IN PART
and DENIED IN PART. The Motion to Dismiss, (doc.
25), is DENIED as to Clemons’s claim based on

60a
Ground I of his § 2254 Habeas Petition, alleging “Mr.
Clemons is mentally retarded and cannot be executed
under the United States Supreme Court decision in
Atkins v. Virginia,” (subsection C.I., doc. 1, ¶¶ 27-41,
at pp. 27-30). The Motion to Dismiss, (doc. 25), is
GRANTED as to all other claims; these claims, based
on Grounds II-XXXII of his Petition, (subsections C.II.XXXII, doc. 1, ¶¶ 42-222, at 30-93 and doc. ¶¶ 222-410,
at pp. 1-67), are DENIED as time barred.
DONE this 17th day of March, 2015.

s/ Sharon Lovelace Blackburn
SHARON LOVELACE BLACKBURN
UNITED STATES DISTRICT JUDGE

61a
______________
APPENDIX F
______________
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
EUGENE MILTON CLEMONS, II,
Petitioner,
v.
KIM T. THOMAS, Commissioner, et al.,
Respondents.
______________
No. 2:10-cv-02218-LSC
MARCH 28, 2016
______________
Before L. Scott Coogler, United States District Judge
MEMORANDUM OF OPINION
This is a petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254 filed by Petitioner
Eugene Milton Clemons, II (“Clemons”), a death row
inmate at Holman Correctional Facility in Atmore,
Alabama. The only claim that remains pending before
this Court is Clemons’s claim that he is intellectually
disabled and, therefore, ineligible for the death
penalty, pursuant to the Eighth and Fourteenth
Amendments to the United States Constitution. See
Atkins v. Virginia, 536 U.S. 304, 321,122 S. Ct. 2422,
2252 (2002) (holding that under the Eighth

62a
Amendment “death is not a suitable punishment for a
mentally retarded criminal”) (hereinafter, Clemons’s
“Atkins claim”). After conducting a four-day
evidentiary hearing, an Alabama circuit court denied
Clemons’s Atkins claim on the merits, and the
Alabama appellate courts affirmed. This Court’s
review is thus circumscribed by the parameters of 28
U.S.C. § 2254(d) (providing that a federal court may
only grant relief if the state court’s adjudication of the
claim “resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or . . . resulted in
a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding”). Upon
thorough consideration of the entire record, the Court
finds that Clemons’s petition for habeas relief is due to
be denied.
I.

FACTS OF THE CRIME

In its opinion on direct appeal affirming
Clemons’s conviction and death sentence, the Alabama
Court of Criminal Appeals (hereinafter, the “ACCA”),
stated the facts of the crime as follows:
The state’s evidence tended to show
that on May 28, 1992, Douglas Althouse,
a special agent with the Drug
Enforcement Administration (D.E.A.),
was shot and killed while [Clemons] and
his codefendant stole the automobile in
which he was a passenger. Dr. Joseph
Embry, state medical examiner, testified
that Althouse was shot twice and that the

63a
fatal bullet entered the left side of his
chest and passed through his heart.
Naylor Braswell of the Jefferson
County Sheriff’s Department testified
that the victim and he were sharing an
apartment at the time of the murder.
Braswell testified that on May 28 at
approximately 10:00 p.m., he and
Althouse left the apartment in Braswell’s
black Camaro automobile, to meet a
narcotics officer. Braswell pulled into a
service station/convenience store to
borrow the telephone book to make a call
on his cellular telephone. While he was in
the store he noticed that a stocky black
male had gotten into his car and was
sitting behind the steering wheel, armed
with a revolver. At trial, Braswell
testified that [Clemons] looked like the
man he saw in his car. He heard two
muffled shots, saw Althouse dive out of
the car, and saw Althouse shooting at the
car. He ran out to Althouse as he
collapsed from his injuries. Braswell
testified that a bulletproof vest and a
shotgun were in the trunk of the car
when it was stolen.
Kenny Reed testified that he was at
Herman Shannon’s house on May 28
when Dedrick Smith stopped by and
asked Reed to pick up [Clemons] to go get
“a car.” He testified that they picked up
[Clemons] and drove to an area near a
service station where [Clemons] got out of
the car. Reed stated that he heard several

64a
shots, that there was a break in the
shooting, followed by several more shots.
[Clemons] then drove off in a black
Camaro automobile and later went to
Shannon’s house. When Reed arrived at
Shannon’s house, [Clemons] said that no
one better “open their mouths” because
he had just killed a D.E.A. man. He
further testified that the week before the
murder, [Clemons] had told him that his
car needed a new motor.
Early the next morning following the
murder, the stolen Camaro was
discovered near Shannon’s house. The
shotgun in the trunk of the car was
recovered on the side of the road near
[Clemons’s] house.
Clemons was arrested by Federal
Bureau of Investigation (F.B.I.) agents in
Cleveland, Ohio. Michael Clemons,
[Clemons’s] uncle, who lived in
Cleveland, testified that [Clemons’s]
sister telephoned him and told him that
[Clemons] would be coming to his house.
Michael Clemons testified that he met
with [Clemons’s] father and they
subsequently met and talked with
[Clemons]. Michael Clemons further
stated that [Clemons] said that he had to
shoot a police officer because the officer
was trying to kill him and that he had to
steal the car to get away.
Clemons v. State, 720 So. 2d 961, 965-66 (Ala. Crim.
App. 1996).

65a
II.

PROCEDURAL HISTORY

Clemons was first tried and convicted in federal
court of murdering a federal agent who was engaged in
the performance of his duties, in violation of 18 U.S.C.
§§ 1111 and 1114, and of carrying and using a firearm
in the commission of a crime of violence, in violation of
18 U.S.C. § 924(c). See generally United States v.
Clemons, 32 F.3d 1504 (11th Cir. 1994). Clemons was
then indicted by the Shelby County, Alabama Grand
Jury on two counts of capital murder. Count One of the
indictment charged Clemons with the capital offense of
murdering George Douglas Althouse, a special agent of
the Drug Enforcement Agency (“DEA”), while he was on
duty, in violation of section 13A-5-40(a)(5) of the Code
of Alabama. Count Two of the indictment charged
Clemons with the capital offense of murdering DEA
Special Agent Althouse during a robbery in the first
degree, in violation of section 13A-5-40(a)(2) of the Code
of Alabama. Clemons pled not guilty and not guilty by
reason of mental disease and defect to all charges.
Before Clemons’s trial began, the Shelby County
Circuit Court, on motion of the State, dismissed Count
One of the indictment. The Honorable D. A1 Crowson
presided over Clemons’s trial.
On September 25,1994, a jury found Clemons guilty
of the capital murder of DEA Special Agent Althouse.
That same day, the jurors recommended by a vote of
twelve to zero that Clemons be sentenced to death. On
October 11,1994, the court followed the jury’s
recommendation and sentenced Clemons to death.
On direct appeal, the ACCA and the Alabama
Supreme Court affirmed Clemons’s conviction and
death sentence. Clemons v. State, 720 So. 2d 961 (Ala.
Crim. App. 1996), aff’d, Ex parte Clemons, 720 So. 2d

66a
985 (Ala. 1998). The United States Supreme Court
denied Clemons’s petition for writ of certiorari. Clemons
v. Alabama, 525 U.S. 1124,119 S. Ct. 907 (1999) (mem.).
Clemons, through counsel, submitted a petition for
post-conviction relief, pursuant to Rule 32 of the
Alabama Rules of Criminal Procedure, to the state
circuit court on December 27,1999, but he did not
submit a filing fee or a request to proceed in forma
pauperis with his petition. Clemons v. State, 55 So. 3d
314, 333 (Ala. Crim. App. 2003). On January 28, 2000,
Clemons, again through counsel, filed a Rule 32 petition
along with a request to proceed in forma pauperis in the
circuit court, and the state courts found that he
properly filed his post-conviction petition on that date.
See id. After allowing Clemons to twice amend his Rule
32 petition on or about October 17, 2000, and January
31, 2000, the court dismissed some of the claims. The
court then held an evidentiary hearing on other claims
(hereinafter “the first Rule 32 hearing”) [R2. 119-730,
6157-6590],1 but dismissed those thereafter.
1 Respondents manually filed the indexed state court record
consisting of 25 volumes. (Doc. 42.) Respondents cited to the
record in the following manner: the clerk’s record on direct appeal
and the reporter’s transcript on direct appeal appeared,
respectively, as “C.R.___.” and “R.___. references to the clerk’s
record on Rule 32 appeal and the transcript of the first Rule 32
evidentiary hearing appeared, respectively, as “C.R2. ___.” and
“R2.___.” references to the clerk’s record on appeal of the Rule 32
remand proceedings appeared as “C.R3.___. and references to the
clerk’s record on appeal of the denial of Clemons’s successive Rule
32 petition appeared as “C.R4.____.” Clemons Bates-stamped the
record submitted by Respondents and re-filed those documents,
consisting of volumes 1-25, corresponding to Bates-stamped
numbered pages 00001 to 04502. (Doc. 56.) Clemons also
supplemented Respondents’ submission to include additional
items from the state court record that Respondents had not
included, consisting of volumes 26-44, corresponding to Bates-

67a
[C.R21104-1156.] Clemons appealed.
While Clemons’s appeal of the denial of his Rule 32
petition to the ACC A was pending, the United States
Supreme Court released its decision in Atkins. In his
Rule 32 petitions, Clemons had argued that his trial
attorneys rendered ineffective assistance because they
did not develop and present any mitigating evidence
concerning his limited mental capacity. In his brief to
the ACCA, he reasserted his ineffective-assistance-ofcounsel claims. In addition, he argued for the first time
that he is intellectually disabled and that, in light of
Atkins, his sentence of death was unauthorized as a
matter of law. On appeal, the ACCA found that Atkins
applied retroactively to cases on collateral review, and
remanded Clemons’s case to the circuit court with
instructions to conduct an evidentiary hearing on
Clemons’s Atkins claim and his claim that his attorneys
rendered ineffective assistance by not developing and
presenting evidence concerning his limited mental
capacity. Clemons, 55 So. 3d at 322. Pursuant to the
ACCA’s remand directive, the state circuit court held a
four-day evidentiary hearing on those claims on June
15-18, 2004 (hereinafter “the Atkins evidentiary
hearing”).
At the hearing, the court heard from Dr. Charles
Golden, a neuropsychologist, and Dr. Joseph Wu, a
psychiatrist, each retained by Clemons, and from Dr.
Glen King, a clinical psychologist, and Dr. Helen
Mayberg, a neurologist, each retained by the State. At
stamped numbered pages 04503 to 08340. (See id.) Clemons cited
to the record as “R” with the corresponding page number. Most
citations to the state court record in this opinion will conform to
either Respondents’ or Clemons’s citation formats. Any citations
not so labeled will indicate the PDF volume number and
corresponding page number.

68a
the conclusion of the hearing the circuit court indicated
that it was inclined to find that Clemons was not
intellectually disabled, but it ordered and received posthearing briefs and proposed orders from both Clemons
and the State. The circuit court issued an order denying
relief on Clemons’s claims on October 28, 2004. [C.R3 190.] The order issued by the circuit court adopted nearly
verbatim the 90-page proposed order the State had
submitted.
The ACCA, on return from remand, affirmed the
circuit court’s denial of relief on Clemons’s second
amended Rule 32 petition, Clemons, 55 So. 3d at 348,
and later overruled Clemons’s application for
rehearing. However, the Alabama Supreme Court
granted Clemons’s certiorari petition and remanded his
case to the ACCA with instructions to address the
merits of his ineffective assistance of counsel claims,
which it opined that the lower court erroneously found
were procedurally barred from review. Ex parte
Clemons, 55 So. 3d 348, 356 (Ala. 2007). In an
unpublished memorandum, the ACCA addressed those
claims and affirmed the circuit court’s denial of
Clemons’s second amended Rule 32 petition. Clemons v.
State, CR-01-1355, slip op. (Ala. Crim. App. Nov. 2,
2007). After that court overruled his application for
rehearing, Clemons again petitioned the Alabama
Supreme Court for certiorari review. That time,
Alabama’s highest court denied his petition for writ of
certiorari.
On August 16, 2010, Clemons, through counsel,
simultaneously filed a successive Rule 32 petition in
Alabama circuit court and a petition for writ of habeas
corpus in this Court. (Doc. 1.) Clemons then moved this
Court to stay and hold in abeyance his federal habeas
petition so that he could return to state court to litigate

69a
his successive petition. (Doc. 7.) On November 19, 2010,
Magistrate Judge Robert R. Armstrong granted
Clemons’s motion to stay and hold in abeyance his
habeas petition and ordered the parties to file joint
status reports at sixty-day intervals. The Alabama
circuit court summarily denied Clemons’s successive
Rule 32 petition on January 18, 2011. [C.R4 95-97.] The
ACCA affirmed the circuit court’s judgment. Clemons v.
State, 123 So. 3d 1 (Ala. Crim. App. 2012). The Alabama
Supreme Court denied Clemons’s petition for writ of
certiorari on March 22, 2013. The United States
Supreme Court denied his cert petition on October 7,
2013. Clemons v. Alabama, 134 S. Ct. 196 (2013)
(mem.).
Respondents subsequently moved this Court to
enter an order dismissing all of the claims in Clemons’s
petition for writ of habeas corpus, with the exception of
his Atkins claim, because they were time-barred. (Doc.
25.) On March 17, 2015, United States District Judge
Sharon L. Blackburn issued a Memorandum Opinion in
which she held that all of the claims in Clemons’s
habeas petition were time-barred, with the exception of
his Atkins claim. (Doc. 33.) On that same day, the Court
entered an Order denying all of the claims in his
petition, again with the exception of his Atkins claim,
on the ground that they were time-barred. (Doc. 34.)
The
Court
denied
Clemons’s
Motion
for
Reconsideration. (Doc. 40.) This action was reassigned
to the undersigned district judge on October 16, 2015.
(Doc. 48.)
The only claim that remains pending is the Atkins
claim, which Clemons had presented as Claim I of his
federal habeas petition. Respondents filed an answer
and brief regarding that claim (docs. 44 & 45), and
Clemons filed his reply brief and a motion for an

70a
evidentiary hearing (docs. 53 & 54). The Court then
ordered and received supplemental briefing on various
issues. (Docs. 58 -61.) Accordingly, what remains of this
federal habeas petition is ripe for adjudication.
III.

STANDARDS OF AEDPA REVIEW

Because Clemons’s petition was filed after the
effective date of the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”), the provisions of 28
U.S.C. § 2254 apply to this claim. The “AEDPA
recognizes a foundational principle of our federal
system: State courts are adequate forums for the
vindication of federal rights.” Burt v. Titlow, 134 S.
Ct. 10,15 (2013). The AEDPA thus “erects a formidable
barrier to federal habeas relief for prisoners whose
claims have been adjudicated in state court.” Id. at 16.
Indeed, the purpose of AEDPA’s amendments to §
2254 “is to ensure that federal habeas relief functions
as a guard against extreme malfunctions in the state
criminal justice systems, and not as a means of error
correction.” Greene v. Fisher, 132 S. Ct. 38, 43 (2011)
(quotation marks omitted). Accordingly, federal review
of final state court decisions under § 2254 is “greatly
circumscribed” and “highly deferential.” Hill v.
Humphrey, 662 F.3d 1335, 1343 (11th Cir. 2011) (en
banc) (quotation marks omitted). Indeed, the fact that
the AEDPA mandates highly deferential review of
state court decisions cannot be overstated, as
explained by the Eleventh Circuit:
In Harrington v. Richter, — U.S. —, 131
S. Ct. 770, 178 L.Ed.2d 624 (2011), for
example, the Supreme Court stated: As
amended by AEDPA, § 2254(d) stops
short of imposing a complete bar on
federal court relitigation of claims

71a
already rejected in state proceedings. It
preserves authority to issue the writ in
cases where there is no possibility
fairminded jurists could disagree that
the state court’s decision conflicts with
this Court’s precedents. It goes no
farther. ... As a condition for obtaining
habeas corpus from a federal court, a
state prisoner must show that the state
court’s ruling on the claim being
presented in federal court was so lacking
in justification that there was an error
well understood and comprehended in
existing law beyond any possibility for
fairminded disagreement. Id. at 786-87
(citations omitted) (internal quotation
marks omitted).
Cave v. Sec’y for Dep’t of Corn, 638 F.3d 739, 744 (11th
Cir. 2011).
Thus, as a general rule, a § 2254 state petitioner
may not obtain federal habeas relief “with respect to
any claim that was adjudicated on the merits” by a state
court. 28 U.S.C. § 2254(d). However, a petitioner may
avoid that general rule if one of two conditions exist:
either (1) that the state court’s adjudication “resulted in
a decision that was contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States,” id. § 2254(d)(1); or (2) that the state
court’s adjudication “resulted in a decision that was
based on an unreasonable determination of the facts in
light of the evidence presented in the State court
proceeding,” id. § 2254(d)(2). These conditions are set
forth in the disjunctive, leaving federal courts
alternatives for the exercise of their power to remedy

72a
constitutionally infirm state court judgments. Miller-El
v. Dretke, 545 U.S. 231, 240, 125 S. Ct. 2317, 2325
(2005) (granting relief after finding petitioner satisfied
(d)(2) without mentioning (d)(1)). The petitioner carries
the burden of proof under § 2254(d)(1) & (2). Cullen v.
Pinholster, 563 U.S. 170,180-81,131 S. Ct. 1388,1398
(2011).
The Court’s § 2254(d)(1) analysis is based on the
state court record. Id. at 181-82, 131 S. Ct. at 1398-99.
Pursuant to § 2254(d)(1), the phrase “clearly
established Federal law” means “the holdings, as
opposed to the dicta, of [the Supreme] Court’s decisions
as of the time of the relevant state-court decision.”
Lockyer v. Andrade, 538 U.S. 63, 71, 123 S. Ct.
1166,1172 (2003) (quotation marks omitted). However,
the “contrary to” and “unreasonable application”
clauses of § 2254(d)(1) must be given “independent
meaning.” Williams v. Taylor, 529 U.S. 362, 404,120 S.
Ct. 1495,1518 (2000).
A state court determination is “contrary to”
Supreme Court precedent, and merits habeas relief, in
at least two circumstances:
First, a state-court decision is
contrary to this Court’s precedent if the
state court arrives at a conclusion
opposite to that reached by this Court on
a question of law. Second, a state-court
decision is also contrary to this Court’s
precedent if the state court confronts
facts
that
are
materially
indistinguishable from a relevant
Supreme Court precedent and arrives at
a result opposite to ours.
Id. A state court decision is “contrary to” Supreme

73a
Court precedent if it is “substantially different from
the relevant precedent of [the Supreme] Court,” for
example, holding a petitioner to a state law pleading
or evidentiary standard that exceeds the requirements
of the controlling federal law satisfies 2254(d)(1)’s
“contrary to” clause. Id. at 405-06,120 S. Ct. at 1519.
A state court decision involves an “unreasonable
application” of clearly established Supreme Court
precedent, and merits habeas relief, also in at least two
circumstances:
First, ... if the state court identifies the
correct governing legal rule from this
Court’s cases but unreasonably applies it
to the facts of the particular state
prisoner’s case. Second, ... if the state
court either unreasonably extends a legal
principle from our precedent to a new
context where it should not apply or
unreasonably refuses to extend that
principle to a new context where it
should apply.
Id. at 407, 120 S. Ct. at 1520. For purposes of the
“unreasonable application” analysis, the federal court
must determine whether “the state court’s application
of clearly established federal law was objectively
unreasonable.” Id. at 409-10,120 S. Ct. at 1521.
As to § 2254(d)(2), “a factual determination will not
be overturned on factual grounds unless objectively
unreasonable in light of the evidence presented in the
state-court proceeding.” Miller-El v. Cockrell, 537 U.S.
322, 340, 123 S. Ct. 1029, 1041 (2003). This Court may
not characterize state-court factual determinations as
unreasonable “merely because [it] would have reached
a different conclusion in the first instance.” Wood v.

74a
Allen, 558 U.S. 290, 301,130 S. Ct. 841, 849 (2010).
Instead, § 2254(d)(2) requires that the reviewing court
accord the state trial court substantial deference.
However, “[e]ven in the context of federal habeas,
deference does not imply abandonment or abdication of
judicial review,” and “does not by definition preclude
relief.” Miller-El, 537 U.S. at 340, 123 S. Ct. at 1041.
Respondents invoke 28 U.S.C. § 2254(e)(1) to
contend that the Eleventh Circuit applies that
subsection to the exclusion of § 2254(d)(2) and presumes
state court factual determinations to be correct unless
rebutted by clear and convincing evidence. Section
2254(e)(1) provides:
In a proceeding instituted by an
application for a writ of habeas corpus by
a person in custody pursuant to the
judgment
of a State
court, a
determination of a factual issue made by
a State court shall be presumed to be
correct. The applicant shall have the
burden of rebutting the presumption of
correctness by clear and convincing
evidence.
However, as many courts have noted, subsections
(d)(2) and (e)(1) appear to contradict one another.
Subsection (d)(2) permits a federal court to grant
habeas corpus relief if the state court’s determination of
the facts is unreasonable “in light of the evidence
presented in the state court proceeding.” By contrast,
subsection (e)(1) appears to attach a presumption of
correctness to any “determination of a factual issue
made by a State court,” a presumption that can be
overcome only by “clear and convincing evidence.” The
distinction matters because it determines whether a

75a
petitioner such as Clemons must show that the state
court’s determination of the facts was merely
unreasonable
or
“clearly
and
convincingly”
unreasonable. In other words, this Court’s review of the
state court’s factual determination is more deferential
if it applies (e)(1) than (d)(2).
The Eleventh Circuit has recognized that courts
have “struggled to interpret how these abutting
standards interact in the context of fact-based
challenges to state court adjudications.” Cave, 638 F.3d
at 745. Indeed, in 2010, the Supreme Court granted
certiorari to “address the relationship between §§
2254(d)(2) and (e)(1)” and “resolve the question of how
§ 2254(d)(2) and (e)(1) fit together.” Wood, 558 U.S. at
293, 300,130 S. Ct. at 845, 849. However, after finding
that the petitioner in that case could not satisfy the
more liberal standard of subsection (d)(2), the Court
found that there was no need to review the state
determination under § 2254(e)(1). As in Wood, in Cave,
the Eleventh Circuit similarly found there was no need
to define the respective purviews of (d)(2) and (e)(1)
because “the state court’s decisions on Cave’s claims
were not based on unreasonable factual determinations
in light of the evidence before it under any standard.”
638 F.3d at 747. Because the Court finds the same is
true here, it need not decide in this case whether
subsection (d)(2) or (e)(1) applies.
IV.

ATKINS AND ALABAMA’S APPLICATION
OF IT AT THE TIME OF CLEMONS’S
STATE POST-CONVICTION
PROCEEDINGS IN 2004

At the time of Clemons’s trial, the Supreme Court’s
precedent permitted the imposition of the death penalty

76a
on “mentally retarded” 2 persons. See Penry v. Lynaugh,
492 U.S. 302, 109 S. Ct. 2934 (1989). However, in 2002,
the United States Supreme Court held in Atkins that
the execution of mentally retarded individuals violates
the Eighth Amendment of the Constitution. 536 U.S. at
321, 122 S. Ct. at 2252. The Court created a categorical
exemption from the death penalty for mentally
retarded persons based on its finding that defendants
with mental retardation are less culpable because they
have diminished capacities to understand and process
information, to communicate, to learn from mistakes
and experience, to engage in logical reasoning, to
control impulses, and to understand the reactions of
others. 536 U.S. at 318-20,122 S. Ct. at 2250-52. 3
2 The clinical field now primarily uses the term “intellectual
disability” rather than “mental retardation.” However, because
state and federal authorities at the time of Clemons’s Atkins
hearing, and the parties and experts themselves, used the term
“mental retardation,” the Court will do so throughout this
opinion.
3 In reaching that conclusion, the Atkins Court first noted that a
punishment is prohibited by the Eighth Amendment if it is
“excessive,” as indicated by a punishment that is disproportionate
to the offense. Id. at 311, 122 S. Ct. at 2246. Further, it stated
that an excessiveness claim is judged by “evolving standards of
decency that mark the progress of a maturing society.” Id. at
312,122 S. Ct. at 2247 (quoting Trop v. Dulles, 356 U.S. 86,10001, 78 S. Ct. 590, 598 (1958)). To determine the “evolving
standards of decency,” the Atkins Court looked to legislation
enacted by state legislatures which it stated was the “clearest and
most reliable evidence of contemporary values.” Id. The Atkins
Court noted that, since its decision in Penry, 492 U.S. 302,109 S.
Ct. 2934, which rejected a challenge to the constitutionality of a
death sentence imposed upon a mentally retarded criminal,
fifteen states had passed statutes prohibiting the execution of
mentally retarded capital murderers. Id. at 314-15, 122 S. Ct.
2248- 49. The Court then noted, however, that it was not the
number of states enacting such legislation, “but the consistency

77a
The Supreme Court pointed out that, “[t]o the extent
there is serious disagreement about the execution of
mentally retarded offenders, it is in determining which
offenders are in fact retarded.” Id. at 317, 122 S. Ct. at
2250. The Court expressly left “to the States the task of
developing appropriate ways to enforce the
constitutional restriction upon their execution of
sentences.” Id. (quotation marks omitted and
alterations adopted).
Despite charging the States with implementing
Atkins’ mandate that the execution of mentally
retarded persons is unconstitutional, the Court did
observe in a footnote that even though the statutory
definitions of mental retardation adopted by Congress
and the twenty states that already prohibited the
execution of such persons were not identical, all of them
“generally conform[ed] to the clinical definitions”
promulgated by the American Association on Mental
Retardation (“ AAMR”) and the American Psychiatric
Association. Id. at 317 n.22,122 S. Ct. at 2250 n.22. The
Court embraced two clinical definitions of mental
retardation—one provided by the AAMR in its Mental
Retardation: Definition, Classification, and Systems of
Supports (9th ed. 1992) (“AAMR Manual 1992 “)4 and
one by the American Psychiatric Association in its
Diagnostic and Statistical Manual of Mental Disorders,
4th edition (“DSM-IV-TR”). Id. at 308 n.3,122 S. Ct. at
2245 n.3. Both the AAMR Manual 1992 and DSM-IVTR define mental retardation as (1) significantly
subaverage intellectual functioning (2) accompanied by
significant limitations in adaptive functioning and (3)
of the direction of change” that was “powerful evidence.” Id. at
315-16,122 S. Ct. at 2249.
4 This organization is now called the American Association on
Intellectual and Developmental Disabilities.

78a
originating before the age of 18. The Supreme Court
explained these three-part definitions in Atkins,
stating:
The American Association on Mental
Retardation (AAMR) defines mental
retardation
as
follows:
“Mental
retardation
refers
to
substantial
limitations in present functioning. It is
characterized
by
significantly
subaverage intellectual functioning,
existing concurrently with related
limitations in two or more of the following
applicable
adaptive
skill
areas:
communication, self-care, home living,
social skills, community use, selfdirection, health and safety, functional
academics, leisure, and work. Mental
retardation manifests before age 18.”
Mental
Retardation:
Definition,
Classification, and Systems of Supports
(9th ed. 1992).
The American Psychiatric Association’s definition is
similar:
“The essential feature of Mental
Retardation is significantly subaverage
general
intellectual
functioning
(Criterion A) that is accompanied by
significant limitations in adaptive
functioning in at least two of the
following skill areas: communication,
self-care,
home
living,
social/interpersonal
skills,
use
of
community resources, self- direction,
functional academic skills, work, leisure,

79a
health, and safety (Criterion B). The
onset must occur before age 18 years
(Criterion C). Mental Retardation has
many different etiologies and may be
seen as a final common pathway of
various pathological processes that affect
the functioning of the central nervous
system.” Diagnostic and Statistical
Manual of Mental Disorders 41 (4th ed.
2000). “Mild” mental retardation is
typically used to describe people with an
IQ level of 50- 55 to approximately 70.
Id. (emphasis in original).
The Atkins Court also explained that the Wechsler
Adult Intelligence Scales test (“WAIS-III”) is “the
standard instrument in the United States for assessing
intellectual functioning,” which is the first of the three
diagnostic criteria central to both definitions of mental
retardation quoted above. Id. at 309 n.5, 122 S. Ct. at
2245 n.5 (citing AAMR Manual 1992). The Court
explained:
The WAIS-III is scored by adding
together the number of points earned on
different
subtests,
and
using
a
mathematical formula to convert this
raw score into a scaled score. The test
measures an intelligence range from 45
to 155. The mean score of the test is 100,
which means that a person receiving a
score of 100 is considered to have an
average level of cognitive functioning. A.
Kaufman & E. Lichtenberger, Essentials
of WAISIII Assessment 60 (1999). It is
estimated that between 1 and 3 percent

80a
of the population has an IQ between 70
and 75 or lower, which is typically
considered the cutoff IQ score for the
intellectual function prong of the mental
retardation definition. 2 Kaplan &
Sadock’s Comprehensive Textbook of
Psychiatry 2952 (B. Sadock & V. Sadock
eds. 7th ed. 2000).
Id. at 309 n.5,122 S. Ct. at 2245 n.5.
Thus, although the Supreme Court instructed the
States to develop standards for identifying mentally
retarded defendants, it was also instructive regarding
the nature of the factual inquiry to be taken, pointing
the States in the direction of clinical definitions of
mental retardation that have three constituent parts:
/.&, 1) significantly substandard intellectual
functioning as measured by such normative standards
as the WAIS-III, which is “the standard instrument in
the United States for assessing intellectual
functioning,” and which, when it results in an IQ score
of “between 70 and 75 or lower,” typically means that
the subject has significantly subaverage intellectual
functioning; accompanied by 2) significant limitations
in adaptive skills in at least two areas such as
communication, self-care, and self-direction; and, 3)
both deficiencies must be manifest before the age of
eighteen years. Id. at 308-09 n.3 & n.5,122 S. Ct. at
2245 n.3 & n.5.
One of the first opportunities the Alabama courts
had to apply Atkins was in the case of defendant Roy
Edward Perkins, which was pending on certiorari in the
Supreme Court at the time Atkins was decided. Because
the case raised a mental retardation claim, the high
court remanded the case to the Alabama Supreme

81a
Court for reconsideration in light of Atkins. On remand,
in Ex parte Perkins, 851 So. 2d 453 (Ala. 2002), the
Alabama Supreme Court noted that the state
legislature had not adopted a procedure for
determining whether a capital defendant is mentally
retarded. Id. at 455. In the absence of legislative
guidance, the court referenced both the clinical
definitions of mental retardation considered by the
Supreme Court in Atkins, i.e., those promulgated by the
AAMR and the American Psychiatric Association,
supra, as well as the mental retardation statutes of
those states prohibiting the imposition of the death
penalty on a mentally retarded defendant, stating:
[T]his Court can determine, based on the
facts presented at Perkins’s trial, that
Perkins, even under the broadest
definition of mental retardation, is not
mentally retarded. Those states with
statutes prohibiting the execution of a
mentally retarded defendant require
that a defendant, to be considered
mentally
retarded,
must
have
significantly subaverage intellectual
functioning (an IQ of 70 or below), and
significant or substantial deficits in
adaptive behavior. Additionally, these
problems
must
have
manifested
themselves during the developmental
period (i.e., before the defendant reached
age 18).
Id. at 456.
The court noted in support of its conclusion that
Perkins was not mentally retarded that he had been
tested as an adult and achieved a full scale IQ score of

82a
76, and that an expert had concluded he was in the
borderline range of intelligence but was not mentally
retarded. Id. The court also examined Perkins’s
adaptive functioning and concluded that he had no
substantial deficits in that domain prior to the age of
18. Id. In support, the court noted that “Perkins was
able to have interpersonal relationships. Indeed, he was
married for 10 years. He maintained a job as an
electrician for a short period.” Id.
Roughly a year after Perkins, the Alabama Supreme
Court applied the standard from Perkins in Ex parte
Smith, noting that a full-scale IQ of 72 “seriously
undermines any conclusion that Smith suffers from
significantly subaverage intellectual functioning as
contemplated under even the broadest definitions.”
2003 WL1145475, at *9 (Ala. 2003).
V.

THE CLAIM

Clemons raises three arguments in support of
his Atkins claim: 1) the traditional deference owed to
state court judgments under § 2254(d) is inapplicable
because the circuit court failed to exercise independent
judgment, as evidenced by its verbatim adoption of the
Attorney General’s 90-page proposed order denying
his Atkins claim; 2) § 2254(d)(2) compels relief because
the Alabama courts’ factual determination that he is
not mentally retarded was unreasonable in light of the
facts before it, and 3) § 2254(d)(1) also compels relief
because the Alabama courts’ decision denying his
claim was contrary to or was an unreasonable
application of clearly established Federal law, i.e,
Atkins. Each argument is addressed in turn.
A.

The Effect, if Any, of the Circuit
Court’s Adoption of the Attorney
General’s Proposed Order

83a
It is obvious from comparing the proposed order
drafted by the Attorney General’s office and the order
signed by the circuit court that they are nearly
identical, inclusive of various typos and other errors.
Courts have certainly criticized the practice of the
mechanical adoption of proposed findings of fact
prepared by prevailing parties and condemned the
ghostwriting of judicial orders. See, e.g., Anderson v.
City of Bessemer, 470 U.S. 564, 572, 105 S. Ct. 1504,
1510 (1985); In re Colony Square Co., 819 F.2d 272, 274
(11th Cir. 1987). These practices lead to the “utter lack
of an appearance of impartiality.” Chudasama v.
Mazda Motor Corp., 123 F.3d 1353,1373 n.46 (11th Cir.
1997). However, Clemons offers no authority for the
proposition, and the Court can independently find none,
mandating that such a practice by a state postconviction court in-and-of-itself warrants habeas relief
to a petitioner under § 2254(d)(1) or (2). Jefferson v.
Upton, 560 U.S. 284,130 S. Ct. 2217 (2010), relied upon
by Clemons, is distinguishable in several respects.
First, that case was decided under the pre-AEDPA
version of § 2254(d). See id. at 289,130 S. Ct. at 2220.
Second, in that case the attorneys for the State of
Georgia drafted the order denying the state habeas
petitioner’s claims pursuant to an ex parte request from
the state-court judge, who made no such request of the
petitioner. Id. at 292, 130 S. Ct. at 2222. In Clemons’s
case, the circuit court indicated at the conclusion of the
four-day evidentiary hearing that it was inclined to find
that Clemons is not mentally retarded but requested
proposed orders from both parties. Indeed, both
submitted proposed orders. Clemons has not
demonstrated that § 2254(d) should not apply under
these circumstances.

84a
B.

Whether Clemons Has Established
that § 2254(d)(2) Applies

The ACCA 5 stated the following with regard to why
Clemons’s Atkins claim failed:
The appellant argues that he is mentally
retarded and that, therefore, his
sentence of death is unauthorized as a
matter of law. In Atkins v. Virginia, 536
U.S. 304, 321, 122 S. Ct. 2242, 2252, 153
L.Ed.2d 335 (2002), the Supreme Court
held:
“We are not persuaded that the
execution of mentally retarded
criminals will measurably advance
the deterrent or the retributive
purpose of the death penalty.
Construing and applying the Eighth
Amendment in the light of our
‘evolving standards of decency,’ we
therefore
conclude
that
such
The ACCA is the highest Alabama court to have provided any
analysis on the merits of Clemons’s Atkins claim, thus the Court
looks to its reasoning for § 2254(d) purposes. See Ylst v.
Nunnemaker, 501 U.S. 797, 803, 111 S. Ct. 2590, 2594 (1991)
(“Where there has been one reasoned state judgment rejecting a
federal claim,” federal habeas courts should presume that “later
unexplained orders upholding that judgment or rejecting the
same claim rest upon the same ground.”). However, the Court
notes that for purposes of the § 2254(d)(2) analysis, this Court
may look to the fact findings of both the circuit court and the
ACCA, as the ACCA in large part merely quoted the circuit court’s
order. See Hannon v. Sec’y, Dep’t of Corr., 562 F.3d 1146, 1150
(11th Cir. 2009) (noting that AEDPA deference to the fact
findings of state courts “applies to fact findings made by both
state trial courts and state appellate courts”).
5

85a
punishment is excessive and that the
Constitution ‘places a substantive
restriction on the State’s power to
take the life’ of a mentally retarded
offender. “
Subsequently, in Ex parte Perkins, 851 So. 2d 453, 456
(Ala. 2002), the Alabama Supreme Court stated:
“[T]his Court can determine, based on
the facts presented at Perkins’s trial,
that Perkins, even under the broadest
definition of mental retardation, is not
mentally retarded. Those states with
statutes prohibiting the execution of a
mentally retarded defendant require
that a defendant, to be considered
mentally
retarded,
must
have
significantly subaverage intellectual
functioning (an IQ of 70 or below), and
significant or substantial deficits in
adaptive behavior. Additionally, these
problems must have manifested
themselves during the developmental
period (i.e., before the defendant
reached age 18).”
See also Ex parte Smith, [Ms. 1010267, March 14,
2003] — So.2d — (Ala. 2003).
The parties presented extensive and often
conflicting evidence regarding whether the appellant is
mentally retarded. In its order denying the petition, the
circuit court made the following findings:
“[I]t is clear that Clemons does not meet
either the intelligence or adaptive
functioning elements to establish mental
retardation.

86a
“The
Court
first
addresses
the
intelligence component in determining
whether Clemons is mentally retarded.
“Clemons
has
been
administered
intelligence
testing
on
numerous
occasions, and his scores are remarkable
in their divergence, ranging from a low of
51 to a high of 84. The scores are most
likely divergent because Clemons
frequently malingers when he is tested, a
conclusion that was drawn by many of
the mental health professionals who
have examined Clemons. Because
Clemons has taken so many intelligence
tests, the Court will list them in
chronological fashion.
“Clemons was first administered an
intelligence test, the Stanford-Binet
Intelligence Test, when he was six and a
half years old. EH at 53. Clemons scored
a 77 on the test which placed him in the
borderline range of intelligence. Despite
this fact, his school records indicate that
he was labeled ‘educable mentally
retarded’ soon after taking this test.
Clemons’ school records which tend to
indicate minimal academic achievement
were consistent with his relatively low
score on the Stanford- Binet Intelligence
Test. They show that by the end of the
elementary school, Clemons was two
years behind and that he completed the
tenth grade and did not receive a high
school diploma. Petitioner’s Exhibits 2-5.
The records do not show that Clemons

87a
was
administered
any
additional
intelligence tests throughout his school
career.
“Clemons, while in prison at age 19, was
administered a BETA-II intelligence test
on which he scored a full-scale IQ of 84.
R32 Vol. 7 at 1317, 1326. This test result
was the highest score that Clemons ever
achieved. In the fall of 1992, after being
charged in both state and federal court
with
murdering
a
federal
law
enforcement official, Clemons began the
first of three rounds of testing by various
mental health professionals.
“During
a
court-ordered
forensic
evaluation at a federal prison in Butner,
North
Carolina,
Clemons
was
administered various psychological tests
including an intelligence test. Clemons
was administered the Wechsler Adult
Intelligence Scale-Revised (WAIS-R) and
scored a full-scale IQ of 51. R32 Vol. 7 at
1323. The psychologist who administered
this test was dubious that he had
obtained a valid result. He stated that
people in the low- 50 s IQ range are ‘often
in need of structured living and may be
institutionalized’ and are typically
unable to care for their basic needs. Id.
The Butner report further states that [i]t
would be virtually impossible for a
person with an IQ of 51 (from the present
testing) to earn a score of 84 on the
BETA-II only one year previous.’ Id. The
psychologist who conducted the testing

88a
noted that when he tried to obtain a
writing sample Clemons wrote with his
left hand even though he is right handed,
another indicator that Clemons was not
giving his best effort. R32 Vol. 7 at 1324.
The psychologist ultimately concluded
that Clemons was in the borderline range
of intellectual functioning and that the
results of the testing were invalid
because Clemons was malingering. R32
Vol. 7 at 1325. FN 1
FN1. The examiners noted the appellant’s lack
of participation in the testing and concluded:
“[T]he present psychological testing of
Mr. Clemons’ intellectual ability must
be considered invalid. It seems clear
that Mr. Clemons did not provide a
sincere effort and very likely
purposely presented an appearance of
impaired ability. Based on previous
results, educational history, and
impressions from his relatives, Mr.
Clemons is probably functioning in
the borderline range of intellectual
ability. It is unlikely that he falls in
the range of mild mental retardation.
Regardless of his formal IQ level, his
social, educational, and occupational
functioning do not suggest significant
intellectual impairment.”
(C.R. 1324.) The examiners further
noted:
“The diagnosis of malingering was
made to describe a pattern of

89a
voluntary behavior and it is not
considered to be a mental disorder.
The evidence that Mr. Clemons was
malingering mental disorders was
quite detailed and can be divided in
two areas: a) malingering of psychotic
symptoms (e.g., hallucinations of little
green men); and b) malingering of
cognitive deficits. The psychotic
symptoms
that
Mr.
Clemons
described are very implausible.
Clearly defined visual hallucinations
are quite rare. In addition, people who
experience genuine hallucinations
report that they are not constant
experiences and that distractions,
such as singing or exercise, will
temporarily make the hallucinations
decrease or disappear entirely. Mr.
Clemons denied this. Mr. Clemons’
own discussions about his symptoms
were inconsistent. For example,
telling one staff member everyone
should be able to see what he claimed
and telling someone else the next day
that nobody else could see them. In
addition,
people
with
genuine
psychotic disorders often neglect their
personal hygiene, but Mr. Clemons
was consistently careful to maintain
his hygiene and personal appearance.
Finally, there was no evidence of
disordered thought processes such as
tangentiality, circumstantiality, loose
associations, thought blocking, or
disorganization.
Such
disrupted

90a
thinking
processes
are
nearly
universally present among people
who suffer genuine hallucinations to
the degree Mr. Clemons reports.
In sum, there are numerous
inconsistencies with Mr. Clemons’
reports and what is known about
people who suffer genuine psychotic
thought disorders.”
(C.R. 1325.)
“Before his trial in federal court, Clemons’
attorneys had Clemons evaluated by Dr.
William Grant, a psychiatrist. R32 Vol. 7 at
1289-1301. Although Dr. Grant did not
conduct
any
intelligence
tests
or
psychological tests, he agreed with the
psychologist at Butner Correctional Facility
that Clemons was malingering. Dr. Grant’s
report indicated that Clemons entered the
interview room ‘laughing hysterically and
incessantly.’ R32 Vol. 7 at 1290. His report
indicated that Clemons stopped laughing
when he was informed that ‘faking’ would
not be in his best interest. Id. Dr. Grant’s
overall conclusions were that Clemons was
malingering and that he was antisocial. R32
Vol. 7 at 1299. Dr. Rivenbark, at Taylor
Hardin Secure Medical Facility, evaluated
Clemons in 1992 and 1994 and also
concluded that Clemons was malingering.
R32 Vol. 7 at 1281, R32 Vol. 29 at 5646. Dr.
Rivenbark apparently did not perform any
testing on Clemons. FN 2

91a
FN 2. While he was awaiting trial in
Alabama, the appellant was evaluated at
Taylor Hardin Secure Medical Facility in
July 1994. One examiner, who was not able
to complete all of the tests because the
appellant was not cooperative, made the
following observation:
“Based upon the information available to
me, it is my opinion that Mr. Clemons’
silence and lack of cooperation were
deliberate and conscious decisions and
were not due to any significant mental
disease or defect. Furthermore, given the
information gathered by other examiners
since my initial evaluation I am more
convinced than ever that he has been
deliberately malingering concerning his
intellectual ability and his mental state.
“. . . Mr. Clemons’ intelligence
probably falls somewhere in the mid
70’s to mid 80’s, which is within the
Borderline to Low Average range of
intelligence.”
(C.R. 1309-10.)
“The second round of testing occurred before
Clemons’ first Rule 32 evidentiary hearing
held in 2001. Dr. Kimberly Ackerson, a
psychologist practicing in Birmingham, was
hired by Clemons’ present counsel to
perform a psychological evaluation of
Clemons. As a part of this evaluation,

92a
she administered various tests including the
Wechsler Adult Intelligence Scale-Revised
(WAIS-R). Clemons obtained a full- scale IQ
of 73 on this intelligence test. On the score
sheet, Dr. Ackerson noted that Clemons
appeared motivated and that he was
deliberate in making his responses. Dr.
Ackerson stated that Clemons’ score placed
him in the ‘borderline’ classification. Dr.
Ackerson testified at the Rule 32 evidentiary
hearing conducted in 2001 but was not called
as a witness at the most recent Rule 32
evidentiary hearing conducted in June 2004.
“Dr. Glen King, a board-certified clinical
psychologist, was hired by the Attorney
General’s Office to perform a psychological
evaluation of Clemons before the first Rule
32 evidentiary hearing. Dr. King was not
called as a witness at the first Rule 32
evidentiary hearing but was called at the
recent Rule 32 evidentiary hearing and
testified, among other things, about the
testing he performed in 2001. In February
2001, Dr. King administered the Wechsler
Adult Intelligence Scale-Third Edition
(WAIS-III) to Clemons and obtained a fullscale IQ score of 77. EH at 771. Dr. King
stated that Clemons had a nine- point
difference between the verbal and
performance IQ score

93a
which was ‘a little larger than we would like
to see’ but stated that the difference could be
attributed to Clemons’ low score on the ‘digit
symbol coding’ test where it did not appear
that Clemons was ‘. . . trying hard.’ EH at
773. Dr. King stated that Clemons’ full scale
IQ score “indicates functioning in the
general area that we call borderline
intellectual ability, which is between
mentally retarded functioning and the
average.” EH at 771. During this same round
of testing, Dr. King stated that he
administered the spelling and reading
portion of the ‘Wide Range Achievement
Test—Third Edition’ which is a measure of
academic achievement. EH at 778-79.
Clemons scored a 98 on the reading part and
a 96 on the spelling part which equates to
Clemons being able to read and spell at the
‘high school level.’ EH at 779.
“The third round of testing occurred after the
Court of Criminal Appeals remanded the
case for this Court to determine, among
other things, whether Clemons is mentally
retarded. In February 2004, Dr. King
administered the Halsted-Reitan test
battery which includes the original version
of the Wechsler, the Wechsler Adult
Intelligence Scale (WAIS). Dr. King testified
that he noticed Clemons

94a
was much more indifferent in his attitude
during the more recent testing. EH at 784.
During the testing, Clemons did not appear
to be motivated to give his best effort and
even claimed that the ‘right side’ of his body
was going numb to the point that he was
paralyzed. EH at 784-85. Dr. King stated
that he had not seen anything in Clemons’
medical history that indicated Clemons
suffers from temporary paralysis in his right
side. EH at 786. On the WAIS, Clemons
obtained a full-scale IQ score of 67. Because
the WAIS is considered an easier test than
the WAIS-III, Dr. King subtracted seven
points from the results of the WAIS so that
those scores would equate with the results of
the WAIS-III. EH at 792-93. Therefore,
Clemons’ full-scale IQ score on the WAIS is
60 as compared with the full-scale IQ of 77
that Clemons received three years previous
on the WAIS-III.FN 3 Dr. King stated that
without some intervening event such as a
stroke, physical problem, or serious disease
it is difficult to account for a 17-point drop in
a full-scale IQ score. EH at 793. Dr. King
concluded that Clemons was malingering in
an effort to score lower on the WAIS that was
given in 2004.FN 4 Dr. King’s overall
assessment is that Clemons functions in the
‘borderline range of intellectual

95a
ability.’ EH at 819. FN 3. With regard to the
disparity in the appellant’s test scores from
2001 and 2004, the following occurred:
“[STATE:] Is it possible that Mr.
Clemons’ full scale IQ would drop
seventeen points from seventy-seven
to sixty in about three years?
“[KING:] Not ordinarily without some
kind of intervening event, like stroke
or serious disease or development of
some physical problem that might
account for that.
“[STATE:] Are you aware of any such?
“[KING:] I am not.
“[STATE:]
So
what
is
your
interpretation of his scores on the
WAIS?
“[KING:] That he was dissembling; in
other words, that he was not
providing his best effort on many of
the subtests.
“[STATE:] Do certain portions of the
WAIS and the WAIS-III contain—
such
as
the
vocabulary
and
similarities sections, contain some of
the same questions?
“[KING:] Yes, they do. Some things
overlap.
“[STATE:] Were there any questions
that he got wrong in 2004 on the

96a
WAIS that he actually got right in
2001 on the WAIS-III?
“[KING:] For example, on the
vocabulary items when asked to
define winter, in 2001 he gave a twopoint response saying it was the cold
time of the year. And in 2004 he said
it was fall, which would be a zero
response.
“In 2001 when asked the question on
comprehension, ‘what should you do if
you find an envelope in the street that
is sealed and addressed and has a new
‘stamp’? In 2001 he indicated ‘put it in
a mailbox’ and in 2004 he said ‘look at
it’?
“[STATE:] Could you please tell us,
Doctor, what those differing answers
might indicate to you?
“[KING:] In my experience, they
indicate to me clearly the presence for
malingering, giving false answers in a
purposeful fashion.”
(Remand R. 793-96.)
FN 4. King also administered the Test of
Memory Malingering (“TOMM”). The
scores indicated that the appellant was
malingering for memory difficulties and
appeared to give incorrect responses to
every third item on the test. (Remand R.
789.)
“Dr. Golden, the psychologist hired by
Clemons’ present counsel to perform a

97a
psychological evaluation, administered
the Stanford-Binet Intelligence ScaleFourth Edition to Clemons on October 23,
2003. EH at 133. Dr. Golden testified that
he gave this particular intelligence test
because it is a better measure of
intelligence for a person who is mentally
retarded. EH at 133-37. Dr. Golden did
not support this conclusion, however,
with literature from any journals.
Clemons achieved a full-scale IQ score of
58 on the Stanford-Binet administered by
Dr. Golden. EH at 139. However, Dr.
Golden stated that because the StanfordBinet uses a ‘slightly different scoring
system’ from the Wechsler test, Clemons’
scores should be adjusted upward by
three, thus giving Clemons a full-scale IQ
score of 61. EH at 139. Dr. Golden then
stated that this score was ‘probably an
overcorrection.’ Id. Dr. Golden then
performed another calculation:
“‘Probably a better estimate of the
Binet IQ is to average these four
scores together [verbal reasoning-62;
abstract
visual
reasoning-62;
quantitative reasoning-59; short term
memory-68], which actually gives you
a score of sixty-six overall as his IQ.
And this is the more comparable score
to what we are working on with the
WAIS.’

98a
“EH at 139 and 140. Dr. Golden gave no
justification on why these additional
calculations were necessary to derive
Clemons’ full-scale IQ score.
“Dr. King testified that he was not aware
of any information that requires a
psychologist to scale an IQ score that is
attained on the Stanford-Binet test. EH
at 823-24. In fact, Dr. King stated that
‘[t]he Stanford-Binet Intelligence Scale
as Revised uses norms like other tests,
and you come up with an IQ score based
on those norms and that’s the IQ score.’
EH at 824. During the evidentiary
hearing, Clemons presented no evidence
to support Dr. Golden’s assertion that it
is necessary to scale scores upward that
are obtained from the administration of
the Stanford-Binet Intelligence Test.
“As can be seen above, Clemons’ IQ scores
vary widely from a low of 51 on the WAISR given at the Butner Correctional
Facility in fall 1992 to a high of 84 on the
BETA-II, apparently administered by the
Alabama Department of Corrections
sometime in 1991. The evidence
demonstrates that when Clemons puts
forward effort, he consistently scores in
the 70- 80 range on intelligence tests.
These scores place him in the borderline
range of intellectual functioning and

99a
establish that he is not mentally
retarded. The testing revealed that
Clemons scored below 70 three times,
twice as a part of the latest round of
testing when Clemons was presumably
aware of the Court of Criminal Appeals’
remand on the mental retardation issue.
In the fall of 1992, Clemons scored a 51
on the WAIS-R, a score which was
discounted by the test administrator
because it was inconsistent with the 84
score that Clemons achieved on the
BETA-II the previous year. R32 Vol. 7
1323. The psychologist at Butner stated
that a person scoring a 51 on an
intelligence test would possibly have to
be institutionalized and not be able to
take care of basic needs. Id. Despite
Clemons’ score of 51, the psychologist at
Butner found that Clemons was
functioning in the borderline range. R32
Vol. 7 at 1325.
“During the most recent round of testing,
Clemons scored below 70 on tests
administered by Dr. Golden and Dr.
King. Clemons obtained a 58 on the
Stanford-Binet administered by Dr.
Golden who offered cryptic explanations
in an effort to demonstrate that a 58
really meant that Clemons scored a 66.
Dr. King stated that he was unaware of
any reason why the final score on a
Stanford-Binet becomes another

100a
score. Clemons was offered the chance to
present rebuttal evidence and never
refuted Dr. King’s statement. The Court
finds that Clemons received a 58 fullscale IQ on the test administered by Dr.
Golden and that Dr. Golden offered
incredible reasons in an effort to make
the score appear more consistent with
Clemons’ other scores. Dr. King, during
the most recent round of testing,
administered the original version of the
Wechsler
as
a
part
of
a
neuropsychological test battery and
obtained a full-scale IQ score of 67. Dr.
King then scaled the score to a 60 to make
the score equivalent to a score derived on
the WAIS-III because the WAIS is an
easier test than the WAIS-III. EH at 792.
Again,
despite
being
given
the
opportunity to present rebuttal evidence,
Clemons never refuted Dr. King’s
statement that the WAIS should be
scaled down if the score is to be given a
WAIS- III equivalent score. FN 5
FN 5. Another expert who was retained
by the appellant’s attorneys, Dr. Joseph
Chong-Sang Wu, an associate professor
at the University of California Irvine
College of Medicine and clinical director
of the University of California IrvineBrain Imaging Center, testified that he
came to Alabama to perform a

101a
Positron Emission Tomograph (“PET”)
scan on the appellant. Based on the
results, he concluded that the appellant
had brain damage.
Dr. Helen Mayberg, a neurologist who
was retained by the State, testified that
the PET scan was not considered reliable
for the purpose for which it was used by
Dr. Wu. She further testified that her
review of the PET scan findings showed
that the appellant had normal brain
activity and did not have a brain injury.
The appellant attempted to use the PET
scan results to show that he had suffered
from a brain injury at or near birth. The
appellant was born in 1971, and the test
was conducted in 2004. Also, Wu
conceded that none of the scientific
journals or studies supported the use of a
PET scan as a diagnostic tool to ascertain
old brain injuries. The appellant could
not show that the PET scan was reliable
and generally accepted in the scientific
community to diagnose 30-year-old brain
injuries. Therefore, the circuit court
properly found that the PET scan results
were not admissible because they did not
satisfy the Frye v. United States, 293 F.
1013 (D.C.Cir. 1923), test.
“Therefore, the Court finds that Clemons
does not satisfy the criteria

102a
to establish mental retardation under the
intellectual functioning element. The
evidence demonstrates that when Clemons
puts forward some effort he consistently
scores in the 70-80 range on intelligence
tests. Further, the evidence demonstrates
that
when
Clemons
malingers
he
consistently scores in the 50-60 range.
Clemons has failed to establish that he
meets the criteria to establish ‘significantly
subaverage general intellectual functioning.’
Because Clemons has not established this
criteria, he is not mentally retarded.
“Notwithstanding the above finding that
[the] Petitioner is not mentally retarded, the
Court also addresses the adaptive
functioning element of mental retardation.
“As previously stated, the state appellate
courts have looked to various factors in
examining whether a criminal is mentally
retarded and therefore exempt from the
death penalty. Perkins, 851 So.2d at 456;
Smith, [Ms. 1010267, March 14, 2003] —
So.3d at—; Stallworth v. State], 868 So.2d
[1128] at 1182 [Ala. Crim. App. 2001] Among
these factors are: employment history, the
ability to have interpersonal relationships,
being extensively involved in criminal
activity, post-crime craftiness

103a
on the part of the criminal, and being able to
use community resources. The record
demonstrates that all of the abovementioned factors apply to Clemons and
establish that he is not mentally retarded.
“Even though Clemons went to jail when he
was 19 years old and therefore did not have
much of an opportunity to hold many jobs,
the record demonstrates that he was still
able to hold a few jobs. The Butner report
indicates that ‘[Clemons] has held a variety
of unskilled positions, none lasting more
than a few months.’ R32 Vol. 7 at 1317.
Clemons’ most notable job was as a delivery
driver for Domino’s pizza. Daryl Pritchett,
the manager who employed Clemons,
testified at the first Rule 32 hearing that this
job requires an individual to have a valid
driver’s license. R32 Vol. 36 at 304-05.
Clemons’ grandfather had purchased a car
for Clemons so that he could work at
Domino’s. R32 Vol. 36 at 300. Although
Pritchett said that Clemons returned more
pizzas than other delivery drivers, he
recalled that if Clemons was familiar with
the neighborhood he would not have trouble
delivering the pizza. R32 Vol. 36 at 307.
Pritchett said that a delivery driver was
expected to be able to make change out of the
‘bank’ that was provided to them at the
beginning of the shift without the benefit of
a calculator. R32 Vol. 36 at 309. Pritchett
admitted

104a
that sometimes Clemons would ‘come up
short’ when all of his receipts were
reconciled at the end of the evening. Id.
Clemons’
work
performance
was
satisfactory, however, but he just stopped
coming to work after a month or two. R32
Vol. 36 at 306.
“The lack of an employment history is
perhaps better explained by Clemons’ lack of
desire rather than inferior adaptive
functioning. As the psychologist at Butner
Correctional Facility stated:
“‘In addition to outright illegal behavior,
Mr. Clemons has never chosen to support
himself or be responsible for his own
needs. He has lived with relatives, even
as an adult, has not maintained
employment, and has spent his time
engaged in illegal behavior, substance
abuse, and promiscuous sexual activity. ‘
“R32 Vol. 7 at 1325. If Clemons has a lack of
employment history, this Court finds the
records introduced during the Rule 32
proceedings establish it is due to a lack of
motivation on his part to find work.
“Clemons had the ability to form
interpersonal relationships with women, a
factor the appellate courts have ruled has
relevance in examining whether a criminal
defendant is mentally retarded. Smith. . . .
The Butner report indicates that Clemons
had a number of

105a
relationships with women. Clemons stated
that he had numerous relationships with
women and one serious relationship. R32
Vol. 7 at 1317. Clemons stated that he
fathered at least two children but because
he had been with so many women, he did not
remember the names of the women who bore
his children. Id.
“Clemons’ post-crime conduct supports the
notion that he was a crafty criminal intent
on
minimizing
his
culpability
and
establishing a defense to his crime, another
factor indicating Clemons does not have
substantial deficits in adaptive functioning.
After being placed under arrest, Clemons
gave a statement to the FBI. Supp.R.Exhibits Vol. 4 at p. 1 (unnumbered pages).
In the statement, Clemons in a clever way
minimized his criminal culpability and even
attempted to establish that he was
defending himself when he killed Agent
Althouse. Clemons stated that on the day of
the crime, he was picked up by Kenny Reid
and Dedrick Smith who both had guns and
were talking about taking cars at gunpoint.
Id. As they were riding around looking for
cars, Clemons told them, ‘if you’re going to
take cars, take me home.’ Id. They saw a
black Camaro at a convenience store and
Reid and Smith told Clemons to take the car.
Id. at p. 2. When Clemons hesitated, they
taunted him. Id. As Clemons exited the car,
they

106a
threw a gun for him to use. Id. As Clemons
approached the car, he noticed a white male
in the passenger seat talking on a cell
phone. Id. When Clemons pointed the gun at
Agent Althouse and said he was taking the
car, Althouse dropped the phone and stated,
‘[O]kay, sure.’ Id. Clemons stated that Agent
Althouse then smirked and pulled a gun
from his ‘rear area’ and appeared as if he
was going to shoot Clemons. Id. After
Clemons observed Agent Althouse draw the
gun, Clemons ‘poured’ his gun, meaning that
he fired a number of rounds. Id. This
statement reflects Clemons’ criminal
sophistication in that he attempted to make
himself look like a follower and, at the same
time, contend he killed only in self-defense.
“Other facts presented at Clemons’ trial
demonstrate that Clemons’ statement
contained numerous false statements. A
week before the murder, Herman Shannon
testified that Clemons came to his house and
asked if anyone had a gun. R. 1423. Shannon
gave Clemons a gun and testified that it was
the same gun Clemons was in possession of
immediately after the crime occurred. R.
1423. Shannon’s testimony indicates that
Clemons acted with premeditation by
obtaining a gun a week before he carried out
the carjacking. Kenny Reid testified that on
the night of the crime they were

107a
traveling down Highway 280 when Clemons
told Smith to pull into the Chevron gas
station. R. 1327-28. Clemons, referring to a
car parked at the gas station, yelled ‘that’s
it, right there.’ R. 1329. Smith let Clemons
out and parked at the Wendy’s next door to
the gas station. R. 1330. Soon thereafter,
Reid heard two gunshots and then several
more rounds of shots and saw Clemons drive
through a red light at a high rate of speed.
R. 1331-32. Reid said that when he saw
Clemons later that night, Clemons
instructed him not to talk because he had
killed a DEA man. R. 1335. Leon Johnson,
who was at the house where Clemons drove
immediately after the murder, stated that
Clemons said he would kill him if he talked
to the police. R. 1449. These facts
demonstrate that Clemons was not an
unwitting follower due to his low
intelligence but rather that he had a
deliberate plan to carjack a car.
“Another factor relative to adaptive
functioning is being extensively involved in
criminal activity. Smith. . . . There was
evidence presented at trial that indicated
Clemons carjacked cars on three separate
occasions at gunpoint. R. 1478-80,1493- 99,
1503-08. In all of these crimes, Clemons
committed the forcible taking of the car
without any assistance. Clemons’ ability to
repeatedly engage in illegal behavior refutes
the notion that

108a
he had significant limitations in adaptive
behavior.
“Finally, the state courts have indicated
that being able to use community resources
is relevant in determining adaptive
functioning. In Stallworth, 868 So.2d at
1182, the Court of Criminal Appeals
indicated that a person qualifying for food
stamps is evidence of adequate adaptive
skills. After Clemons killed Agent Althouse,
he soon fled the Birmingham area and left
for Cleveland, where he had family.
Clemons was transported to Cleveland on a
Greyhound Bus, which is an indication that
Clemons could use the community resource
of public transportation.
“All of the above various factors refute
Clemons’ contention that he has significant
limitations in adaptive behavior. Two of the
psychologists that have examined Clemons
have stated that he does not have significant
limitations in adaptive functioning. Dr.
King stated the following:
“ ‘In addition, by history, Mr. Clemons
had a driver’s license, he worked some
places for a year at a time. He was able
to matriculate through school to the
tenth grade, even if he stopped at that
point. He has literacy levels that seem to
vary by whoever is giving him the test
and under what circumstances, but
clearly with me he was able to recognize

109a
words
and
spell
words,
rather
sophisticated words, at about a high
school level with ninety-eight, ninety-six
scores.’
“EH at 836. Dr. Grant, who was hired by
Clemons’ attorneys to perform an evaluation
before the federal trial, found that Clemons
was a hardened criminal who demonstrated
adaptive skills in prison that refuted any
notion that he was mentally retarded:
“ ‘Data from Jefferson County Jail
personnel indicate that Mr. Clemons is
currently housed on a violent floor with
twenty-two other violent criminals.
Individuals with low IQs in this setting
tend to be victimized by other inmates,
who steal food off their trays, their
money, and their candy (the Defendant
arrived at the interview carrying candy).
Defendants in this setting who are
mentally slow, typically get into fights or
have to be put in protective custody on
the medical unit. Mr. Clemons’ survival
on a violent unit may attest to his true
ability to function.’
“R32 Vol. 7 at 1298-99. Clemons has not
demonstrated that he has significant
limitations in adaptive functioning.
“The third element to prove mental
retardation is that significantly subaverage
intellectual functioning and significant
deficits in adaptive behavior must occur
before the age of 18. Ex parte

110a
Perkins, 851 So.2d at 456; Ex parte Smith....
Clemons was first administered an
intelligence test when he was six and a half
years old, scoring a 77 on the test which
placed him in the borderline range of
intelligence. Clemons was apparently not
administered any more intelligence tests
until he was past age 18. The Alabama
Supreme Court has ruled that scores above
70 place a defendant above the cut-off to
establish
significantly
subaverage
intellectual functioning. Ex parte Perkins,
851 So. 2d at 456; Ex parte Smith. . . .
Clemons likewise did not produce any
evidence of significant deficits of adaptive
functioning before age 18.
“For the foregoing reasons, this Court finds
that Clemons is not mentally retarded. “
(Remand C.R. 9-29) (footnotes omitted).
We have reviewed the record in light of
Perkins and Smith, and we conclude that it
supports the circuit court’s findings. Therefore,
we adopt those findings as part of this opinion.
Based on the record before us, we conclude that,
even under the broadest definition of mental
retardation, the appellant is not mentally
retarded and that imposition of the death
penalty
in
his
case
would
not
be
unconstitutional. FN 6
FN 6. The appellant argues that he was
entitled to have a jury empaneled

111a
to determine whether he was mentally
retarded. However, he did not first present
this argument to the circuit court. Therefore,
it is not properly before this court. See Pate
v. State, 601 So. 2d 210 (Ala. Crim. App.
1992).
Clemons, 55 So. 3d at 323-32.
To succeed on his claim, Clemons must establish
that the state courts’ determination that Clemons is not
mentally retarded, which is a finding of fact, see Fults
v. GDCP Warden, 764 F.3d 1311, 1319 (11th Cir. 2014),
is objectively unreasonable based on the record. The
Court will address each of the three underlying factual
determinations on which the circuit court’s order was
premised—that Clemons’s IQ scores were inconsistent
with a diagnosis of mental retardation, that he
presented no evidence of adaptive impairment, and that
these limitations did not originate before he turned 18.
Here, upon examination of the record before the state
court, the Court cannot conclude that any of the three
critical factual determinations was objectively
unreasonable.
1.

Significantly Subaverage
Intellectual Functioning

The first prong of the mental retardation test is
satisfied upon a showing that a person exhibits
“significantly subaverage” intellectual functioning.
Atkins, 536 U.S. at 308 n.3, 122 S. Ct. at 2245 n.3
(quoting the AAMR Manual 1992 and the DSM-IV-TR).
The circuit court determined that Clemons failed to
establish that he met this prong because “when
Clemons puts forward some effort he consistently
scores in the 70-80 range on intelligence tests. Further,

112a
. . . when Clemons malingers he consistently scores
in the 50-60 range.” 55 So. 3d at 327-28. Clemons
argues that this determination was unreasonable based
on the facts that were before the court because it does
not take into account the Standard Error of
Measurement (“SEM”), which is the concept that
obtained IQ test scores actually represent a range of
several points in either direction. Clemons’s argument
fails, however, for two reasons. First, there no
indication that the circuit court did not apply the SEM
in calculating his scores. Second, even when one takes
the SEM into account, the mean of the scores from the
few IQ tests that were not discredited as invalid by the
circuit court still results in an IQ score that does not fall
within Atkins’s significantly subaverage intellectual
functioning definition.
As Clemons points out, both the AAMR Manual and
the American Psychiatric Association’s DSM-IV-TR,
which contain the clinical definitions of mental
retardation that the Supreme Court discussed in
Atkins, mandate that in order to accurately assess a
subject’s intellectual functioning through the use of
intelligence tests, consideration must be given to the
SEM. 6 According to the AAMR Manual in effect at the
time of Clemons’s Atkins hearing in 2004, “[t]he
criterion for diagnosis is approximately two standard
deviations below the mean, considering the standard
error of measurement for the specific assessment
instruments used and the instruments’ strengths and
limitations.” Am. Ass’n on Mental Retardation, Mental
For purposes of this opinion, the Court refers both to the
1992 AAMR Manual cited in Atkins, the 2002 edition in effect at
the time of Clemons’s Atkins evidentiary hearing in 2004, and to
the DSM-IV-TR, which was in effect at the time of the hearing
and when Atkins was decided.
6

113a
Retardation: Definition, Classification, and Systems of
Support 13, 58 (10th ed. 2002) (“AAMR Manual 2002”).
On page 57, the AAMR Manual 2002 further explains:
The assessment of intellectual functioning through the
primary reliance on intelligence tests is fraught with
the potential for misuse if consideration is not given to
possible errors in measurement. An obtained IQ
standard score must always be considered in terms of
the accuracy of its measurement. Because all
measurement,
and
particularly
psychological
measurement, has some potential for error, obtained
scores may actually represent a range of several
points. . . . this process is facilitated by considering the
concept of standard error of measurement (SEM),
which has been estimated to be three to five points for
well-standardized measures of general intellectual
functioning. The AAMR Manual notes that a standard
deviation from a mean of 100 is 15 points on the
Wechsler Adult Intelligence Scales (“WAIS”) and 16
points on the Stanford-Binet, 4th edition—“the two
instruments most commonly used to assess
intelligence”—and the SEM on most IQ tests is
approximately three to four points. 20 AAMR Manual
2002 at 57, 61-62. Thus, an IQ of 70—two standard
deviations below the mean on the WAIS —”is most
accurately understood not as a precise score, but as a
range of confidence with parameters of at least one
SEM (i.e., scores of about 66 to 74; 66% probability), or
parameters of two SEMs

114a
scores of 62 to 78; 95% probability).” Id. at 57. Indeed,
the AAMR Manual 2002 further states:
[T]his expands the operational definition
of mental retardation to 75, and that
score of 75 may still contain measurement
error. Any trained examiner is aware
that all tests contain measurement error;
many present scores as confidence bands
rather than finite scores. Incorporating
measurement error in the definition of
mental retardation serves to remind test
administrators (who should understand
the concept) that an achieved Wechsler
IQ score of 65 means that one can be
about 95% confident that the true score
is somewhere between 59 and 71.
AAMR Manual 2002 at 59 (emphasis added).
Similarly, the DSM-IV-TR in effect at the time of
Clemons’s
Atkins
hearing
similarly
defined
“significantly subaverage intellectual functioning” as
“an IQ of about 70 or below (approximately two
standard deviations below the mean),” but it also
emphasized the importance of the SEM:
[T]here is a measurement error of
approximately 5 points in assessing IQ
although this may vary from instrument
to instrument (e.g., a Wechsler IQ of 70
is considered to represent a range of 6575). Thus, it is possible to diagnose
Mental Retardation in individuals with
IQs between 70 and 75 who exhibit
significant deficits in adaptive behavior.
DSM-IV-TR at 41-42 (emphasis added). It is thus clear

115a
that neither the AAMR nor the American Psychiatric
Association advocated at the time of Clemons’s Atkins
hearing a fixed, finite IQ score of 70 to separate
persons who are mentally retarded from those who are
not. The Atkins Court acknowledged the existence of
the SEM when it referenced that an IQ of “between 70
and 75 or lower [] is typically considered the cutoff IQ
score for the intellectual functioning prong of the
mental retardation definition.” 538 U.S. at 309 n.5,122
S. Ct. at 2245 n.5.
There is no indication from the circuit court’s order
that it did not consider the SEM in calculating
Clemons’s IQ. To the contrary, the circuit court
expressly recognized the existence of the SEM in a part
of the order not reproduced by the ACCA on appeal, as
follows:
Even though the Atkins Court did not
create a national standard to determine
mental retardation, it did list the
definitions of mental retardation as
promulgated
by
the
American
Association on Mental Retardation
(AAMR) and the American Psychiatric
Association. [Atkins, 536 U.S.] at 308 n.
3. The most recent definition of mental
retardation disseminated by the AAMR
states that “[m]ental retardation is a
disability characterized by significant
limitations
both
in
intellectual
functioning and in adaptive behavior as
expressed in conceptual, social, and
practical adaptive skills.”FN 1 The
AAMR further states that this disability
must originate before the age of 19.

116a
See www.aamr. Org/Policies. “In regard
to the intellectual criterion for the
diagnosis of mental retardation, mental
retardation is generally thought to be
present if an individual has an IQ test
score of approximately 70 or below.” Id.
Any IQ test score should be considered in
light of the standard error of
measurement, which is generally +/- 5.
Id.
FN 1. The Atkins Court cited the
Ninth Edition definition of mental
retardation as promulgated by the
AAMR in 1992. Atkins, 536 U.S. at
308 n.3. The AAMR’s most recent
definition of mental retardation can
be found on its website. See
www.aamr.org/Policies.
[R. EMC_644 (emphasis added).] Additionally, the two
experts who testified at Clemons’s Atkins evidentiary
hearing, Dr. Golden for Clemons and Dr. King for the
State, recognized the existence of the SEM, actually
discussing it in some detail, and agreed that the proper
range was five points. [R. EMC_911 (Dr. Golden noting
a measurement error of five points for IQ tests); R.
EMC_1633 (Dr. King conceding that the appropriate
SEM is plus or minus five points).] Granted, the
Alabama Supreme Court at the time presumably did
not acknowledge or utilize the SEM in defining mental
retardation because it found in Perkins that scores
“above 70” place a defendant above the cutoff to
establish
significantly
subaverage
intellectual
functioning. See 851 So. 2d at 456. Although the circuit
court and the ACCA on appeal quoted and purported
to apply Perkins, they never stated that Clemons was

117a
not mentally retarded because his IQ was above 70.
Rather, they concluded that the scores that resulted
when Clemons put forth effort on IQ tests were in the
range of 70 to 80, a range that they found inconsistent
with a diagnosis of significantly subaverage
intellectual functioning.
More importantly, although the circuit court
characterized Clemons’s IQ score as being in the 70 to
80 range, when a mean score is actually calculated from
the few IQ tests Clemons took that the circuit court
deemed valid, i.e., the ones in which Clemons did not
provide false answers purposefully, Clemons’s IQ is at
least two points above the “70 to 75 or below” SEM
range discussed by the Supreme Court in Atkins and by
the clinical journals in existence at the time. 7 To
understand this, a thorough discussion of the seven IQ
tests administered to Clemons throughout his life is
warranted. Additionally, five out of the seven mental
health professionals who examined Clemons found him
to be malingering for psychotic problems and cognitive
disabilities, providing reports more detailed than what
the circuit court recounted in its order. As such, the
facts in the record regarding Clemons’s malingering
must also be addressed because they severely
complicate the process of assessing his intellectual
functioning using standardized IQ tests.
To begin, the only record of any test administered to
Clemons before the age of 18 was the Stanford-Binet
Intelligence Test, which he took when he was six and a
half years old. The Stanford-Binet is one of the most
Clinical practice indicates that the appropriate method of
determining an individual’s IQ when there are several tests in
the record is to average the scores of the various tests to reach a
mean score. See e.g., In re Holladay, 331 F.3d 1169,1174-75 (11th
Cir. 2003).

7

118a
widely recognized and utilized intellectual functioning
assessment instruments, along with the WAIS tests.
See Thomas v. Allen, 607 F.3d 749, 753 (11th Cir. 2010).
Clemons scored a full scale IQ of 77 on that instrument,
which placed him squarely within the range of
borderline intellectual functioning. [Id.] There was no
evidence presented that Clemons malingered on this
test at such a young age.
When Clemons was nineteen years old and in prison
in 1991, he was administered the Beta-II intelligence
test, and he generated a full scale IQ score of 84 on that
instrument, which the circuit court noted was his
highest score on any test. [R. EMC_657.] There were no
allegations concerning malingering on that test.
Although that test was never actually mentioned or
submitted into evidence during Clemons’s Atkins
hearing in 2004, it was in the record and discussed at
the first Rule 32 hearing in 2001 over which the same
judge presided. Clemons argues that several courts
have recognized that the Beta-II is not the best tool for
measuring an individual’s IQ. See, e.g., Pruitt v. Neal,
788 F.3d 248, 253 (7th Cir. 2015) (expert noted that
Revised Beta (Beta-II) “is not an accurate test, it is not
well regarded in the field, and it is not well accepted in
the field as a general test of intelligence”; test “severely
overestimates” an individual’s IQ by “20-30 points”);
Ladd v. Thaler, 2013 WL 593927, at *2 n.3 (E.D. Tex.
Feb. 15, 2013) (state court conclusion that Ladd did not
meet intellectual functioning prong of Atkins due to 86
Beta test score was rebutted by clear and convincing
evidence because Wechsler score was 67 and Beta test
is a less accurate and less reliable IQ test); Allen v.
Wilson, 2012 WL 2577492, at *4,10,15 (S.D. Ind. July 3,
2012) (Beta “antiquated” and not an individualized test
but group administered; court finds defendant suffers

119a
significantly subaverage intellectual functioning
despite 104 score on Beta because Stanford-Binet score
of 68 is “most reliable” of IQ tests administered).
However, Clemons’s argument is misguided because
the circuit court was never presented with any
substantive argument or evidence as to the Beta-II’s
reliability during Clemons’s Rule 32 proceedings. 8
Accordingly, it was not objectively unreasonable for the
circuit court to have taken the score of 84 into account
in calculating Clemons’s IQ.
The next series of psychological evaluations and IQ
testing was conducted prior to Clemons’s federal and
state trials for the general purpose of determining
whether he suffered from any mental illness or
cognitive difficulty that would make him incompetent
to stand trial. Prior to his federal trial, Clemons
submitted to a court-ordered evaluation at the Taylor
Hardin Secure Medical Facility in Tuscaloosa. [R.
EMC_7201-7214.] Dr. Wilburn H. Rivenbark, a
psychologist and certified forensic examiner, evaluated
Clemons on August 12, 1992. [R. EMC_7202, 7211.]
While he did not conduct any IQ tests on Clemons, his
interview with him led him to suspect that he was
malingering for psychotic problems, due to the fact that
Clemons reported “seeing and hearing ‘little green
friends,’ ” and several times smiled or laughed out
inappropriately apparently without prompting, but
Clemons points out that one of the State’s experts testified at
his trial in 1994 that the Beta-II test is “typically used as a
screening” and has a “wider range” of error than the WAIS and
Stanford-Binet. [R. EMC_8257-58.] Although the same judge
presided over his trial, it is unrealistic to suggest that he should
have discredited the results of the Beta-II at Clemons’s Atkins
hearing based on his memory of this isolated statement from ten
years prior.

8

120a
stopped the behavior once confronted. [R. EMC_72057206, 7210.] Dr. Rivenbark also noted that despite any
history of mental illness or treatment, Clemons insisted
that he had been suffering from mental illness all his
life, but no one believed him. [Id.] Dr. Rivenbark
concluded that Clemons “was able to understand and
appreciate the consequences of his acts at the time of
the alleged offenses, and ... was responsible for his
actions.” [Id.]
Clemons was then subjected to a more thorough
psychological evaluation before his federal trial while in
prison in Butner, North Carolina. [R. EMC_7240.] On
December 10, 1992, Drs. Hazelrigg and Berger
administered the Wechsler Adult Intelligence ScaleRevised (“WAISR”) to Clemons, and he generated fullscale IQ of 51 on that instrument. [R. EMC_7250.] Drs.
Hazelrigg and Berger opined that the results of that
test were invalid because Clemons was deliberately
malingering for psychotic symptoms and cognitive
deficits. As the circuit court noted in its order, in
support of their conclusion that he had given false
answers purposefully on the WAISR, they noted that it
would be nearly impossible for him to have scored an 84
on the Beta-II one year prior and then score a 51 on the
WAISR, and stated that a score of 51 would place
Clemons in the category of individuals who are need of
structured living and may be institutionalized. [Id.]
They also made the following observations:
Mr. Clemons indicated that he was unable to read
or write at an adult level. To assess this issue, a
writing sample was obtained. Mr. Clemons did not
cooperate with providing the sample. He wrote with
his left hand (although he is right-handed), printed,
and discontinued writing in the middle of a sentence,

121a
breaking the pencil. His writing is filled with
misspellings, many of which appear contrived and
very implausible. For example, he spelled “finger”
and “plate” correctly, but misspelled “room” (“rumm”)
and “girls” (“gurlz”). His handwriting and literacy
skills were compared with a written statement he
provided in 1991, which was certified as being
written by Mr. Clemons in his own handwriting. In
this longer sample there is only one trivial
misspelling (“droped” instead of “dropped”) and it is
written in cursive. A comparison of his signature
made righthanded (09/16/92) and left handed
(12/07/92) shows very little similarity.
When asked about this discrepancy,
Mr. Clemons acknowledged the two were
different, would offer no explanation, but
also refused to provide a third sample for
comparison.
Mr. Clemons’ cognitive ability can be
established to be much higher than his
presentation
during
the
present
evaluation made it appear. Previous IQ
scores were of 77 at age six and 84 at age
19 .... Although he pretended to be
illiterate,
his
school
performance
suggests otherwise. Also, he was reported
to read the nine page affidavit at the time
of his arrest. A written statement from
1991 was certified to be in his
handwriting and his wording. Although
he reported amnesia for the time of the

122a
alleged offenses and stated that he could
not recall any of the numerous instances
he was informed of the charges against
him, his memory for many incidental
events during the evaluation was totally
intact and no amnestic episodes or signs
of memory deficits were in evidence.
Finally, his responses during an
evaluation in August 1992 were much
more complete that [sic] responses to the
same questions in November 1992. For
example, in August he knew the colors of
the American flag, where the sun rises,
and many details about proper courtroom
proceedings. In November, he claimed to
not know any of this information. There
is no known factor that could account for
such a dramatic loss of long-term
knowledge. Therefore, the diagnosis of
Malingering of cognitive deficits is also
clearly established.
[Id.] They concluded that Clemons’s intellectual level
is “above the range of retardation” and that Clemons
“does not suffer from any mental disorder that would
render him unable to understand the nature and
consequences of the proceedings against him, or assist
his attorney in his own defense.” [R. EMC_7254.]
Prior to his state trial, Clemons was evaluated by
two additional professionals who again did not conduct
any IQ tests but who agreed with others that Clemons
was malingering for psychotic problems and was not
mentally retarded. Dr. William H. Grant, a
psychiatrist, evaluated Clemons at the request of his
counsel on February 3 and 6, 1993, and he cited in
support of his conclusion that Clemons malingered for

123a
psychotic problems but was in actuality competent to
stand trial that he “entered the interview room
laughing hysterically and incessantly,” but stopped
when confronted; that he was able to survive on a
violent floor of the jail; and that he asked him for
particular antidepressant drugs by name. [Id. at 7216,
7220, 7223- 26.] Dr. Grant also noted the following with
regard to Clemons’s academic record:
An Alabama basic competency test,
from the 9th grade, indicates that the
defendant is capable of writing cursive.
The title of the defendant’s composition is
“If I Could Travel Anywhere.” The copy I
reviewed is barely legible, but appears to
read as follows, “If I could travel
anywhere, I would never stayed (sic) in
one spot. Course, (sic), I’ll always be on
the run visiting many different places
such as New York, Italy, and France and
learn how to speak all sourts (sic) of
languages. But most of all, I learne (sic)
how to be (illegible) in all of those
different places plus ect.” His grades in
1988 at age seventeen while in the 10th
grade, his marks apparently ranged from
10 (in social studies) to 75 (in upholstery).
Most are in the sixties and seventies.
[R. EMC_7219-20.] Dr. Grant also noted:
At the close of the interview Mr. Clemons
asked me for Valium. I told him that it
was not likely that an abusable street
drug like Valium would be prescribed to
inmates in jail. I told him that in some
custodial
facilities
Sinequan
was

124a
available and was popular with inmates
(Sinequan is an antidepressant drug
with a marked sedating effect). As I
recall, the name of the drug was only
mentioned once on the first visit and once
on the second visit. Subsequently, Mr.
Clemons asked jail personnel for
Sinequan, by name, on a number of
occasions. I’m told he was quite
persistent. I mention these events
because they are discordant with the
Defendant’s inability to repeat “The
judge runs everything” and “The
prosecutor is there to burn me.”
[Id.]
Finally, Dr. Rivenbark, the psychologist and
certified forensic examiner who evaluated Clemons in
1992, attempted a court-ordered evaluation of
Clemons on July 26, 1994 at Taylor Hardin. [Id. at
7236-7239.] However, he was unable to communicate
with Clemons because Clemons refused to speak or
make eye contact with him, which Dr. Rivenbark
concluded was a deliberate effort on his part and
not due to any mental disease. [Id. at 7237.] He too
opined that Clemons was “deliberately malingering
concerning his intellectual ability and his mental
state” and that he is competent to stand trial. [Id. at
7238-39.]
The next round of IQ testing did not occur until
2000, in preparation for Clemons’s first Rule 32
evidentiary hearing in 2001 that dealt in part with
his allegations of ineffective assistance of counsel
for
failure to litigate his alleged mental
deficiencies, but before he first raised the claim that
he was mentally retarded and thus ineligible for
the death penalty

125a
pursuant to Atkins. In November 2000, Dr. Kimberly
Ackerson, a psychologist hired by Clemons’s counsel,
administered the WAISR to Clemons. Clemons scored
a full-scale IQ of 73 on that instrument, and there was
no evidence presented that Clemons malingered on that
instrument. [R. EMC_815-17.] In fact, as the state court
specifically noted, Dr. Ackerson found that Clemons
appeared motivated and was deliberate in his
responses. Dr. Ackerson also administered an
additional intelligence test, the Woodcock-Johnson
Revised, on which Clemons tested fairly well regarding
his ability to sound out words and identify words
(nearly a ninth grade level), but worse at reading
comprehension (a sixth grade level). [R. EMC_818-21.]
While Dr. Ackerson was not called to testify at the
Atkins hearing in 2004, Dr. Golden, Clemons’s expert
for that hearing, had consulted with her, reviewed all of
her material, and testified concerning her findings. [R.
EMC_ 814.]
In February 2001, Dr. Glen King, a clinical
psychologist hired by the Attorney General’s Office to
perform a psychological evaluation of Clemons,
administered the WAIS-III to Clemons, and Clemons
scored a full-scale IQ of 77. [R. EMC_850-51, 853-58,
1505, 1896-1906.] It was Dr. King’s opinion that
Clemons’s full scale IQ of 77 means that he is
“borderline intellectual ability,” which he said is not the
same as mentally retarded. [R. EMC_1505.] Dr. King
stated that it was his observation that Clemons “was
not trying hard” on the performance IQ section of the
test where he scored a 74. [R. EMC_1507.] Dr. Golden,
Clemons’s expert at the 2004 Atkins hearing, testified
that because Dr. King made several scoring errors
when scoring Clemons’s test, Clemons’s score should
have been a 75. However, the particular items on the

126a
test that were questioned by Dr. Golden were discussed
at length during the evidentiary hearing in 2004
[R.EMC_ 850-51, 853-58 (Dr. Golden’s testimony
concerning the three questions), 1507-12 (Dr. King’s
testimony concerning the three questions), 1896- 1906],
and the circuit court obviously rejected Dr. Golden’s
opinion that Clemons’s score should have been a 75,
finding as fact that Clemons’s score was a 77. During
the same evaluation, Dr. King also administered the
Minnesota Multiphasic Inventory (“MMPI”), which
tests for the presence of psychopathology. [R.
EMC_1515.] Dr. King’s overall conclusion from
Clemons’s results on the MMPI was that he was
producing false information purposefully and
malingering for the presence of a mental illness. Id.
Finally, during that evaluation Dr. King also
administered the Wide Range Achievement Test
Division
Three,
which
measures
academic
achievement, and Clemons scored a 98 on the reading
part, meaning that he was reading on high school level,
and a 96 on the spelling part, meaning that he was
spelling at a high school level. [R. EMC_1512-14.]
The last two IQ tests were administered in
preparation for Clemons’s Atkins hearing in 2004. In
October 2003, Dr. Golden administered the StanfordBinet Intelligence Scale, Version 4, on which the circuit
court in its order concluded that Clemons scored a 58,
thus rejecting Dr. Golden’s testimony that the score of
58 should be adjusted upward to a 66 to make it more
comparable to Clemons’s scores on the WAIS tests.
Finally, in February 2004, Dr. King, again retained by
the Attorney General’s Office, administered an original
WAIS to Clemons, in which the court found that
Clemons scored a full-scale IQ of 60, and on which Dr.
King opined Clemons was malingering in an effort to

127a
score lower than he had scored three years prior when
he gave him the WAIS-III. [R. EMC_1527.] As
described by the circuit court in its order, Clemons
appeared much more indifferent to Dr. King than he
had appeared three years prior, and he gave incorrect
answers on several of the same questions that he had
given better answers to on the previous test. [Id. at
1527-30.] Dr. King opined that people whose scores
drop so dramatically generally have documented
evidence of a stroke, traumatic brain injury, or a brain
tumor, none of which he found in Clemons. Dr. King
also administered a number of other tests that test for
neuropsychological problems and sensory problems,
such as the Tactual Performance Test, Trail-Making
Part B, the Speech Sounds Perception Test, and the
Seashore Rhythm Test, from which he opined that
Clemons was malingering. [R. EMC_1541-45, 1548-52.]
Finally, he administered a Test of Memory Malingering
(“TOMM”), which is a 50-item recognition test that
assesses malingering in the adult population. Dr. King
testified that Clemons’s score of 44 on the second trial
indicated malingering for memory difficulties. [R.
EMC_1523.] This was the last evaluation in the record.
Based on the foregoing, the Court finds that there
was ample evidence in the record supporting the circuit
court’s decision to discount the results of several IQ
tests due to malingering. Malingering is a common
threat to the validity of a diagnosis of mental
retardation and presents a challenging problem to an
Atkins claim. Clinically, malingering is defined as the
“intentional production of false or grossly exaggerated
physical or psychological symptoms, motivated by
external
incentives.”
DSM-IV-TR,
American
Psychiatric Association, 739-40 (2000). In the Atkins
context malingering has been described as the

128a
“deliberate feigning of mental retardation in order to
avoid the death penalty.” Thomas v. Allen, 614 F. Supp.
2d 1257, 1302 (N.D. Ala. 2009), aff’d, 607 F.3d 749 (11th
Cir. 2010). Generally, evidence of malingering on IQ
tests is sufficient to discredit those tests for
determining a petitioner’s intelligence. See, e.g., Green
v. Johnson, 515 F.3d 290, 300 (4th Cir. 2008) (finding it
not an objectively unreasonable application of Atkins to
discredit a low IQ score after credible evidence has been
presented that the petitioner malingered results); State
v. Hill, 894 N.E.2d 108, 113 (Ohio Ct. App. 2008) (where
defendant’s results on a malingering test indicated
malingering, the associated IQ test was not credible
and was due to be ignored); Ybarra v. State, 247 P.3d
269, 283 (Nev. 2011) (evidence from the TOMM
administered to defendant indicated malingering and
could be used to discredit the defendant’s low IQ score);
compare with Chase v. State, 171 So. 3d 463, 481 (Miss.
2015) (where results on a malingering test did not
indicate malingering, the associated IQ test was found
to be a reliable measure of the defendant’s intellectual
functioning); Thomas, 614 F. Supp. 2d at 1302 (the
results of a malingering test that did not indicate
malingering bolstered the court’s confidence that the
defendant suffered from subaverage intellectual
functioning).
Thus, the circuit court reasonably discredited the
WAIS-R administered in 1992 by Drs. Hazelrigg and
Berger, on which Clemons scored a 51, and the WAIS
administered in 2004 by Dr. King, on which he scored a
60. The professionals who administered those tests
gave firsthand accounts supporting their conclusions
that Clemons was at that time giving false answers
purposefully. Dr. King’s testimony is particularly useful
because he was able to compare Clemons’s demeanor

129a
and effort in 2001, before Atkins made it possible for
him to claim mental retardation to avoid the death
penalty, with his more indifferent attitude and poor
answers in 2004, when he could. Dr. King also
administered the TOMM, which indicated malingering.
Psychologists developed such tests to measure, in
conjunction with IQ tests and other evidence, whether
someone is putting forth a satisfactory effort. See J.
Horn & Robert Denney, Preface: Detection of Response
Bias in Forensic Neuropsychology, Part 1, 2 Journal of
Forensic Neuropsychology xv (2002). The results of
these tests are such useful tools in assessing
malingering that some state courts even require that
such a test be administered before finding a defendant
mentally retarded. See, e.g., Foster v. State, 848 So. 2d
172, 175 (Miss. 2003) (requiring that a test to detect
malingering be administered in Atkins cases before a
court can find a defendant mentally retarded).
Nor does the Court find it objectively unreasonable
that the circuit court also considered the opinions from
the professionals who examined Clemons in the 1990s,
such as Dr. Rivenbark in 1992 and 1994 and Dr. Grant
in 1993, even though they did not conduct IQ tests.
According to Clemons, clinical practice indicates that
malingering and mental retardation are not mutually
exclusive: in other words, a petitioner may be
manipulative and a malingerer but may also be
mentally retarded. This may be true, but the fact
remains that the ability to malinger involves a certain
level of cunning. Regardless, because malingering is at
its heart a question about a person’s internal
motivations, it appears that any diagnosis would
involve considerable clinical judgment by the
evaluating medical professional. Drs. Rivenbark and
Grant’s firsthand accounts are powerful evidence

130a
against a finding that Clemons’s possesses significantly
subaverage intellectual functioning because not only
did they find him to be a malingerer but they also
rejected any notion that Clemons was mentally
retarded.
Finally, the Court finds that it was entirely
reasonable for the circuit court to similarly discount the
results of the Stanford-Binet administered by Dr.
Golden in 2003, on which Clemons scored a 58, even
though Dr. Golden did not testify that Clemons
malingered on that test. The circuit court was entitled
to take into account Clemons’s extensive documented
history of malingering in assessing his intellectual
functioning, including his widely divergent test scores,
and to conclude that because Clemons would have
known that he was being tested in preparation for his
Atkins hearing, he had an incentive to malinger. See
Clemons, 55 So. 3d at 328 (“The testing revealed that
Clemons scored below 70 three times, twice as a part of
the latest round of testing when Clemons was
presumably aware of the Court of Criminal Appeals’
remand on the mental retardation issue.”) (quoting
circuit court’s order). Certainly the legal consequences
of a low IQ score in the Atkins setting—namely, the
potential to reverse a death sentence—serves as a
powerful motivation for a defendant to give less than
their maximum effort. The Court cannot ignore that
Clemons received a 73 and a 77 on tests administered
before Atkins was decided, but scored nearly 20 points
lower just two years later, after he had instituted his
Atkins proceedings. Although Dr. Golden testified that
there was no evidence of malingering on any of the four
tests administered between 2000 and 2004 [R.
EMC_903], the circuit court’s order clearly indicates
that the court did not find Dr. Golden a credible expert.

131a
Indeed, Dr. Golden was the only psychological
professional out of seven who ever opined that Clemons
was mentally retarded. The circuit court noted that Dr.
Golden did not provide clinical support for his
conclusion that the Stanford-Binet he administered in
2003 is a better measure of intelligence for a person who
is mentally retarded, nor did he justify or otherwise
explain why he increased Clemons’s score on that test
from a raw score of 58 to a “scaled” score of 66,
seemingly to place it more in accord with his scores on
the WAIS tests. Additionally, in other parts of the
circuit court’s order not reproduced by the ACCA on
appeal, the court noted that Dr. Golden only testifies on
behalf of criminal defendants and never on behalf of
prosecutors; that he has testified on behalf of capital
petitioners in a post-conviction setting 6-10 times; that
he charged $250 per hour and had already incurred fees
of approximately $25,000 at the time of Clemons’s
Atkins hearing; that he remained at Clemons’s hearing
for three additional days after his testimony was
completed presumably in an effort to charge more, and
that he perhaps revealed some bias as he referred to
Clemons as his “client.” [R. EMC_683.] Clemons now
quarrels with the circuit court’s use of these facts to
discredit Dr. Golden, but any such argument is
irrelevant to this Court’s analysis on federal habeas
review pursuant to § 2254(d)(2). See Chester v. Thaler,
666 F.3d 340, 348 (5th Cir. 2011) (“As factfinder, the
trial court is entitled to deference in credibility
determinations.”) (citing Thompson v. Keohane, 516
U.S. 99, 111, 116 S. Ct. 457, 465 (1995)). The circuit
court was entitled to make credibility determinations in
the first instance, and none of the aforementioned
factual findings could be considered “objectively
unreasonable.” See Miller-El, 537 U.S. at 340,123 S. Ct.
at 1041 (citing the § 2254(d)(2) standard); see also

132a
Wood, 558 U.S. at 301,130 S. Ct. at 849 (a federal
reviewing court may not characterize state-court
factual determinations as unreasonable “merely
because [it] would have reached a different conclusion
in the first instance”); Chester, 666 F.3d at 349 (in
finding that § 2254(d)(2) was not met, noting that
“Proceedings at the state trial court were a battle
between experts with additional testimony and
evidence that was inconclusive and invited credibility
testing. It is not this court’s place to second-guess the
court’s credibility determinations.”).
Malingering aside, when the remaining untainted
IQ test scores are averaged to reach a mean score,
Clemons does not meet the “70 to 75 or below” SEM
range. Specifically, excluding the score of 51 on the
WAIS-R while in federal prison in 1992, the 58 on the
Stanford-Binet that Dr. Golden administered in
February 2003, and the 60 on the WAIS administered
by Dr. King in February 2004, there was no evidence
presented that Clemons malingered when he generated
scores on the Stanford-Binet he took at age six and a
half, on which he scored a 77; on the Beta-II that he
took while in prison in 1991, on which he scored an 84;
on the WAIS-R that Dr. Ackerson administered to
Clemons in November 2000, on which he scored a 73;
and on the WAIS-III that Dr. King administered in
February 2001, on which he scored a 77. The mean of
these untainted scores is 77.75 (77 + 84 + 73 + 77
divided by 4). Not only that, but Clemons scored in the
ninety-eight and ninety-six percentiles on an
achievement test administered in 2001, indicating that
he was reading and spelling at a high school level.
In In re Henry, 757 F.3d 1151,1162 (11th Cir. 2014),
the Eleventh Circuit held that a habeas petitioner’s
score of 78 on the WAIS was insufficient to meet the

133a
first prong of an Atkins claim raised on the eve of his
execution. By the time Henry was decided, the Supreme
Court had recently held unconstitutional a Florida
statute imposing a fixed cutoff score of 70 without
considering the five point SEM required by the clinical
definitions discussed in Atkins. See Hall v. Florida, 134
S. Ct. 1986 (2014). Still, the Eleventh Circuit noted in
Henry:
The rule announced in Hall, however,
affords Henry no relief in this case. In
Hall, as we’ve noted, the Supreme Court
concluded that because of a +/- 5 standard
of error, “an individual with an IQ test
score ‘between 70 and 75 or lower’ ... may
show intellectual disability by presenting
additional evidence regarding difficulties
in adaptive functioning.” Hall, 134 S. Ct.
at 2000 (quoting Atkins, 536 U.S. at 309
n. 5,122 S. Ct. 2242). The dissent elides
around this holding in Hall, and suggests
that no matter the IQ score—be it 75, 78,
or presumably even 88—a defendant
should still be allowed to present
evidence about the deficiencies in his
adaptive functioning in order to make a
claim of intellectual disability. But this is
not what Hall says. Hall squarely holds
that it is “the Court’s independent
assessment that an individual with an IQ
test score ‘between 70 and 75 or lower’
may show intellectual disability by
presenting additional evidence regarding
difficulties in adaptive functioning.” 134
S. Ct. at 2000; see American Psychiatric
Association, Diagnostic and Statistical

134a
Manual of Mental Disorders (DSM-5) 37
(5th ed. 2013) (“Individuals with
intellectual disability have scores of
approximately two standard deviations
or more below the population mean,
including a margin for measurement
error (generally +5 points). . . . [T]his
involves a score of 65-75 (70 ± 5)”). The
Supreme Court never said that a
petitioner who could only establish an IQ
score of, say, 78 would be entitled anyway
to make up the difference with other
evidence of deficiencies. See 134 S. Ct. at
1996 (“Petitioner does not question the
rule in States which use a bright-line
cutoff at 75 or greater . . . and so they are
not included alongside Florida in this
analysis.”). The problem petitioner has
under Hall is he can point to no IQ test
yielding a score of 75 or below. Thus,
building in the standard error approach
explicated by the Supreme Court in Hall
would not entitle Henry to the additional
“opportunity to present evidence of his
intellectual disability, including deficits
in adaptive functioning.” Hall, 134 S. Ct.
at 2001. The Supreme Court in Hall did
not hold that a petitioner like Henry, who
only has IQ test scores above 75 (here an
IQ score of 78), must have an additional
chance to demonstrate intellectual
disability by pointing to deficiencies in
adaptive skills. At the end of the day,
taking into account the standard error of
measurement explicated by Hall does not
entitle Henry to the opportunity to

135a
present additional evidence
intellectual disability.

of

an

757 F.3d at 1162-63. Similar to Henry, even building
in the standard error approach, Clemons’s mean IQ
score is not 75 or below. Granted, Clemons does have
one valid IQ score within the “70 to 75 or below” SEM
range: the 73 on the WAIS-R administered by Dr.
Ackerson in 2000. That score could support a finding
of subaverage intellectual functioning, but it could also
sustain a finding that Clemons is not retarded. One
score that perhaps cuts both ways, however, does not
entitle Clemons to a finding by this Court that the
circuit court’s factual findings were objectively
unreasonable. See Miller-El, 537 U.S. at 340, 123 S.
Ct. at 1041; Wood, 558 U.S. at 301,130 S. Ct. at 849.
In this way, this case is distinguishable from Smith
v. Campbell, 620 F. App’x 734, 750 (11th Cir. 2015)
(unpublished), in which the Eleventh Circuit held that
the state court’s factual determination that the
petitioner there was not mentally retarded was
unreasonable under § 2254(d)(2) and warranted relief.
Petitioner Smith had received an IQ score of 72 as an
adult and did arithmetic at a kindergarten level. Id. at
738. The Eleventh Circuit rejected the state court’s
determination that Smith did not offer adequate proof
of significantly subaverage intellectual functioning,
stating, “[T]he problem for the State here is that the
trial evidence showed that Smith’s IQ score could be as
low as 69 given a standard error of measurement of
plus-or-minus three points.” Id. at 749-50. Not only is
Clemons’s average score higher, but Smith is also
distinguishable because Smith was never afforded an
evidentiary hearing on the Atkins claim that he raised
in his second amended Rule 32 petition, and the
Alabama courts instead relied solely on the trial

136a
evidence and the factual allegations that Smith raised
in his petition in denying relief on his Atkins claim. In
Clemons’s case, he was afforded a four-day evidentiary
hearing on the claim that he was mentally retarded and
thus the circuit court had the benefit of a fully
developed record. Nor does Brumfield v. Cain, 135 S.
Ct. 2269 (2015), control the outcome here. In that case,
the Supreme Court recently found that a petitioner’s IQ
score of 75 “was entirely consistent with intellectual
disability” when “[a]ccounting for th[e] margin of error.”
Id. at 2277- 78. Not only does Clemons have a higher
mean score than Smith or Brumfield, but there was no
evidence of malingering present in either of those cases.
The fact that the record is replete with instances of
Clemons’s malingering on IQ tests and in the context of
other interviews with mental health professionals
makes it virtually impossible to compare this case with
other Atkins cases where malingering was not an issue.
The record supports the circuit court’s factual
finding that since Clemons did not meet Atkins’s first
prong, he is not mentally retarded. However, this Court
will also consider whether the circuit court’s
determination that Clemons did not suffer significant
deficits in adaptive functioning was unreasonable. 9
At this point the Court takes a moment to note that Clemons
makes several other claims in support of his argument that the
state courts made unreasonable factual determinations. For one
thing, he argues that the circuit court’s conclusion that his IQ
scores did not place him in the range of decreased intellectual
functioning was unreasonable because it did not take into account
the “Flynn effect,” which is the name given to the recognition that
IQ scores have been increasing from one generation to the next
because as an intelligence test ages, or moves farther from the
date on which it was standardized, or normed, the mean score of
the population as a whole on that instrument increases.
According to Clemons, when one applies the Flynn effect to his

9

137a
2.

Significant Limitations in
Adaptive Functioning

Per Atkins, the second prong of the mental
retardation test is satisfied when the petitioner
demonstrates “significant limitations in two or more of
the following applicable adaptive skill areas:
communication, self-care, home living, social skills,
community use, self-direction, health and safety,
functional academics, leisure, and work.” Atkins, 536
U.S. at 308 n.3; 122 S. Ct. at 2245 n.3 (referencing the
AAMR and the American Psychiatric Association’s
definitions).
In determining that Clemons does not meet the
adaptive functioning element of mental retardation, the
circuit court, relying on the Alabama cases of Perkins,
851 So. 2d at 456, Smith, 2003 WL 1145475, and
Stallworth, 868 So. 2d at 1182, cited the following
factors as evidence of whether a criminal is mentally
retarded: “employment history, the ability to have
interpersonal relationships, being extensively involved
in criminal activity, post-crime craftiness on the part of
mean score, it is well under 70. However, while Clemons
discusses other opinions, some from the Eleventh Circuit, stating
that the Flynn effect is an empirically proven statistical fact,
there was no evidence presented to the state courts regarding this
phenomenon. It would be improper for this Court to find that the
state courts’ findings were somehow unreasonable by relying on
an issue that was never presented to them. Secondly, Clemons
points, in passing, to evidence before finding that he had any
deficits in adaptive functioning for numerous the state courts that
he argues shows he suffers from frontal lobe dysfunction and
impaired brain function. While he apparently offers this evidence
in support of his claim that he is mentally retarded, the circuit
court rejected such evidence as inadmissible at his Atkins
hearing, and the ACCA affirmed that ruling. Perhaps for that
reason Clemons devotes little to no discussion to why such
evidence supports his claim. Any such claim is rejected.

138a
the criminal, and being able to use community
resources.” Clemons, 55 So. 3d at 329. The circuit court
found that the application of these factors to Clemons
counseled against a reasons. Clemons was employed in
several low skill jobs, each lasting a few months,
including a job as a delivery driver for Dominos pizza.
He had a drivers license, and his employer at Dominos
testified that if he was familiar with the neighborhood
he had no trouble delivering pizzas. He had
relationships with women and fathered at least two
children. The court rejected any notion that Clemons’s
lack of employment history was due to inferior adaptive
functioning, relying instead on Drs. Berger and
Hazelrigg’s report that he was not motivated but spent
his time engaging in illegal behavior, substance abuse,
and promiscuous sexual activity rather than seeking
work. He acted with premeditation by obtaining a gun
the week before he carried out the carjacking. Further,
a codefendant testified that he told him which gas
station to drive into to commit the carjacking, and that
after the murder Clemons instructed him not to talk
because he had “just killed a DEA man.” Clemons
exhibited post-crime craftiness by telling police after
the murder that he was pressured into committing the
carjacking by his friends and that he acted in selfdefense. He was extensively involved in criminal
activity because he had single-handedly carjacked cars
on three separate occasions at gunpoint prior to the
murder of DEA Agent Althouse. The fact that he
travelled on a Greyhound Bus to Cleveland after the
murder showed that he could use the community
resources of transportation. The circuit court also relied
on Dr. King’s testimony regarding Clemons’s adaptive
functioning:

139a
In addition, by history, Mr. Clemons
had a driver’s license, he worked some
places for a year at a time. He was able to
matriculate through school to the tenth
grade, even if he stopped at that point. He
has literacy levels that seem to vary by
whoever is giving him the test and under
what circumstances, but clearly with me
he was able to recognize words and spell
words, rather sophisticated words, at
about a high school level with ninetyeight, ninety-six scores.
So those adaptive functions along
with assessed IQ scores indicate to me he
is certainly not mentally retarded and
probably functions in the high borderline
to low average range of ability.
[R. PDF Vol. 8 at 836.] Finally, the court relied on Dr.
Grant’s testimony that Clemons was a hardened
criminal, whose ability to survive among violent
inmates at the Jefferson County Jail may attest to his
true ability to function.
Clemons argues that the circuit court unreasonably
determined that he was not mentally retarded because
it improperly assessed his adaptive functioning based
on his strengths rather than his weaknesses. Clemons
contends that it was unreasonable for the circuit court
to do so because the DSM-IV-TR manual in effect at the
time of his Atkins hearing cautions that “[t]he
diagnostic criteria for Mental Retardation do not
include an exclusion criterion;” DSM-IV-TR at 47
(emphasis added), which Clemons argues means that
the presence of one or more strengths does not exclude
a subject from a mental retardation diagnosis.

140a
Clemons’s argument fails for two reasons. First,
nothing in Atkins or the Alabama Supreme Court cases
developing the standard for assessing mental
retardation at the time of his hearing instructed that
courts could not consider a petitioner’s abilities in
assessing their adaptive functioning. Thus, the Court
rejects the notion that the aforementioned instruction
in the DSM-IV-TR was enough to have put the circuit
court on notice that it could only assess Clemons’s
weaknesses to the exclusion of any strengths. Although
it was undisputed that Clemons needed to have
established deficits in only two areas of adaptive
functioning, certainly neither expert at the hearing
testified that the court was prohibited from considering
Clemons’s abilities in making the determination.
Second, the circuit court’s order implies that it
rejected the testimony of Dr. Golden, who was the only
expert in the record who testified that Clemons suffered
any deficits in adaptive functioning, and the court’s
credibility determination will not be overturned on
federal habeas review. See Chester, 666 F.3d at 348. As
Clemons points out, Dr. Golden testified at his hearing
that Clemons had deficits in six out of ten areas of
adaptive functioning. In support of his testimony, he
cited to the results of a test that he administered to
Clemons in 2003, the Adaptive Behavior Assessment
System test (“ABAS-II”). The ABAS-II assesses
functioning in ten areas—Communication, Community
Use, Functional Academics, Health and Safety, Home
or School Living, Leisure, Self-Care, Self-Direction,
Social, and Work—from which four domain composite
scores (Conceptual, Social, Practical, and General
Adaptive Composite) are calculated. Dr. Golden
described the test at Clemons’s Atkins hearing as “the
best normed and current available test for looking at

141a
adaptive system[s]. One that was derived specifically
from the criteria from DSM-IV and the AAMR.” [R.
EMC_917.] The ABAS-II is designed so that a score of
ten in each adaptive area is considered average, and
any score of four or below is considered impaired.
According to Dr. Golden, Clemons’s scores were average
in communication and use of community resources. He
scored a five in functional academics, indicating that he
was impaired but not impaired enough to show a
significant deficit. Dr. Golden found that Clemons
scored a one in self-direction skills, a one in social skills,
a one in work skills, a two in home living skills, a three
in health and safety skills, and a four in leisure
activities. [R. EMC_918-19.] The only individuals Dr.
Golden spoke to in order to allow him to score the test
were Clemons’s grandmother, with whom he had lived
off and on up until the age of eighteen, as well as
Clemons’s former employer at Dominos pizza, Mr.
Pritchard. [R. EMC_919.] The ABAS-II test that Dr.
Golden administered is a nine-page questionnaire that
asks the parent of a child aged 5 to 21 to fill out various
questions regarding the child’s abilities. [R. PDF Vol.
11 at 317-328.] For each question asked, the parent
may circle a zero indicating that the child “is not able,”
a one indicating that the child does a particular action
“never when needed,” a two indicating that the child
does a particular action “sometimes when needed,” a
three indicating that the child does a particular action
“always when needed,” or a box indicating that the
parent guessed on the answer. For example, under the
heading “Home Living,” there were twelve questions for
the parent to rank the child’s ability on, such as
whether the child “wipes up spills at home,” “clears the
table completely after a meal,” or “uses a clothes dryer.”
[R. PDF Vol. 11 at 321-22.] Someone, presumably Dr.
Golden after speaking with Clemons’s grandmother,

142a
gave Clemons a “2” for wiping up spills at home, a “2”
for clearing the table completely after a meal, and a “2”
for uses the clothes dryer, all indicating that Clemons
does those things “sometimes when needed.” [Id.] At
Clemons’s hearing, Dr. Golden did not provide
examples or offer anecdotes as to why certain scores
were calculated in any of these fields, or otherwise
explain in any further detail the test or the test results.
On cross examination, Dr. Golden admitted that
Clemons exhibited goal-directed behavior when he
obtained a gun and held up a man to get a car that he
wanted. [R. PDF Vol. 5 at 268.]
Although the circuit court’s order did not mention
the results of the ABAS- II administered by Dr. Golden,
its silence as to that test, taken along with its choice to
credit Dr. King’s, Dr. Berger’s, Dr. Hazelrigg’s, and Dr.
Grant’s opinions instead and the other enumerated
ways in which it discredited Dr. Golden as an expert,
discussed supra, indicate that the circuit court did not
find Dr. Golden’s conclusions on the ABAS-II as
evidence that was pertinent to Clemons’s capabilities
with regard to the adaptive functioning prong, and
instead found that Clemons had not demonstrated
deficits in any areas. Indeed, the aforementioned facts
cited by the circuit court highlight the deficiency of
Clemons’s claim that the state court’s factual findings
were unreasonable. In short, Clemons’s actions before
and after the murder were not the work of a person with
diminished intellectual capacity. Indeed, Atkins
explains:
[C]linical
definitions
of
mental
retardation require not only subaverage
intellectual
functioning,
but
also
significant limitations in adaptive skills
such as communication, self-care, and

143a
self-direction that became manifest
before age 18. Mentally retarded persons
frequently know the difference between
right and wrong and are competent to
stand
trial.
Because
of
their
impairments, however, by definition they
have
diminished
capacities
to
understand and process information, to
communicate, to abstract from mistakes
and learn from experience, to engage in
logical reasoning, to control impulses,
and to understand the reactions of
others. There is no evidence that they are
more likely to engage in criminal conduct
than others, but there is abundant
evidence that they often act on impulse
rather than pursuant to a premeditated
plan, and that in group settings they are
followers rather than leaders.
536 U.S. at 318,122 S. Ct. at 2250 (emphasis added).
The record before the circuit court is clear that
Clemons did not act on an impulse, but rather
“pursu[ed] a premeditated plan,” acting of his own
volition rather than as a “follower[ ].” Id. Nothing
about this crime suggests Clemons had difficulties
“processing] information” or “engag[ing] in logical
reasoning.” Id.
This Court will not second-guess the circuit court’s
credibility determination with regard to Dr. Golden’s
testimony that Clemons suffered deficits. Even if one
could say that the evidence as to this prong of the Atkins
analysis cuts both ways, given the conflicted nature of
the evidence, Clemons cannot overcome the state
court’s findings on a review pursuant to §2254(d)(2).
The Court concludes that the circuit court’s factual

144a
determination that Clemons did not demonstrate
significant limitations in adaptive functioning was not
unreasonable.
3.

Originating Before the Age of
18

The third criterion for establishing mental
retardation under accepted clinical definitions is that
the functional limitations develop before the subject is
18 years of age. The circuit court found that Clemons
also failed to meet this prong because he scored a fullscale IQ of 77 on the Stanford-Binet administered when
he was six-and-a-half-years-old and did not
demonstrate significant deficits in adaptive functioning
before age 18. Clemons contends this finding was
unreasonable because Dr. Golden testified that a score
of 77 obtained when the subject was six years old is not
reliable for diagnostic purposes because IQ does not
stabilize until a child reaches the age of ten to twelve.
[R. EMC_923.] However, Dr. King disagreed, opining
that scores stabilize at “six to eight” years of age. [R.
EMC_1618-19.] As noted previously, the circuit court’s
order indicates that it found Dr. King to be a more
credible expert than Dr. Golden, which was entirely
within its purview.
Clemons presents the following evidence in support
of his claim that the court’s factual determination was
unreasonable: a physician and school psychologist
diagnosed him as “educable mentally retarded” when
he was six years old [R. EMC_1698-1722]; he was held
back in school twice, starting third grade when he
should have been in fifth [R. EMC_791]; he earned
many Ds and Fs [R. EMC_791-800, 1723-38]; and he
eventually dropped out of school at age 18 [R.
EMC_1752-56]. In contrast to this evidence of poor

145a
school performance, however, his IQ score of 77 at age
six and a half during the developmental period, when
there was no incentive for Clemons to malinger, is
powerful objective evidence of his true intellectual
ability. Additionally, this score is consistent with his
scores later in life that were untainted by malingering
allegations, such as the 77 he received in 2001 on the
WAIS administered by Dr. King before he was aware
that he could bring a claim for mental retardation in
light of Atkins. In Hines v. Thaler; 456 F. App’x 357 (5th
Cir. 2011) (unpublished) (denying application for a
certificate of appealability), the court was presented
with the petitioner’s full-scale IQ score of 96 on a test
administered when he was thirteen and a score of 69 on
the WAIS-III when he was 31 years old and
incarcerated. Id. at 368. The Fifth Circuit affirmed the
district court’s ruling that it was entirely reasonable for
the state court to give more weight to the IQ test taken
during the petitioner’s childhood over “those conducted
in the shadow of habeas litigation.” Id. at 369. Thus, the
court found that it was not an unreasonable
determination of Atkins for the state court to sustain a
finding that the petitioner had not proved he had
subaverage intellectual functioning. Id. at 369-70. Nor
can Clemons overcome the circuit court’s finding that
deficits in adaptive functioning before the age of 18 had
not been proven. Dr. Golden was the only psychological
professional who said that he suffered deficits before
the age of 18, and he based this conclusion on the
results of the ABAS-II, which is not without problems.
[R. EMC_921.]
In sum, Clemons presented a thin case of mental
retardation. His penchant for malingering impeded the
court’s ability to determine whether he suffers from
significantly subaverage intellectual functioning, and

146a
the average of the untainted IQ scores was above the
“70 to 75 or below” cutoff, even considering the SEM. As
to the second and third prongs of his Atkins claim, the
evidence relied upon by the circuit court strongly
suggested that Clemons did not fit that criteria, and
any evidence that cut the other way was appropriately
discredited by the finder of fact in the first instance. Of
course, Clemons’s burden here is higher than simply
convincing this Court that he is mentally retarded
under Atkins. He must show that the state court’s
determination was unreasonable; he falls short of this
burden.
C.

Whether Clemons has Established
that § 2254(d)(1) Applies

Clemons also contends that the state courts violated
clearly established Federal law when they 1) relied on
Perkins to apply a fixed IQ cutoff score of 70 or below as
a prerequisite to a finding that a petitioner has
established subaverage intellectual functioning, and 2)
relied on evidence of Clemons’s strengths to the
exclusion of any weaknesses in finding that he did not
suffer deficits in adaptive functioning because Atkins
required courts to “generally conform” to the accepted
clinical definitions of mental retardation. 536 U.S. at
317 n.22, 122 S. Ct. at 2250 n.22.
This argument deserves little analysis. The
Supreme Court unequivocally left to the States the task
of developing their own standards for determining
mental retardation. Atkins, 536 U.S. at 317, 122 S. Ct.
at 2250. Alabama’s standard, as announced in Perkins,
thus governed Clemons’s Atkins claim in 2004. See, e.g.}
Burgess v. Comm’r Ala. Dept, of Corrs., 723 F.3d
1308,1321 (11th Cir. 2013) (“it is Alabama’s standard,
announced in Ex parte Perkins, which governs

147a
Burgess’s Atkins claim . . .); Smith, 620 Fed.Appx at
747-48. Thus, it was not error for the circuit court to
apply Perkins. In any event, as already discussed, in
reaching its factual determination that Clemons is not
mentally retarded, the circuit court applied not only the
Alabama standard announced in Perkins but also the
AAMR and American Psychiatric Association’s clinical
definitions espoused in Atkins, including their
recognition of the SEM. Nor was it a violation of Atkins
for the circuit court to have discussed the overwhelming
evidence of Clemons’s strengths in various areas of
adaptive functioning, merely because the DSM-IV-TR
may have indicated that “exclusion criteria” should not
be applied. But see Atkins, 536 U.S. at 318, 122 S. Ct. at
2250 (discussing that mentally retarded individuals are
often followers rather than leaders and act on impulse
rather than pursue a premeditated plan, attributes at
odds with Clemons’s behavior).
Clemons relies heavily on Hall to make the point
that in the years since Atkins, the Supreme Court
reaffirmed that Atkins requires state definitions of
mental retardation to “generally conform to the clinical
definitions.” See Hall, 134 S. Ct. at 1999. In Hall, the
Court explained that while Atkins left states free to
“develop[] ways to enforce” the constitutional
protection, that is, to create procedures for determining
mental retardation, “Atkins did not give the States
unfettered discretion to define the full scope of the
constitutional protection.’ Id. at 1998. However, even if
this Court were writing on a clean slate, it is not
immediately obvious that Hall, even with its explicit
recognition of the five point SEM, would direct a finding
of mental retardation under these facts. In any event,
this Court must consider Clemons’s claim through the
AEDPA’s discriminating lens, and of course, the

148a
Alabama courts could not have violated clearly
established Federal law that was not in existence in
2004. See Lockyer, 538 U.S. at 71,123 S. Ct. at 1172.
VI.

EVIDENTIARY HEARING

Clemons moved for an evidentiary hearing in the
event the Court denied his petition for habeas relief
based on the state court record alone. (Doc. 54.) That
motion is hereby DENIED. Rule 8(a) of the Habeas
Rules states that “[i]f the petition is not dismissed, the
judge must review the answer, any transcripts and
records of state-court proceedings, and any material
submitted under Rule 7 to determine whether an
evidentiary hearing is warranted.” Rules Governing §
2254 Cases, Rule 8(a), 28 U.S.C. § 2254. Because the
Court finds Clemons’s habeas petition is due to be
dismissed, the court also finds Clemons’s request for an
evidentiary hearing is due to be denied.
VII.

CONCLUSION

For all of the reasons set forth herein, Clemons’s
petition for writ of habeas corpus is due to be dismissed,
or in the alternative denied.
Rule 11(a) of the Rules Governing Section 2254
Cases requires the district court to issue or deny a
certificate of appealability when it enters a final order
adverse to the applicant. This Court may issue a
certificate of appealability “only if the applicant has a
made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). To make
such a showing, a “petitioner must demonstrate that
reasonable jurist would find the district court’s
assessment of the constitutional claims debatable and
wrong,” Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct.
1595, 1604 (2000), or that “the issues presented were
adequate to deserve encouragement to proceed

149a
further.” Miller-El537 U.S. at 336,123 S. Ct. at 1039
(internal quotations omitted). This Court finds
Clemons’s claim does not satisfy either standard.
Accordingly, a motion for a certificate of appealability
is due to be denied.
A separate order in accordance with this opinion will
be issued.
DONE AND ORDERED ON MARCH 28, 2016.
s/ L. Scott Coogler
L. SCOTT COOGLER
UNITED STATES DISTRICT JUDGE

150a
APPENDIX G
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
EUGENE MILTON CLEMONS, II,
Petitioner,
v.
KIM T. THOMAS, Commissioner, et al.,
Respondents.
______________
No. 2:10-cv-02218-LSC
MARCH 28, 2016
______________
Before L. Scott Coogler, United States District Judge
DISMISSAL ORDER
In accordance with the Memorandum of Opinion
entered contemporaneously herewith, it is hereby
ORDERED, ADJDUGED, and DECREED:
1. The petition for writ of habeas corpus is
DENIED;
2. The petitioner’s request for an evidentiary
hearing (doc. 54) is DENIED;
3. A certificate of appealability under 28 U.S.C. §
2253(c) is DENIED; and
4. Costs of this action are TAXED as paid.
DONE and ORDERED on March 28, 2016
s/ L. Scott Coogler
L. SCOTT COOGLER
UNITED STATES DISTRICT JUDGE

151a
______________
APPENDIX H
______________
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
EUGENE MILTON CLEMONS, II,
Petitioner,
v.
KIM T. THOMAS, Commissioner, et al.,
Respondents.
______________
No. 2:10-cv-02218-LSC
MARCH 28, 2016
______________
Before L. Scott Coogler, United States District Judge
ORDER
Before the Court is a Motion to Alter or Amend the
Judgment Pursuant to Rule 59(e) of the Federal Rules
of Civil Procedure, filed by Petitioner, Eugene Milton
Clemons, II, on April 25, 2016. (Doc. 64.) For the
following reasons, the motion is due to be granted in
part and denied in part to the extent described herein.
Petitioner contends that the Court’s March 28, 2016
memorandum of opinion and dismissal order should be
altered or amended in order to correct a manifest error
of law or fact. See Arthur v. King, 500 F.3d 1335, 1343
(11th Cir. 2007) (“The only grounds for granting a Rule

152a
59 motion are newly-discovered evidence or manifest
errors of law or fact.”) (quotation marks and internal
brackets omitted). The manifest error of law or fact
contained in the opinion and order, as alleged by the
Petitioner, is the Court’s failure to address the issue of,
and ultimately grant, a certificate of appealability on
the question of whether this Federal habeas petition
was properly filed within the applicable statute of
limitations or otherwise subject to statutory or
equitable tolling.
By an opinion and order dated March 17, 2015, this
Court dismissed all of Petitioner’s non-Atkins claims
contained in his Federal habeas petition as timebarred. (Doc. 33 and 34.) At the time, the Court did not
consider the appropriateness of granting, or denying,
Petitioner a certificate of appealability, presumably
because the Atkins claim remained pending—and Rule
11 of the Rules Governing Section 2254 and 2255 cases
mandates that the district court should consider the
appropriateness of a certificate of appealability only
upon issuance of a final judgment. However, on March
28, 2016, this Court dismissed Petitioner’s remaining
habeas claim but only considered the appropriateness
of granting a certificate of appealability with respect to
the single Atkins claim at issue in that decision, not the
other claims that had been previously dismissed as
time-barred in March 2015. (See Doc. 62 at 82.)
Accordingly, this Court will now consider the
appropriateness of a certificate of appealability for
Petitioner’s non-Atkins habeas claims dismissed in
March 2015 as time-barred.
This Court may issue a certificate of appealability
“only if the applicant has a made a substantial showing
of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). To make such a showing, a “petitioner must

153a
demonstrate that reasonable jurist would find the
district court’s assessment of the constitutional claims
debatable and wrong,” Slack v. McDaniel, 529 U.S. 473,
484, 120 S. Ct. 1595, 1604 (2000), or that “the issues
presented were adequate to deserve encouragement to
proceed further.” Miller-El, 537 U.S. at 336,123 S. Ct.
at 1039 (internal quotations omitted). This Court finds
that all of Petitioner’s non-Atkins claims dismissed in
March 2015 do not satisfy either standard. In other
words, Petitioner has not proven the debatability of the
Court’s dismissal of those claims as time-barred.
Accordingly, a certificate of appealability as to those
claims is not warranted.
In sum, the motion to alter or amend the judgment
(doc. 64) is hereby GRANTED IN PART to add the
analysis contained in this opinion. However, the motion
is DENIED IN PART to the extent Petitioner requests
a certificate of appealability.
DONE and ORDERED on April 27, 2016.
s/ L. Scott Coogler
L. SCOTT COOGLER
UNITED STATES DISTRICT JUDGE

154a
______________
APPENDIX I
______________
IN THE CIRCUIT COURT OF SHELBY COUNTY,
ALABAMA
EUGENE MILTON CLEMONS,
Petitioner,
v.
STATE OF ALABAMA
Respondent.
______________
No. CC-1993-313.60
______________
Order Pursuant to Remand
______________
THIS CAUSE came on before the court for hearing
for June 16, 17 and 18, 2004 pursuant to remand by
the court of Criminal Appeals dated August 29, 2003
on the following issues: whether Petitioner Clemons is
mentally retarded; whether his trial counsel was
ineffective by not developing and presenting
mitigating evidence concerning his alleged limited
mental capacity; and also Petitioner’s claim that his
death sentence is unauthorized as a matter of law.
Further, the Court of Criminal Appeals directed this
court’s attention to the United States Supreme Court
decisions in Wiggins v. Smith, 123 S.Ct. 2527 (2003)
and Williams v. Taylor, 529 U.S. 362 (2000) to use in
its analysis.

155a
I.

WHETHER CLEMONS
RETARDED

IS

MENTALLY

This Court had previously conducted a hearing on
Petitioner’s initial Rule 32 Petition which was
appealed to the Court of Criminal Appeals. While on
appeal, Atkins v. Virginia, 536 U.S. 304 (2002) was
decided precipitating this remand. Atkins held that
executing a mentally retarded criminal was cruel and
unusual punishment violating the Eighth Amendment
of the U.S. Constitution. 536 U.S. 304. The Court of
Criminal Appeals further concluded that Atkins
applied retroactively to cases that are: on collateral
review. Clemons, at *3. The Court of Criminal Appeals
also indicated that it could not decide whether
Petitioner was mentally retarded because there was
conflicting evidence concerning his intelligence and
therefore remanded back to this Court for a
determination whether Clemons was mentally
retarded. Id. at *4. The Court of Criminal Appeals
stated: “On remand, the circuit court shall address this
question only after allowing both parties to submit
evidence in support of their respective positions and in
compliance with this opinion.” Id. Finally, the Court
ordered this Court to analyze this issue pursuant to Ex
parte Perkins, 851 So. 2d 453 (Ala. 2002); Ex parte
Smith, 2003 WL 1145475 (Ala. Mar. 14, 2003); and,
Stallworth v. State, 868 So. 2d 1128, 1177-83 (Ala.
Crim. Apr. 7. 2001).
The Atkins Court stated that a punishment is
prohibited by the Eighth Amendment if it is
“excessive,” as indicated by a punishment that is
disproportionate to the offense. Atkins, 536 U.S. at
311. An excessiveness claim is judged by “evolving
standards of decency that mark the progress of a
maturing society.” Id. at 312, quoting Trop v. Dulles,

156a
356. U.S. 86, 100-01 (1958). To determine the “evolving
standards of decency, “the Atkins Court looked to
legislation enacted by state legislatures which it
stated was the “clearest contemporary values.” Id. The
Atkins Court noted that, since its decision in Penry v.
Texas, 492 U.S. 302 (1989), that rejected a challenge
to the constitutionality of a death sentence imposed
upon a mentally retarded criminal, 15 states had
passed statutes prohibiting the execution of mentally
retarded capital murderers. Id. at 314-15. The Court
then noted, however, that it was not the number of
states enacting such legislation, “but the consistency
of the direction of change” that was “powerful
evidence.” Id. at 315-16. The Atkins Court refused to
set a national standard for determining mental
retardation, but left to the states “the task of
developing appropriate ways to enforce the
constitutional restriction upon their execution of
sentences.” Id. at 317 (punctuation and citation
omitted).
The Atkins Court’s independent evaluation of the
issue revealed no reason for the Court to disagree with
the legislative “consensus.” Id. at 317. The Court noted
that mentally retarded defendants have “disabilities
in areas of reasoning, judgment, and control of their
impulses,” that have the effect of lowering their “level
of moral culpability that characterizes the most
serious adult criminal conduct.” Id. at 306. A mentally
retarded capital defendant has a lower level of moral
culpability because they tend to act on “impulse rather
than pursuant to a premeditated plan, and in group
settings they are followers rather than leaders.” Id. at
318. Finally, the Atkins Court concluded that
executing mentally retarded capital murderers would
not “measurably advance the deterrent or the

157a
retributive purpose of the death penalty.” Id. at 321.
Even though the Atkins court did not create a
national standard to determine mental retardation, it
did list the definitions of mental retardation as
promulgated by the American Association on Mental
Retardation (AAMR) and the American Psychiatric
Association. Id. at 308 n. 3. The most recent definition
of mental retardation disseminated by the AAMR
states that “[m]ental retardation is a disability
characterized by significant limitations both in
intellectual functioning and in adaptive behavior as
expressed in conceptual, social, and practical adaptive
skills.” 1 The AAMR further states that this disability
must originate before the age of 18. See
www.aamr.org/Policies. “In regard to the intellectual
criterion for the diagnosis of mental retardation,
mental retardation is generally thought to be present
if an individual has an IQ test score of approximately
70 or below.” Id. Any IQ test score should be considered
in light of the standard error of measurement which is
generally +/- 5. Id. “Adaptive behavior is the collection
of conceptual, social, and practical skills that people
have learned so they can function in their everyday
lives.” Id. The American Psychiatric Association
defines mental retardation as “significantly
subaverage general intellectual functioning (Criterion
A) that is accompanied by significant limitations in
adaptive functioning in at least two of the following
skill areas: communication, self-care, home living,
social/interpersonal skills, use of community
1 The Atkins Court cited the Ninth Edition definition of mental
retardation as promulgated by the AAMR in 1992. Atkins, 536
U.S. at 308 n. 3. The AAMR’s most recent definition of mental
retardation
can
be
found
on
its
website.
See
www.aamr.org/Policies.

158a
resources, self-direction, functional academic skills,
work, leisure, health, and safety (Criterion B). The
onset must occur before age 18 years (Criterion C.)”
Diagnostic and Statistical Manual of Mental
Disorders, Fourth Edition, at p. 41. “Significantly
subaverage intellectual functioning is defined as an IQ
of about 70 or below (approximately 2 standard
deviations below the mean).” Id. The general standard
of measurement is +/- 5 points even though “this may
vary from instrument to instrument (e.g., a Wechsler
IQ of 70 is considered to represent a range of 65-75).”
Id. “Adaptive functioning refers to how effectively
individuals cope with common life demands and how
well they meet the standards of personal independence
expected of someone in their particular age group,
sociocultural background, and community setting.” Id.
at 42.
Accordingly, the Alabama Supreme Court on
several occasions has applied the following standard to
determine whether a capital defendant is mentally
retarded: “Those states that have statutes prohibiting
the execution of a mentally retarded defendant require
that a defendant, to be considered mentally retarded,
must have significantly subaverage intellectual
functioning (an IQ of 70 or below), and significant or
substantial deficits in adaptive behavior[,]” the onset
of which must occur before age 18. Ex parte Perkins,
851 So. 2d 453, 456 (Ala. 2002); Ex parte Smith, 2003
WL 1145475, *9 (Ala. 2003). The court of Criminal
Appeals has likewise applied the above-stated
definition and also noted that in a different context
Alabama has a definition of mental retardation that
states: “[al person with significant subaverage general
intellectual functioning resulting in or associated with
concurrent impairments in adaptive behavior and

159a
manifested doing the developmental period, as
measured by appropriate standardized testing
instruments.” Stallworth, 868 So. 2d at 1182, quoting
Ala. Code§ 15-24-2(3).
In applying the above-stated definitions to
determine the intelligence element of mental
retardation, the Alabama Supreme Court stated that
a full-scale IQ of 72 “seriously undermines any
conclusion that Smith suffers from significantly
subaverage intellectual functioning as contemplated
under even the broadest definitions.” Smith, at *9. In
Perkins at page 456, the Alabama Supreme Court
applied a cutoff of 70 or below in determining that an
individual with a full-scale IQ of 76 is not mentally
retarded. Under Perkins, the Court of Criminal
Appeals found that two full-scale IQ scores of 77 and
78 “revealed an IQ well above 70 - an IQ that is above
the “significant subaverage” range. Stallworth, 868 So.
2d at 1182. (citation omitted).
To determine the adaptive functioning element, the
state courts have looked to various factors. In holding
that a defendant possessed sufficient adaptive
behavior skills, the Alabama Supreme Court noted
that Perkins “was able to have interpersonal
relationships” as indicated by his ten-year marriage
and that he was employed as an electrician “for a short
period.” Perkins, 851 so. 2d at 456. In another case, the
Alabama Supreme Court ruled that a defendant had
sufficient adaptive functioning skills where he was
able “to hold various jobs” and to maintain “an ongoing
year-long relationship with his girlfriend.” Smith,
2003 WL 1145475, *9. The Alabama Supreme Court
also noted that being involved in criminal activity such
as “an interstate illegal-drug enterprise “indicates
adaptive behavior above the level of mental

160a
retardation. Id. Furthermore, post-crime craftiness on
the part of a criminal indicates the defendant is not
mentally retarded. Id. at *10. The Court of Criminal
Appeals has likewise applied evidence of employment
and social relationships to reject a contention that a
defendant is mentally retarded and also ruled that the
use of community resources such as qualification for
food stamps as being evidence of adequate adaptive
skills. Stallworth, 868 So. 2d at 1182.
Applying these precedents, it is clear that Clemons
does not meet either the intelligence or adaptive
functioning elements to establish mental retardation.
The Court first addresses the intelligence
component in determining whether Clemons is
mentally retarded.
Clemons has been administered intelligence
testing on numerous occasions, and his scores are
remarkable in their divergence, ranging from a low of
51 to a high of 84. The scores are most likely divergent
because Clemons frequently malingers when he is
tested, a conclusion that was drawn by many of the
mental health professionals who have examined
Clemons. Because Clemons has taken so many
intelligence tests, the Court will list them in
chronological fashion.
Clemons was first administered an intelligence
test, the Stanford-Binet Intelligence Test, when he
was six and a half years old. EH at 53. 2 Clemons scored
a 77 on the test which placed him in the borderline
range of intelligence. Despite this fact, his school
records indicate that he was labeled “educable
mentally retarded” soon after taking this test.
2

“EH” is a reference to the transcript of the remand hearing.

161a
Clemons’s school records which tend to indicate
minimal academic achievement were consistent with
his relatively low score on the Stanford-Binet
Intelligence Test. They show that by the end of
elementary school, Clemons was two years behind and
that he completed the tenth grade and did not receive
a high school diploma. Petitioner’s Exhibits 2-5. The
records do not show that Clemons was administered
any additional intelligence tests throughout his school
career.
Clemons, while in prison at age 19, was administered
a BETA-II intelligence test on which he scored a fullscale IQ of 84. R32 Vol. 7 at 1317, 1326. 3 This test
result was the highest score that Clemons ever
achieved. In the fall of 1992, after being charged in
both state and federal court with murdering a federal
law enforcement official, Clemons began the first of
three rounds of testing by various mental health
professionals.
During a court-ordered forensic evaluation at a federal
pr son in Butner, North Carolina, Clemons was
administered various psychological tests including an
intelligence test. Clemons was administered the
Wechsler Adult Intelligence Scale-Revised (WAIS-R)
and scored a full-scale IQ of 51. R32 Vol. 7 at 1323. The
psychologist who administered this test was dubious
that he had obtained a valid result. He stated that
people in the low-50’s IQ range are “often in need of
structured living and may be institutionalized” and
are typically unable to care for their basic needs. Id.
The Butner report further states that “[i]t would be
3 “R32” is a reference to the 38-volume Rule 32 evidentiary
hearing transcript. “R32Supp” is a reference to the 5-volume Rule
32 supplemental record.

162a
virtually impossible for a person with an IQ of 51 (from
the present testing) to earn a score of 84 on the BETA
II only one year previous.” Id. The psychologist who
conducted the testing noted that when he tried to
obtain a writing sample Clemons wrote with his left
hand even though he is right handed, another
indicator that Clemons was not giving his best effort.
R32 Vol. 7 at 1324. The psychologist ultimately
concluded that Clemons was in the borderline range of
intellectual functioning and that the results of the
testing were invalid because Clemons was
malingering. R32 Vol. 7 at 1325.
Before his trial in federal court, Clemons’s attorneys
had Clemons evaluated by Dr. William Grant, a
psychiatrist. R32 Vol. 7 at 1289-1301. Although Dr.
Grant did not conduct any intelligence tests or
psychological tests, he agreed with the psychologist at
Butner Correctional Facility that Clemons was
malingering. Dr. Grant’s report indicated that
Clemons entered the interview room “laughing
hysterically and incessantly.” R32 Vol. 7 at 1290. His
report indicated that Clemons stopped laughing when
he was informed that “faking” would not be in his best
interest. Id. Dr. Grant’s overall conclusions were that
Clemons was malingering and that he was antisocial.
R32 Vol. 7 at 1299. Dr. Rivenbark, at Taylor Hardin
Secure Medical Facility, evaluated Clemons in 1992
and 1994 and also concluded that Clemons was
malingering. R32 Vol. 7 at 1281, R32 Vol. 29 at 5646.
Dr. Rivenbark apparently did not perform any testing
on Clemons. The second round of testing occurred
before Clemons’s first Rule 32 evidentiary hearing
held in 2001. Dr. Kimberly Ackerson, a psychologist
practicing in Birmingham, was hired by Clemons’s
present counsel to perform a psychological evaluation

163a
of Clemons. As a part of this evaluation, she
administered various tests including the Wechsler
Adult Intelligence Scale Revised (WAIS-R). Clemons
obtained a full-scale IQ of 73 on this intelligence test.
On the score sheet, Dr. Ackerson noted that Clemons
appeared motivated and that he was deliberate in
making his responses. Dr. Ackerson stated that
Clemons’s score placed him in the “borderline”
classification. Dr. Ackerson testified at the Rule 32
evidentiary hearing conducted in 2001 but was not
called as a witness at the most recent Rule 32
evidentiary hearing conducted in June 2004.
Dr. Glen King, a board-certified clinical
psychologist, was hired by the Attorney General’s
Office to perform a psychological evaluation of
Clemons before the first Rule 32 evidentiary hearing.
Dr. King was not called as a witness at the first Rule
32 evidentiary hearing but was called at the recent
Rule 32 evidentiary hearing and testified, among other
things, about the testing he pe formed in 2001. In
February 2001, Dr. King administered the Wechsler
Adult Intelligence Scale-Third Edition (WAIS­ III) to
Clemons and obtained a full-scale IQ score of 77. EH
at 771. Dr. King stated that Clemons had a nine-point
difference between the verbal and performance IQ
score which was “a little larger than we would like to
see” but stated that the difference could be attributed
to Clemons’s low score on the “digit symbol coding” test
where it did not appear tha.t Clemons was “ ... trying
hard.” EH at 773. Dr. King stated that Clemons’ s fullscale IQ score “indicates functioning in the general
area that we call borderline intellectual ability, which
is between mentally retarded functioning and the
average.” EH at 771. During this same round of
testing, Dr. King stated that he administered the

164a
spelling and reading portion of the “Wide Range
Achievement Test - Third Edition” which is a measure
of academic achievement. EH at 778-79. Clemons
scored a 98 on the reading part and a 96 on the spelling
part which equates to Clemons being able to read and
spell at the “high school level.” EH at 779.
The third round of testing occurred after the Court
of Criminal Appeals remanded the case for this Court
to determine, among other things, whether Clemons is
mentally retarded. In February 2004, Dr. King
administered the Halsted-Reitan test battery which
includes the original version of the Wechsler, the
Wechsler Adult Intelligence Scale (WAIS). Dr. King
testified that he noticed Clemons was much more
indifferent in his attitude during the more recent
testing. EH at 784. During the testing, Clemons did
not appear to be motivated to give his best effort and
even claimed that the “right side” of his body was going
down to the point that he was paralyzed. EH at 78485. Dr. King stated that he had not seen anything in
Clemons’s medical history that indicated Clemons
suffers from temporary paralysis in his right side. EH
at 786. On the WAIS, Clemons obtained a full-scale IQ
score of 67. Because the WAIS is considered an easier
test than the WAIS-III, Dr. King subtracted seven
points from the results of the WAIS so that those
scores would equate with the results of the WAIS-III.
EH at 792-93. Therefore, Clemons’s full-scale IQ score
on the WAIS is 60 as compared with the full-scale IQ
of 77 that Clemons received three years previous on
the WAIS-III. Dr. King stated that without some
intervening event such as a stroke, physical problem,
or serious disease it is difficult to account for a 17-point
drop in a full-scale IQ score. EH at 793. Dr. King
concluded that Clemons was malingering in an effort

165a
to score lower on the WAIS that was given in 2004. 4
Dr. King’s overall assessment is that Clemons
functions in the “borderline range of intellectual
ability.” EH at 819.
Dr. Golden, the psychologist hired by Clemons’s
present counsel to perform a psychological evaluation,
administered the Stanford-Binet Intelligence ScaleFourth Edition to Clemons on October 23, 2003. 5 EH
at 133. Dr. Golden testified that he gave this particular
intelligence test because it is a better measure of
intelligence for a person who is mentally retarded. EH
at 133-37. Dr. Golden did not support this conclusion,
however, with literature from any journals. Clemons
achieved a full-scale IQ score of 58 on the StanfordBinet administered by Dr. Golden. EH at 13. However,
Dr. Golden stated that because the Stanford­Binet
uses a “slightly different scoring system” from the
Wechsler test, Clemons’s scores should be adjusted
upward by three, thus giving Clemons a full-scale IQ
score of 61. EH at 139. Dr. Golden then stated that this
score was “probably an overcorrection.” Id. Dr. Golden
then performed another calculation:
Probably a better estimate of the Binet IQ is to
average these four scores together [verbal
reasoning-62; abstract visual reasoning-62;
quantitative reasoning-59; short term memory68), which actually
4 Dr. King also concluded that Clemons was malingering on all of
the tests that were administered in 2004 which will be discussed
in the second part of this order.
5 Dr. King stated that the Standford-Binet was “the original IQ
test developed” in the early 1990’s. EH at 770. He stated that the
test is not used much anymore with the exception that it is still
frequently used with small children. Id.

166a
gives you a score of sixty-six overall as his IQ.
And this is the more comparable score to what
we are working on with the WAIS.
EH at 139 and 140. Dr. Golden gave no justification
on why these additional calculations were necessary to
derive Clemons’s full-scale IQ score.
Dr. King testified that he was not aware of any
information that requires a psychologist to scale an IQ
score that is attained on the Stanford-Binet test. EH
at 823-24. In fact, Dr. King stated that “[t]he StanfordBinet Intelligence Scale as Revised uses norms like
other tests, and you come up with an IQ score based on
those norms and that’s the IQ score.” EH at 824.
During the evidentiary hearing, Clemons presented no
evidence to support Dr. Golden’s assertion that it is
necessary to scale scores upward that are obtained
from the administration of the Stanford-Binet
Intelligence Test.
As can be seen above, Clemons’s IQ scores vary
widely from a low of 51 on the WAIS-R given at the
Butner Correctional Facility in fall 1992 to a high of
84 on the BETA-II, apparently administered by the
Alabama Department of Corrections sometime in
1991. The evidence demonstrates that when Clemons
puts forward effort, he consistently scores in the 70-80
range on intelligence tests. These scores place him in
the borderline range of intellectual functioning and
establish that he is not mentally retarded. The: testing
revealed that Clemons scored below 70 three times,
twice as a part of the latest round of testing when
Clemons was presumably aware of the Court of
Criminal Appeals’ s remand on the mental retardation
issue. In the fall of 1992, Clemons scored a 51 on the
WAIS-R, a score which was discounted by the test

167a
administrator because it was inconsistent with the 84
score that Clemons achieved on the BETA-II the
previous year. R32 Vol. 7 at 1323. The psychologist at
Butner stated that a person scoring a 51 on an
intelligence test would possibly have to be
institutionalized and not be able to take care of basic
needs. Id. Despite Clemons’s score of 51, the
psychologist at Butner found that Clemons was
functioning in the borderline range. R32 Vol. 7 at 1325.
During the most recent round of testing, Clemons
scored below 70 on tests administered by Dr. Golden
and Dr. King. Clemons obtained a 58 on the StanfordBinet administered by Dr. Golden who offered cryptic
explanations in an effort to demonstrate that a 58
really meant that Clemons scored a 66. Dr. King stated
that he was unaware of any reason why the final score
on a Stanford-Binet becomes another score. Clemons
was offered the chance to present rebuttal evidence
and never refuted Dr. King’s statement. The court
finds that Clemons received a 58 full-scale IQ on the
test administered by Dr. Golden and that Dr. Golden
offered incredible reasons in an effort to make the
score appear more consistent with Clemons’s other
scores. Dr. King, during the most recent round of
testing, administered the original version of the
Wechsler as a part of a neuropsychological test battery
and obtained a full-scale IQ score of 67. Dr. King then
scaled the score to a 60 to make the score equivalent
to a score derived on the WAIS-III because the WAIS
is an easier test than the WAIS-III. EH at 792. Again,
despite being given the opportunity to present rebuttal
evidence, Clemons never refuted Dr. King’s statement
that the WAIS should be scaled down if the score is to
be given a WAIS-III equivalent score.
Therefore, the Court finds that Clemons does not

168a
satisfy the criteria to establish mental retardation
under the intellectual functioning element. The
evidence demonstrates that when Clemons puts
forward some effort he consistently scores in the 70-80
range on intelligence tests. Further, the evidence
demonstrates that when Clemons malingers he
consistently scores in the 50-60 range. Clemons has
failed to establish that he meets the criteria to
establish
“significantly
subaverage
general
intellectual functioning.” Because Clemons has not
established this criteria, he is not mentally retarded.
Notwithstanding the above finding that Petitioner
is not mentally retarded, the Court also addresses the
adaptive functioning element of mental retardation.
As previously stated, the state appellate courts
have lo ked to various factors in examining whether a
criminal is mentally retarded and therefore exempt
from the death penalty. Perkins, 851 So. 2d at 456;
Smith, 2003 WL 1145475, *9; Stallworth, 868 So. 2d at
1182. Among these factors are: employment history,
the ability to have interpersonal relationships, being
extensively involved in criminal activity, post-crime
craftiness on the part of the criminal, and being able
to use community resources. The record demonstrates
that all of the above-mentioned factors apply to
Clemons and establish that he is not mentally
retarded.
Even though Clemons went to jail when he was 19
years old: and therefore did not have much of an
opportunity to hold many jobs, the record
demonstrates that he was still able to hold a few jobs.
The Butner report indicates that “[Clemons] has held
a variety of unskilled positions, none lasting more than
a few months.” R32 Vol. 7 at 1317. Clemons’ s most

169a
notable job was as a delivery driver for Domino’s Pizza.
Daryl Pritchett, the manager who employed Clemons,
testified at the first Rule 32 hearing that this job
requires an individual to have a valid driver’s license.
R32 Vol. 36 at 304-05. Clemons’s grandfather had
purchased a car for Clemons so that he could work at
Domino’s. R32 Vol. 36 at 300. Although Pritchett said
that Clemons returned more pizzas than other
delivery drivers, he recalled that if Clemons was
familiar with the neighborhood he would not have
trouble delivering the pizza. R32 Vol. 36 at 307.
Pritchett said that a delivery driver was expected to be
able to make change out of the “bank” that was
provided to them at the beginning of the shift without
the benefit of a calculator. R32 Vol. 36 at 309. Pritchett
admitted that sometimes Clemons would “come up
short” when all of his receipts were reconciled at the
end of the evening. Id. Clemons’s work performance
was satisfactory, however, but he just stopped coming
to work after a month or two, R32 Vol. 36 at 306.
The lack of an employment history is perhaps
better explained by Clemons’s lack of desire rather
than inferior adaptive functioning. As the psychologist
at Butner Correctional Facility stated:
In addition to outright illegal
behavior, Mr. Clemons has never chosen
to support himself or be responsible for
his own needs. He has lived with
relatives, even as an adult, has not
maintained employment, and has spent
his time engaged in illegal behavior,
substance abuse, and promiscuous sexual
activity.
R32 Vol. 7 at 1325. If Clemons has a lack of

170a
employment history, this Court finds the records
introduced during the Rule 32 proceedings establish it
is due to a lack of motivation on his part to find work.
Clemons had the ability to form interpersonal
relationships with women, a factor the appellate
courts have ruled has relevance in examining whether
a criminal defendant is mentally retarded. Smith,
2003 WL 1145475, *9. The Butner report indicates
that Clemons had a number of relationships with
women. Clemons stated that he had numerous
relationships with women and one serious
relationship. R32 Vol. 7 at 1317. Clemons stated that
he fathered at least two children but because he had
been with so many women, he did not remember the
names of the women who bore his children. Id.
Clemons’s post-crime conduct supports the notion
that he was a crafty criminal intent on minimizing his
culpability and establishing a defense to his crime,
another factor indicating Clemons does not have
substantial deficits in adaptive functioning. After
being placed under arrest, Clemons gave a statement
to the FBI. Supp. R.-Exhibits Vol. 4 at p.
l(unnumbered pages). 6 In the statement, Clemons in a
clever way minimized his criminal culpability and
even attempted to establish that he was defending
himself when he killed Agent Althouse. Clemons
stated that on the day of the crime, he was picked up
by Kenny Reid and Dedrick Smith who both had guns
and were talking about taking cars at gunpoint. Id. As
they were riding around looking for cars, Clemons told
them, “if you’re going to take cars, take me home.” Id.
“Supp.R.-Exhibits” is a reference to the four volume
supplemental record to the trial transcript containing the
numerous documentary exhibits that were admitted at trial.
These volumes are unnumbered.
6

171a
They saw a black Camaro at a convenience store and
Reid and Smith told Clemons to take the car.
Id. at p. 2. When Clemons hesitated, they taunted
him. Id. As Clemons exited the car, they threw a gun
for him to use. Id. As Clemons approached the car, he
noticed a white male in the passenger seat talking on
a cell phone. Id. When Clemons pointed the gun at
Agent Althouse and said he was taking the car,
Althouse dropped the phone and stated, “okay, sure.”
Id. Clemons stated that Agent Althouse then smirked
and pulled a gun from his “rear area” and appeared as
if he was going to shoot Clemons. Id. After Clemons
observed Agent Althouse draw the gun, Clemons
“poured” his gun, meaning that he fired a number of
rounds. Id. This statement reflects Clemons’s criminal
sophistication in that he attempted to make himself
look like a follower and, at the same time, contend he
killed only in self defense. 7
Other facts presented at Clemons’s trial
demonstrate that Clemons’s statement contained
numerous false statements. A week before the murder,
Herman Shannon testified that Clemons came to his
house and asked if anyone had a gun. R. 1423. 8
Shannon gave Clemons a gun and testified that it was
the same gun Clemons was in possession of
7 Dr Embry, the forensic pathologist who performed an autopsy
on the victim’s body, stated that one gunshot wound was in the
left side of Agent Althouse’s chest, below his arm pit, and the exit
wound from that bullet was in the front right side of his chest. R.
1574. The second gunshot wound was in Agent Althouse’s back.
Id. This testimony indicates that Agent Althouse was attempting
to get out of the car while he was being shot, a fact inconsistent
with drawing a gun as Clemons’s statement indicates.
8 “R” is a reference to the 9-volume trial transcript. “C” is a
reference to the clerk’s record of the trial transcript.

172a
immediately after the crime occurred. R. 1423.
Shannon’s testimony indicates that Clemons acted
with premeditation by obtaining a gun a week before
he carried out the carjacking. Kenny Reid testified
that on the night of the crime they were traveling down
Highway 280 when Clemons told Smith to pull into the
Chevron gas station. R. 1327-28. Clemons, referring to
a car parked at the gas station, yelled “that’s it, right
there.” R. 1329. Smith let Clemons out and parked at
the Wendy’s next door to the gas: station. R. 1330. soon
thereafter, Reid heard two gunshots and then several
more rounds of shots and saw Clemons drive through
a red light at a high rate of speed.
R. 1331-32. Reid said that when he saw Clemons
later that night, Clemons instructed him not to talk
because he had killed a DEA man. R. 1335. Leon
Johnson, who was at the house where Clemons drove
immediately after the murder, stated that Clemons
said he would kill him if he talked to the police. R.
1449. These facts demonstrate that Clemons was not
an unwitting follower due to his low intelligence but
rather that he had a deliberate plan to carjack a car.
Another factor relative to adaptive functioning is
being extensively involved in criminal activity. Smith,
2003 WL 1145475, *9. There was evidence presented
at trial that indicated Clemons carjacked cars on three
separate occasions at gunpoint. R. 1478-80, 1493-99,
1503-08. In all of these crimes, Clemons committed the
forcible taking of the car without any assistance.
Clemons’s ability to repeatedly engage in illegal
behavior refutes the notion that he had significant
limitations in adaptive behavior.
Finally, the state courts have indicated that being
able to use community resources is relevant in

173a
determining adaptive functioning. In Stallworth, 868
So. 2d at 1182, the Court of Criminal Appeals
indicated that a person qualifying for food stamps is
evidence of adequate adaptive skills. After Clemons
killed Agent Athouse, he soon fled the Birmingham
area and left for Cleveland, where he had family.
Clemons was transported to Cleveland on a
Greyhound Bus, which is an indication that Clemons
could use the community resource of public
transportation.
All of the above various factors refute Clemons’s
contention that he has significant limitations in
adaptive behavior. Two of the psychologists that have
examined Clemons have stated that he does not have
significant limitations in adaptive functioning.
Dr. King stated the following: In addition, by
history, Mr. Clemons had a driver’s license, he worked
some places for a year at a time. He was able to
matriculate through school to the tenth grade, even if
he stopped at that point. He has literacy levels that
seem to vary by whoever is giving him the test and
under what circumstances, but clearly with me he was
able to recognize words and spell words, rather
sophisticated words, at about a high school level with
ninety-eight, ninety-six scores.
EH at 836. Dr. Grant, who was hired by Clemons’s
attorneys to perform an evaluation before the federal
trial, found that Clemons was a hardened criminal
who demonstrated adaptive skills in prison that
refuted any notion that he was mentally retarded:
Data from Jefferson County Jail
personnel indicate that Mr. Clemons is
currently housed on a violent floor with
twenty-two other violent criminals.

174a
Individuals with low IQ’s in this setting
tend to be victimized by other inmates,
who steal food off their trays, their
money, and their candy (the Defendant
arrived at the interview carrying candy).
Defendants in this setting who are
mentally slow, typically get into fights or
have to be put in protective custody on
the medical unit. Mr. Clemons’ survival
on a violent unit may attest to his true
ability to function.
R32 Vol. 7 at 1298-99. Clemons has not
demonstrated that he has significant limitations in
adaptive functioning.
The third element to prove mental retardation is
that significantly subaverage intellectual functioning
and significant deficits in adaptive behavior must
occur before the age 18. Ex parte Perkins, 851 So. 2d
at 456; Ex parte Smith, 2003 WL 1145475, at *9.
Clemons was first administered an intelligence test
when he was six and a half years old, scoring a 77 on
the test which placed him in the borderline range of
intelligence.
Clemons
was
apparently
not
administered any more intelligence tests until he was
past age 18. The Alabama Supreme Court has ruled
that scores above 70 place a defendant above the cutoff to establish significantly subaverage intellectual
functioning.
Ex parte Perkins, 851 So. 2d at 456; Ex parte
Smith, 2003 WL 1145475, at *9. Clemons likewise did
not produce any evidence of significant deficits of
adaptive functioning before age 18.
For the foregoing reasons, this Court finds that
Clemons is not mentally retarded.

175a
II. INEFFECTIVE ASSISTANCE OF COUNSEL
AT THE PENALTY PHASE
The Court of Criminal Appeals also remanded for
this Court to decide whether Clemons’s trial counsel
were ineffective during the penalty phase for failing to
develop and present mitigating evidence concerning
his alleged “limited mental capacity.” Clemons, 2003
WL 22047260, at *4. Specifically, the Court of
Criminal Appeals directed this Court to allow Dr.
Charles Golden, a neuropsychologist, to testify
regarding his findings which testimony was disallowed
in the first Rule 32 hearing. The Court of Criminal
Appeals further directed this Court to examine this
claim bearing in mind recent United States Supreme
Court decisions in Wiggins v. Smith, 539 U.S. 510
(2003), and Williams v. Taylor, 529 U.S. 362 (2000).
This claim relates to Clemons’s assertion, made in
Issue III of his second amended Rule 32 petition, that
he suffered head injuries during his childhood at or
near birth and that those injuries caused brain
damage and, thereby, affected his mental capacity.
R32 Vol. 4 at 623-35.
To further facilitate the review of this claim and out
of an abundance of caution, this Court, over the State’s
objection, granted Clemons’s motion for a brain
imaging scan and ordered the State to make
arrangements to transport Clemons to a test
administration site. On February 4, 2004, a positron
emission tomography (PET) scan was performed on
Clemons at Knollwood Hospital, a part of the
University of South Alabama, in Mobile. Clemons’s
expert witness, Dr. Joseph C. Wu - the “Clinical
Director” of the Brain Imaging center at the
University of California at Irvine - traveled from
California to Mobile to perform the scan.

176a
At the remand hearing, Dr. Golden testified about
Clemons’s intellectual and emotional deficits, and that
these deficits have been present since Clemons was in
the first grade, when testing revealed that Clemons
had an IQ of 77. Dr. Wu, a psychiatrist, performed a
PET test on Clemons and testified that the results of
Dr. Golden’s testing are consistent with, and
corroborate, Dr. Golden’s diagnosis of brain damage.
The State offered two rebuttal witnesses, Dr. King,
a psychologist, and Dr. Helen Mayberg, a neurologist.
Dr. King, who performed two different rounds of
psychological testing on Clemons, testified regarding
Clemons’s cognitive and executive functioning.
Specifically, Dr. King stated that Clemons was in the
“borderline range of intellectual ability” and that he
exhibited “poor judgment relative to an average
functioning individual.” EH at 819. Regarding the
neuropsychological testing that he performed, Dr.
King stated that his “ultimate findings were that
[Clemons] malingered through and dissembled
through a number of the tests, so it’s difficult to draw
any conclusions from those neuropsychological
findings.” EH at 837. Furthermore, Dr. King, in
discounting that Clemons had ever sustained a brain
injury, stated that Clemons had no history of “any
traumatic injury, ... no history of a cerebral vascular
accident, ... no history of any kind of neuropathic
process like brain tumor or anything like that.” EH at
837-38.
Dr. Mayberg testified that Clemons’s brain scan “is
a normal study. I don’t see any brain abnormalities.”
EH at 566. Dr. Mayberg also called into question the
methods that Dr. Wu used to make a visual
comparison between Clemons’s brain scan image and
the scans of Dr. Wu’s normative database that consists

177a
of 56 persons. Specifically, she stated that Dr. Wu used
different scaling procedures that ensure that
Clemons’s brain scan image will look different from
Dr. Wu’s normal database. EH at 569-70. Dr. Mayberg
sited that it was “silly” to believe that a doctor can use
a PET scan to diagnose a brain injury twenty plus
years after the alleged head injury occurred. EH at
540-41. Furthermore, Dr. Mayberg noted that the
generally accepted uses of PET scans for diagnosing
ailments associated with the brain are to diagnose
brain tumor, temporal lobe epilepsy, and evaluation of
someone with “progressive cognitive impairment” such
as dementia associated with Alzheimer’s disease. EH
at 522. In particular, Dr. Mayberg stated that there is
a typical and replicated scan pattern to diagnose the
above-mentioned maladies while there is no scientific
literature that supports being able to use a PET scan
to diagnose a brain injury that allegedly occurred
twenty plus years previous to the administration of the
PET scan.
A. The Applicable Law
The Court of Criminal Appeals remanded this case
with a specific directive to allow the presentation of
evidence regarding the claim that Clemon’s trial
counsel were ineffective during the penalty phase for
failing to develop and present mitigating evidence
concerning Clemons’s alleged “limited mental
capacity.” Clemons, 2003 WL 22047260, *4. The Court
first discusses the applicable law and summarizes the!
evidence presented at the remand hearing and then
addresses the specific claim.
The United States Supreme Court set forth the
standard governing claims of ineffective assistance of
counsel in Strickland v. Washington, 466 U.S. 668

178a
(1984). To prevail on a claim of ineffective assistance
of counsel, a Rule 32 petitioner must demonstrate
that: (1) counsel’s performance was deficient because
it fell below an objective standard of reasonableness,
and (2) that the deficient performance prejudiced the
defense:
First, the defendant must show that counsel’s
performance was deficient. This requires showing that
counsel made errors so serious that counsel was not
functioning as the “counsel” guaranteed the defendant
by the Sixth Amendment. Second, the defendant must
show that the deficient performance prejudiced the
defense. This requires showing that counsel’s errors
were so serious as to deprive the defendant of a fair
trial, a trial whose result is reliable.
Strickland, 466 U.S. at 687. In a capital case, this
two- part test applies to claims of ineffective assistance
of counsel during the sentencing phase, as well as the
guilt phase of the trial, because a “capital sentencing
proceeding... is sufficiently like a trial in its
adversarial format and in the existence of standards
for decision ... that counsel’s role in the proceeding is
comparable to counsel’s role at trial - to ensure that
the adversarial testing process works to produce a just
result under the standards governing decision.”
Strickland, 466 U.S. at 686-87 (internal citation
omitted).
The standard for judging counsel’s performance is
“reasonableness under prevailing professional norms.”
Strickland, 466 U.S. at 688. There is a strong
presumption that counsel’s conduct falls within the
“wide range of reasonable professional assistance.”
Strickland, 466 U.S. at 689; Bolender v. Singletary, 16
F.3d 1547, 1557 (11th Cir. 1994)(“It is important to

179a
note that judicial scrutiny of an attorney’s
performance is appropriately highly deferential
because the craft of trying cases is far from an exact
science; in fact, it is replete with uncertainties and
obligatory judgment calls.”). range of constitutionally
because there is such a wide acceptable performance,
a petitioner seeking to rebut the presumption of
adequate performance must overcome a high hurdle:
The test has nothing to do with what
the best lawyers would have done. Nor is
the test even what most good lawyers
would have done. We ask only whether
some reasonable lawyer at the trial could
have acted, in the circumstances, as
defense counsel acted at trial. We are not
interested
in
grading
lawyers’
performances; we are interested in
whether the adversarial process at trial,
in fact, worked adequately.
White v. Singletary, 972 F.2d 1218, 1220-21 (11th
Cir. 1992)(citation omitted). Thus, in order to show
that counsel’s performance was unreasonable, the
petitioner must establish that no competent counsel
would have taken the action that his counsel did take.
See Holladay v. Haley, 209 F.3d 1243, 1253 n.6 (11th
Cir. 2000) (“A tactical decision is ineffective only if it
was so patently unreasonable that no competent
attorney would have chosen it.”)(citation omitted).
Furthermore, an attorney’s performance is to be
evaluated from his perspective at the time of the trial,
rather than through the prism of hindsight.
Strickland, 466 U.S. at 689. “The widespread use of the
tactic of attacking trial counsel by showing what
‘might have been’ proves that nothing is clearer than

180a
hindsight - except perhaps the rule that we will not
judge trial counsel’s performance through hindsight.”
Waters v. Thomas, 46 F.3d 1506, 1514 (11th Cir.
1995)(en bane). See, e.g., Strickland, 466 U.S. at 689
(“A fair assessment of attorney performance requires
that every effort be made to eliminate the distorting
effects of hindsight.”); Atkins v. Singletary, 965 F.2d
952, 958 (11th Cir. 1992)(“Most important, we must
avoid second-guessing counsel’s performance. As is
often said, Nothing is so easy as to be wise after the
event.”)(citation omitted). “To state the obvious: the
trial lawyers, in every case, could have done something
more or something different. So, omissions are
inevitable. But the issue is not what is possible or what
is prudent or appropriate, but only what is
constitutionally compelled.” Chandler v. United
States, 218 F. 3d 13 05, 1313 (11th Cir. 2000) (en banc)
(quotation omitted). With these principles in mind,
this Court examines the claim whether trial counsel
“rendered ineffective assistance by not developing and
presenting ev1dence concerning his limited mental
capacity[.]” Clemons, 2003 WL 22047260, *4.
B. Trial Counsel and Their Investigation
Clemons was represented at trial by Mickey
Johnson and Roger Bass. Johnson’s deposition was
entered into evidence at the first Rule 32 hearing.
Although a notice of deposition was filed for Roger
Bass prior to the first Rule 32 evidentiary hearing
being held, Clemons’s present counsel never deposed
Mr. Bass, who is now deceased. Mr. Johnson was not
called as a witness at the remand hearing; therefore,
it is instructive to revisit his testimony regarding his
investigation into presenting evidence at the penalty
phase. Because Johnson was not called as a witness at

181a
the remand hearing, the court is not privy to any
consideration that trial counsel may have given to hire
a neuropsychologist. If the record is incomplete or
unclear about counsel’s actions in a particular area,
the Court is to presume that trial counsel “exercised
reasonable professional judgment.” Chandler, 218
F.3d at 1314 n.15.
Trial counsel’s investigation into mitigating
evidence was hampered by Clemons’s family who were
uncooperative and even hostile to trial counsel.
Indeed, Clemons’s family’s meddlesome ways began
before Johnson and Bass were appointed to represent
Clemons. Bob Williams, Clemons’s first lawyer, was
forced to file a motion to withdraw from the case by
Clemons’s family. In the motion to withdraw that
Williams ‘filed he noted the following:
In addition, the Defendant relies on
family members to act as surrogate
decision-makers in this case. Without fail
he affirms whatever they consider to be
in his best interest.
These relatives have expressed their own specific
and apparently unalterable agenda as to exactly how
this case is to be prepared and tried, which is in direct
conflict with the defense strategies developed by this
Office.
Consequentially, they have become uncooperative
and bellicose. Due to their controlling influence over
the defendant, the attorney-client relationship and the
preparation for this case has been substantially
impeded.
R32 Vol. 6 at 1135 {quoting from clerk’s record of
trial transcript). Williams noted that Clemons’s family
participated in drafting a request to have the public

182a
defender’s office dismissed as counsel.
Johnson faced the same obstacles that caused
Williams to ·withdraw. During his investigation,
Johnson discovered that certain members of Clemons’s
family were combative and difficult. R32 Vol. 33 at
6463-64. The family members displayed a distrust of
Johnson and at times would even insult him and,
presumably, Roger Bass. Id. The family members that
were contacted by trial counsel were Clemons’s aunts
who lived in Birmingham and one who lived in Ohio
along with Clemons’s mother and grandmother. R32
Vol. 6 at 1124-25. Anytime that Johnson brought up
the necessity of preparing for the penalty phase, the
aunts became very hostile because they would not
accept that Clemons could be convicted. R32 Vol. 33 at
6466. Presumably because of his difficulties with the
family members, Johnson was never able to develop a
relationship of trust with Clemons. R32 Vol. 33 at
6338.
Based upon the investigation that he was able to
conduct, Johnson developed a strategy of presenting
evidence that Clemons had a difficult life and was law
abiding until he fell in with the wrong crowd. R32 Vol.
33 at 6469-70.
To that end, Johnson planned to present the
testimony of Clemons’s grandmother - who he
characterized as “a fine lady” - to testify as to
Clemons’s difficult upbringing and the effect it had on
Clemons getting in with the wrong crowd. R32 Vol. 33
at 6469-70. As a part of this strategy to humanize
Clemons, Johnson also wanted Clemons to apologize
and admit his guilt and beg for mercy. R32 Vol. 33 at
6470.
These plans went out the window, however, when

183a
Clemons’s uncle, Michael Clemons, testified against
Clemons during the guilt phase. Immediately before
the uncle testified, Clemons jumped up and began
yelling that he had already been convicted of this
murder in federal court - a fact that had been kept
from the jury by order of the Court.
R. 1060-61. In addition, Clemons indicated that he
desired to fire his trial counsel and that he did not
want to attend the trial any further. Id. After
Clemons’s outburst, Clemons’s family members quit
attending the trial and their already hostile attitude
became even more hostile. As Mr. Bass recounted to
the Court during trial, one of Clemons’s aunts who he
knew as “Betty,” called him after Clemons’s outburst
and made an implied threat against Bass and Johnson
if they continued representing Clemons. R. 1259. After
the conviction, Johnson made efforts to contact
Clemons’s grandmother to come and testify at the
penalty phase but Clemons’s aunts said the
grandmother could not testify because she had to
work. R32 Vol. 33 at 6475-76. In their misguided
attempt to assist Clemons in obtaining a mistrial,
Clemons’s family members prevented trial counsel
from presenting mitigating evidence on Clemons’s
behalf.
Trial counsel investigated Clemons’s mental health
in an effort to present such evidence at the penalty
phase. Johnson had available four different
psychological evaluations that had been done before
Clemons’s federal trial. The reports from all four
evaluations noted that Clemons had malingered in an
effort to feign mental illness. R32 Vol. 7 at 1281 (“I am
strongly suspicious of malingering especially in regard
to his supposed psychosis.”); R32 Vol. 7 at 1324, 1299
(overall conclusions in both reports were that Clemons

184a
was malingering). Johnson recalls that he talked with
Dr. Grant, a psychiatrist, who had performed an
evaluation before Clemons’s federal trial. Johnson
recalls talking to Dr. Grant about testifying and he
recalls Dr. Grant stating that his testimony would not
be helpful. R32 Vol. 33 at 6477-78. In addition, if he
called Dr. Grant the State on cross examination could
have inquired into Dr. Grant’s opinion that Clemons
malingered during the evaluation. R32 Vol. 33 at 648081. None of the psychologists who evaluated Clemons
recommended to Johnson that Clemons be evaluated
by a neuropsychologist. R32 Vol. 33 .at 6478, 6479-80.
Faced with all of these prospects, trial counsel decided
on the strategy to humanize Clemons.
C. Evidence
Hearing

Presented

at

the

Remand

At the remand hearing, four expert witnesses
testified. Clemons called Dr. Charles Golden, a
neuropsychologist, and Dr. Joseph Wu, a psychiatrist
who is the director of a brain imaging center housed at
the University of California at Irvine. In rebuttal, the
State called Dr. Glen King, a psychologist, and Dr.
Helen Mayberg, a neurologist who is employed at
Emory University in the Department of Psychiatry.
This order will briefly summarize the main points
that each of these witnesses made.
Dr. Charles Golden is a professor of psychology and
the head of the neuropsychology program at Nova
Southeastern University in Fort Lauderdale, Florida.
EH at 9. Dr. Golden stated that “neuropsychology is
the study of the relationship between brain function
personality and cognitive functioning.” and behavioral
EH at 10. Dr. Golden is board certified in

185a
neuropsychology by the American Board of
Professional Psychology. EH at 5. Dr. Golden reached
two diagnoses. One was that Clemons had a cognitive
disorder not otherwise specified, which he called a
catch­ all diagnosis used for an individual “with a
brain injury or brain dysfunction of some kind that
doesn’t rise to the level of dementia or deliria,” which
he stated Clemons doesn’t have. The second was mild
mental retardation. EH at 20 and 21. Dr. Golden gave
Clemons tests from the Luria­ Nebraska test battery
and concluded, based on the results of those tests, that
Clemons has “frontal lobe dysfunction.” EH t 51. The
tests that Dr. Golden gave that are designed to detect
deficiencies in the frontal lobes are the Wisconsin card
Sort Test, the short form of the Categories Test, and
the Trail Making Test. EH at 103. Dr. Golden stated
that “the presence of brain injury ...[to the frontal
lobes] can make someone more susceptible to the
suggestions of others, can make them not realize the
consequences of their behavior.” EH at 193. Dr. Golden
also concluded that Clemons participated in criminal
activities because he wanted to fit in with friends who
were also committing criminal acts. EH at 194-95. Dr.
Golden recommended to Clemons’s present counsel
that a PET scan be done because the test results on
the testing that he performed pointed toward a “brain
injury.” EH at 175.
On cross-examination, Dr. Golden revealed that
when he testifies in criminal cases it is always on
behalf of criminal defendants and never on behalf of
the prosecutor.
EH 1at 201-02. He has testified on behalf of
criminal defendants across this country including the
following states Florida, Alabama, Maryland,
California, Hawaii, and Nebraska. EH at 202. In

186a
addition to testifying on behalf of criminal defendants,
Dr. Golden has testified for capital petitioners in a
post-conviction setting 6-10 times. EH at 202. Dr.
Golden charged $250 an hour for his work in this case
and on the day of his testimony had already billed
approximately $25,000 for his work in this case. EH at
203. His bill presumably grew larger because he
stayed at the hearing for three additional days after
his testimony to assist Clemons’s present counsel in
their examination of Dr. King. EH at 288, 506, 725. Dr.
Golden, perhaps revealing some bias, stated that he
viewed Clemons as his “client.”
EH at 204. Regarding the tests that Dr. Golden
gave that were sensitive to frontal lobe functioning,
Dr. Golden did not: testify as to the specific results of
the Wisconsin Card Sor test and he stated that
Clemons was on the cut-off for brain impairment on
the short form of the Categories test. EH at 231-32.
Dr. Joseph Chong-Sang Wu is an associate
professor at the University of California at Irvine (UCIrvine) and the “clinical director” of the Brain Imaging
Center located at that university. EH at 292. Dr. Wu
is a psychiatrist whose “professional focus is on the use
of brain PET scans in the study of neural psychiatric
disorders.” Id. Dr. Wu is board certified in the field of
psychiatry. EH at 294. PET scans are a relatively new
diagnostic tool that neuroscientists use to measure the
glucose metabolic rates of different parts of the brain.
EH at 547-51. This is done by injecting the patient
with F-deoxyglucose (“FDG”), which is mixed with
trace amounts of radioactivity, and then taking axial
slice images at six millimeter intervals and
reconstructing those images with the aid of a
computer. EH at 542-43. A computer also takes the
numerical data and converts the data into pixels to

187a
make a color display of the brain image. The different
uptake rates of the glucose metabolism can then be
compared against those rates in patients without
abnormalities known as a normal control group. EH at
551-58.
Dr. Wu stated that Clemons’s brain scan pattern is
consistent with a brain injury. EH at 327. Dr. Wu
diagnosed Clemons with “metabolic hypofrontality”
which he described as a pattern of brain metabolism in
which “metabolic activity in the frontal lobe area
relative to other reference regions, such as the
occipital lobe area, is lower than it should be, lower
than normal.” EH at 328. Dr. Wu made this
determination by visually examining Clemons’s brain
scan and comparing it to the normal control group
consisting of 56 people that he has accumulated at
UC­Irvine. EH at 343-44, 350-51. Dr. Wu called this
method of visually comparing the subject’s brain scan
with the brain scans of the normal control group a
“qualitative interpretation.” The other comparison
method is a quantitative evaluation “where one
measures the level of activity and compares it
statistically” to a normative control group. EH at 344.
Dr. Wu was then asked about articles which he
contends support the concept that there is a
correlation between a PET scan showing decreased
glucose metabolism in the frontal and temporal lobes
and neuropsychological testing that is indicative of
brain impairment. EH at 383-84. Dr. Wu stated that
the pattern he saw on Clemons’ s brain scan is
correlated by the results of the Wisconsin Card Sort
test administrated by Dr. Golden. Dr. Wu stated that
Clemons’s brain scan pattern “is consistent with an
abnormal frontal lobe function and consistent with ...
a history of traumatic brain injury.” EH at 414.

188a
On cross examination, Dr. Wu conceded that in
criminal cases he always testifies on behalf of the
criminal defendant. EH at 435. Dr. Wu also made the
stunning admission that, with the exception of one
case, he found a brain abnormality in every criminal
case where he was asked to do a PET scan or interpret
a PET scan. EH at 436. Dr. Wu charged $250 an hour
for his work in this case and, on the day he testified,
expected his bill was approximately $10,000. EH at
437-38. He presumably charged an additional fee
(beyond the $10,000) because he stayed one more day
after his testimony concluded to assist Clemons’ s
present counsel in cross examining Dr. Mayberg. Dr.
Wu admitted that he was not a neurologist,
radiologist, or nuclear medicine specialist. EH at 442.
Dr. Wu also conceded that he had never been
published in two publications, the Journal of Nuclear
Medicine and the Journal of Medical Technology, that
he stated “are widely read in the field of nuclear
medicine.” EH at 443.
Dr. Wu stated that he flew from California to
Mobile to perform the PET test on Clemons even
though there are doctors at Knollwood Hospital who
could have performed the test. EH at 449-50. Dr. Wu
said that he could compare Clemons’s brain scan with
the scans that he obtained at UC­ Irvine even though
the PET machines at UC-Irvine and Knollwood
Hospital are much different. EH at 453. Dr. Wu
admitted that the PET machine at UC-Irvine is over
ten years old and is a machine that can only take
pictures of the head. EH at 453. The machine at
Knollwood Hospital is a combination PET/CT system
that is only two years old and is used primarily to
detect or diagnose cancer. EH at 465. Dr. Wu admitted
that the attenuation correction is different in the two

189a
machines. EH at 465-66.
Dr. Wu testified that he obtained his normal
database that consists of 56 people over the course of
the last 5-10 years at UC-Irvine. Dr. Wu admitted that
he did not perform extensive psychological screening
to ensure that none of his normals had neurological
problems. Dr. Wu stated that at least 5% of his normal
data base will have decreased metabolism in the
frontal lobe area. EH at 457.
After Dr. Wu compiled his normal data base, a
computer scientist performed a normalization process
so that all of the 56 brain scans would be the same size
and shape. EH at 456. Dr. Wu then had the computer
scientist create an average of the 56 people in his
normal control group and he displays that one scan as
an average of the normal control group. EH at 456. Dr.
Wu displays his normal control group in the scaling
procedure known as average of the whole rain. [sic] EH
454. He defined this scaling procedure as an “...
average across individuals at a given pixel on a given
slice the numerical average and then do this for each
pixel or each slice, and we obtain an average.” EH at
455. In other words, in the scaling procedure known as
average of the whole brain, the computer takes all of
the glucose metabolic rates and averages them
together to obtain an average value.
All of the colors are then displayed in a ratio that
is relative to the average value.
Dr. Wu admitted that the color scaling procedure
used by the machine at Knollwood Hospital to display
the scan one used by the PET machine at UC-Irvine.
At Knollwood Hospital, the data images created by the
computer are displayed relative to the maximum pixel
in that

190a
particular image or “region displayed to the
maximum.” EH at 468. In other words, each image is
displayed by colors that are all relative to the location
(or pixel) that is metabolizing the greatest amount of
glucose.
Dr. Wu stated that the medical technician at
Knollwood Hospital provided him with a CD-ROM
that contained Clemons’s brain scan images in a file
format known as DICOM which is an acronym for
Digital Imaging and Communications in Medicine. 9
Dr. Wu agreed that the DICOM file format was
developed by the American College of Radiology to
enable digital communication between diagnostic
equipment and systems from various manufacturers.
EH at 462. Dr. Wu also agreed that if a data image of
a brain scan is in the DICOM file format the numeric
values of glucose metabolic rates can be obtained. EH
at 463.
Despite having Clemons’s brain images displayed
in the file format that would have allowed Dr. Wu to
make statistical comparisons to his normal control
group, he had the medical technician at Knollwood
Hospital convert Clemons’s brain scan images in a file
format known as JPEG which is an acronym for Joint
Photographic Experts Group. EH at 463. Dr. Wu
agreed that the JPEG file format is a compression
mechanism designed for compressing full-colored
images. EH at 463. Dr. Wu agreed that a photographic
image converted to a JPEG file format can be
compressed up to 100 times. EH at 464. Dr. Wu agreed
that an image compressed using JPEG compression
loses data from the raw or native image that cannot be
recovered. EH at 463. Dr. Wu also agreed that a
9

The transcript erroneously states this acronym as DIACOM.

191a
digital scan image may not be a pixel-by-pixel
equivalent of the original scan image. EH at 464-65.
Dr. Wu conceded that the articles he referenced
during his direct examination to support the notion
that a PET scan can be used to diagnose brain trauma
actually are all case studies where the subject has
suffered a severe or documented closed head injury
and lost consciousness or was in a coma. EH at 479-80,
480-81, 481-82, 485, 485-86, 486-87. Dr. Wu stated
that he had not seen any hospital records that show
Clemons suffered a brain injury. EH at 475. When
asked whether he had any information that Clemons
had suffered any neurobehavioral symptoms as the
result of an alleged head injury, Dr. Wu testified that
Clemons had behavioral problems while serving in the
Army. EH at 477-78. Dr. Wu then acknowledged that
he talked to Clemons during a break in the remand
hearing and was told that Clemons had not served in
the Army. EH at 499.
Dr. Wu admitted that the findings in a case study
of 20 persons who had suffered a mild to moderate
closed head injury with altered consciousness showed
that the frontal lobes were not usually affected. EH at
482-85. This same case study demonstrated that when
the frontal lobes were affected by a closed head injury,
the glucose metabolic rates in the frontal lobes were
typically higher than the rate in a normal control
group, and not lower. EH at 483-85. Dr. Wu conceded
that Clemons’ s brain scan pattern is different than the
brain scan patterns documented in the case study of
the 20 persons that sustained a documented head
injury. EH at 482.
Dr. Wu stated that the journal articles that support
his assertion that there is a correlation between poor

192a
performance on the Wisconsin Card Sort test and
deficits in the! frontal lobes of the brain as exhibited
by a PET scan do have different circumstances from
Clemons’s situation. EH at 487-88. The persons in the
articles all sustained a head injury and are patients
who are motivated to do their best on
neuropsychological testing. Id. Dr. Wu stated that he
is aware of the reports that Clemons typically
malingers on psychological tests and that he perhaps
had a motivation to do poorly on these tests. Id.
Furthermore, he acknowledged that he had not seen
any hospital records that demonstrate Clemons ever
had a brain injury. EH at 475.
Dr. Wu conceded that he did not do a statistical (or
quantitative) analysis in this case even though he has
done that kind of analysis in previous cases. EH at
458-59, 491. Dr. Wu stated that when he writes
articles in peer-reviewed journals he supports his
conclusions by stating the numeric values of the
metabolic rates in the different parts of the brain. EH
at 459. Dr. Wu conceded that he did not do a
quantitative analysis in this case even though he could
have done so if he had left the data images in the
DICOM file format. EH at 463, 493.
Dr. Glen King is a clinical and forensic psychologist
who is board certified by the American Board of
Professional Psychology in the area of clinical
psychology. EH at 727. Dr. King stated that he has
performed
1800-2000
forensic
psychological
evaluations in his career. EH at 733. He has testified
in criminal cases over one hundred times and, in those
cases, about 40-50% of the time, he testified on behalf
of the defendant. EH at 734. Dr. King has found a
criminal defendant insane in about 6-7% of his forensic
evaluations. EH at 734-35. Dr. King testified that he

193a
has
performed
over
300
neuropsychological
assessments and performed a neuropsychological test
battery in a forensic setting 20-25 times. EH at 739.
Dr. King testified that he performed two rounds of
testing on Clemons, one in 2001 and the other in 2004.
In 2001, Dr. King gave Clemons the following tests:
Wechsler Adult Intelligence Scale - Third Edition
(WAIS-III) the Wide Range Achievement Test
(spelling and reading portions), and the Minnesota
Multiphasic Personality Inventory - Second Edition
(MMPI-II). EH at 756. In 2004, Dr. King administered
all
of
the
tests
in
the
Halsted-Reitan
neuropsychological test battery. EH at 755. Dr. King
testified that Clemons was much more indifferent
during the 2004 round of testing and did not appear to
be motivated or giving his best effort. EH at 784. This
conclusion is supported by Clemons scoring a full-scale
IQ of 77 on the WAIS-III given in 2001, EH at 770, and
a full-scale equivalent score of 60 on the WAIS given
in 2004. EH at 792. However, Dr. King stated that he
believed that Clemons malingered on the MMPI-II
that was given in 2001. EH at 781.
Dr. King’s overall assessment of Clemons’s
cognitive and executive functioning was that Clemons
was in the “borderline range of intellectual ability” and
that he exercised “poor judgment relative to an
average functioning individual.” EH at 819. Although
the results of the testing in 2004 showed that Clemons
was in the severely impaired range of functioning, Dr.
King testified that the results were not consistent with
Dr. King’s observation of Clemons. EH at 819. Dr. King
testified that people with this type of impairment
index score have had documented evidence of a stroke,
traumatic brain injury, or a brain tumor. EH at 81819. Dr. King concluded that the results of the Halsted-

194a
Reitan neuropsychological test battery were affected
by Clemons’s malingering. EH at 837. As a result,
Dr. King did not make any findings based upon the
round of testing he administered in 2004 other than
Clemons was attempting to feign mental illness or
demonstrate that he had some neuropsychological
deficits. EH at 837-38. Even assuming Clemons had
any brain impairment, Dr. King testified it would not
have affected his ability to appreciate the criminality
of his conduct. EH at 838.
On cross examination, Dr. King disagreed that
there would be a test/retest effect when he gave the
WAIS-III three months after Dr. Ackerson gave the
WAIS-R because they are different tests that do not
contain many overlapping items. EH at 866. Dr. King
did not agree that Clemons had suffered brain injuries
that caused brain damage, explaining as follows:
I have trouble with characterizing it
that way and the reason is because
damage by itself suggests that something
was integrated and well-functioning
before it was damaged. So, when you talk
about damage, that suggests that
somebody’s brain, if that’s what we are
talking about, was well functioning and
somehow it got damaged. And I see no
evidence of that in this case.
EH at 882. Dr. King’s conclusion is supported by
the fact that Clemons, when he gives effort on
intelligence tests, consistently scores in the 70’s-80’s.
Dr. King ultimately concluded that Clemons is not
“brain damaged.” EH at 894.
Dr. Helen Mayberg is a medical doctor who is
presently employed at Emory University in the

195a
Department of Psychiatry and is a professor of
psychiatry and neurology. EH at 512. Dr. Mayberg is
board certified in neurology by the American Board of
Psychiatry and Neurology. EH at 513-14. Dr. Mayberg
testified that the generally accepted uses of a PET
scans [sic] are the following: to detect cancer in the
body, evaluate a brain tumor, evaluation of patients
with temporal lobe epilepsy, and evaluation of
someone with “progressive cognitive impairment” such
as dementia associated with Alzheimer’s disease. EH
at 522.
Dr. Mayberg testified that it is not generally
accepted in her field to use a PET scan to diagnose a
brain injury twenty plus years after the alleged injury
or incident occurred. Specifically, Dr. Mayberg stated
the following:
...you can’t come back twenty-five
years later, and in this case where there
isn’t even documentation of a clear head
injury, and think that you’re going to use
a PET scan twenty-five years later and
extrapolate back that whatever I see on
the PET scan now must somehow be
related to something that happened at
age five. I mean, it is impossible to use
that technology to do that. So not only is
it not generally accepted, there is no there is not even a paper you can point to
in the literature to work backwards that
way. And I think in this case, the big
problem is there is no documentation of a
head injury with which to anchor the
opinion.
EH at 540-41. Dr. Mayberg testified that a PET

196a
scan offers a snapshot of how the brain is functioning
at the time of the scan and therefore no inferences can
be made on how the brain was functioning a week
before the scan. EH at 542-43.
Dr. Mayberg was shown Petitioner’s Exhibit 40,
and she identified it as a copy of Clemons’s PET scan.
EH at 558. Dr. Mayberg testified that Clemons’s brain
scan is displayed in color and black and white data
images. EH at 558-59. Dr. Mayberg testified that
Clemons’s brain scan was displayed “to the maximum
pixel of the whole study.” EH at 559. Dr. Mayberg
testified that displayed to the maximum pixel is as
follows:
...You then instruct the computer to
display it for you so you can look at the
inside and the outside, and it’s produced
with tomography. I mean, tomography is
slices. Okay. You give that, the
instruction, right at the time at
Knollwood. You then are having to look
at the pictures. And so what does the
computer do, because this is all actually
numbers that have been reconstructed
into these pictures. So it has to decide
how does it know what pixel to assign
what color. Well, what it does is it goes
through all the slices it has, this huge
matrix of information, big volume, right,
of a particular size. It goes through every
line in this big queue, and it looks for the
counts. And each pixel has got different
counts. And it goes through, and it finds
the one that is the maximum of every
single pixel in the study. That’s called the
maximum pixel. That is now, by

197a
convention, assigned
brightest color.

the

top,

the

EH at 559-60. Dr. Mayberg’s expert opinion is that
Clemons’s brain scan “is a normal study. I don’t see
any brain abnormalities.” EH at 566.
Dr. Mayberg testified that Dr. Wu’s normal data
base group is displayed in copies of brain scans that
were labeled Petitioner’s Exhibit 39. EH at 561-62. Dr.
Mayberg testified that Dr. Wu’s normative group’s
brain scans are displayed to the whole brain average,
which is a different scale display from the one
displayed in Clemons’s brain scan. EH at 564-65. Dr.
Mayberg defined the display scale of whole brain
average as the following:
So it’s as if the big picture has every pixel in that, it’s
been determined with the average value is for all the
pixels in the brain. And you, in essence, divide the
entire picture by the average of the whole brain, and
you create a new picture.
EH at 564. Therefore, there is no dispute between
Dr. Wu and Dr. Mayberg that Clemons’s brain scan
was displayed in the scaling procedure called region to
the maximum pixel and Dr. Wu’s normal data base
brain scans are displayed in region to the whole brain
average.
Dr. Mayberg testified that Dr. Wu used unreliable
scientific methods in comparing Clemons’s brain scan
to Dr. Wu’s normal data base because they are
displayed in different scaling methods. Dr. Mayberg in
the relevant part testified as follows:
But most importantly is the display as they [the
normal control group] have been scaled to the average
of the whole brain, which

198a
means that the scaling in the appearance of them or
any one of the people that contributed to that is, by
definition, going to look totally different than someone
who is actually displayed to the image maximum [as
Clemons was]. That’s not a fair comparison.
So if the basis of saying that Mr. Clemons is
different from - is abnormal and that he has
frontal lobe abnormalities and, to prove it, look
at him next to a set of normal controls, and Mr.
Clemons displayed the same.
And I know that he wasn’t displayed the same,
because the data that led to that construction is
Mr. Clemons only displayed to the image
maximum. EH at 569-570.
Dr. Mayberg offered a hypothetical example of why
it is not scientifically reliable to make a visual
comparison of brain scans displayed in two different
scaling procedures. Dr. Mayberg testified as follows:
Another way to think about it is if you actually use
numbers. say the actual activity in the frontal lobe is
a five and the maximum activity in the brain is a ten,
so that the frontal lobe relative to the hottest activity
would be about half the value, which means that, on a
color scale, it will be in the middle. It will look very
different. [Dr. Mayberg is describing the scaling
procedure of region displayed to the maximum pixel].
But say the average of the brain is also around five,
and suddenly you divide the entire image by five. [Dr.
Mayberg is describing the scaling procedure of region
displayed to the whole brain average]. Now, five
compared to five is about equal, whereas five compared
to ten is like half. Of course, they are going to look
different in terms of when you are looking at them.

199a
EH at 592. Dr. Mayberg testified that if you
displayed one person’ s brain scans in the two different
scaling procedures described above, those brain scans
would look different. EH at 590. Dr. Mayberg testified
that if you make a visual comparison between two
different brain scans then they have to be displayed in
the same scaling procedure. EH at 588.
Dr. Mayberg also questioned the reliability of any
findings based upon displaying data images in JPEG
files.
Dr. Mayberg testified that data images in a DICOM
file format are in their original or native format. EH at
580. Dr, Mayberg testified that if a file format is in its
original format then “you can choose to display it to
image maximum, you can make a calculation to figure
out the average.” EH at 580. Dr. Mayberg testified that
data images in the JPEG file format have been
compressed and lose any scientific reliability because
that format “removes data.” EH at 580. Dr. Mayberg
concluded that a co parison study using a brain scan
in a JPEG file format is “unreliable” and “invalid.” EH
at 581-82.
Dr. Mayberg testified that making visual
comparisons of brain scans made on two different PET
scan machines impacts the reliability of the findings.
Dr. Mayberg stated that the machines have “different
inherent resolutions” and that they have different
“attenuation correction.” EH at 607-09. Dr. Mayberg
concluded by stating that “if we are going to look at
pictures [of brain scans], we should be looking at
pictures on the same machine.” EH at 609.
Dr. Mayberg testified that even if Clemons has low
metabolism in his frontal and temporal lobes that does
not mean anything significant about how his brain is

200a
functioning. EH at 610-11. Furthermore, Dr. Mayberg
testified that Clemons’s brain scan does not state
anything significant about how his brain was
functioning at the time of the crime. EH at 610-11.
Specifically, Dr. Mayberg stated as follows:
But ordinarily if you are coming to the table with a
PET scan de novo now trying to make any inferences
to an uncharacterized neurologic or psychiatric
condition in the past is, and even well characterized
and say I know what someone’s PET scan would have
been like in the past, is absolutely impossible.
EH at 611. Dr. Mayberg testified that any frontal
and temporal lobe abnormalities that Clemons may (or
may not) have provide no insight into his state of mind
at the time of the crime. EH at 615.
On cross examination, Dr. Mayberg stated that she
drew the line on the use of PET scans “when the
qualification is where has the scientific literature
shown reliability to use a scan in an individual to
confirm a diagnosis.” EH at 637. Dr. Mayberg
disagreed that someone with a low IQ has a “cognitive
deficit.” EH at 661. Dr. Mayberg stated that someone
who scores in the low 70’s on IQ tests should not nec
ssarily be characterized as having a “cognitive def cit,”
but rather that they have “low intelligence.” EH at
661. Dr. Mayberg also testified that in her visual
examination of Clemons’s brain scan not all of the
images show that Clemons’s brain is less active in the
front than in ‘the back. EH at 669-70. Dr. Mayberg
further testified that none of the black and white
images demonstrate that Clemons’s frontal lobes are
less active. EH at 770.
Dr. Mayberg testified that there is no consistent
scan pattern for a moderate brain injury. EH at 677.

201a
Dr. Mayberg testified that the literature that poor
performance on the Wisconsin Card Sort test
correlates with decreased frontal lobe activity as
shown on a PET test relates to testing of persons with
schizophrenia and “in the context of head injury where
there is actually brain abnormalities.” EH at 687. Dr.
Mayberg agreed that in case studies of people with
structural lesions or as she termed it “big holes in the
frontal lobe” there is a correlation with poor
performance on the Wisconsin Card sort test and low
metabolism in their frontal lobes as demonstrated by
a PET test. EH at 695-99.
Dr. Mayberg agreed that a PET scan can be used to
diagnose “focal neurological findings” in persons who
have sustained a head injury “within a week or so” of
the PET scan. EH at 707. Dr. Mayberg stated she had
not seen any medical records documenting that
Clemons had a head trauma due to a closed head
injury. EH at 711-13. Dr. Mayberg stated that the
standard of practice does not allow a doctor to diagnose
a head or brain injury twenty plus years after the
injury occurred. EH at 714-15.
D. Analysis of the Claim
Assistance of Counsel

of

Ineffective

This Court first addresses whether the PET scan
and Dr. Wu’s testimony interpreting the scan meets
the standards for admissibility of scientific evidence.
Second, assuming Dr. Wu’s testimony is admissible,
the Court addresses whether it proves trial counsel
was ineffective at the penalty phase. Third, the Court
addresses whether trial counsel was ineffective for not
having a neuropsychological evaluation performed to
investigate Clemons’s alleged “limited mental
capacity.” Clemons, 2003 WL 22047260, *4.

202a
Finally, the Court considers the United States
Supreme court’s decisions in Wiggins v. Smith, 539
U.S. 510 (2003), and Williams v. Taylor, 529 U.S. 362
(2000), in reviewing Clemons’s claim that his death
sentence is “unauthorized as a letter of law.” Id. at *4.
1. Evidence relating to the PET scan
Before addressing the admissibility of the PET
scan and Dr. Wu’s testimony, this part of the
ineffectiveness claim is due to be denied for two
separate reasons. First, there is no claim in the Rule
32 petition that trial counsel was ineffective for not
having a PET scan performed on Clemons and then to
present testimony from an expert who interpreted the
scan. Rule 32.3 of the Alabama Rules of Criminal
Procedure places the burden on the petitioner to plead
and prove “by a preponderance of the evidence the
facts necessary to entitle the petitioner to relief.”
Because no claim related to a PET scan was ever
raised in Clemons’s Rule 32 petition, this claim is not
preserved for appellate review. See Arrington v. State,
716 So. 2d 237, 239 (Ala. Crim. App. 1997) (“[a]n
appellant cannot raise an issue on appeal from the
denial of a Rule 32 petition which was not raised in the
Rule 32 petition”). Although this Court allowed Dr.
Wu’s testimony out of an abundance of caution because
the case was on remand, any claim or contention
related to Clemons’s brain scan is denied because it
was not pleaded in the Rule 32 petition.
Second, this claim is denied because there was not
a PET scan machine in Alabama at the time of
Clemons’s trial in 1994. Trial counsel cannot be held
ineffective for not having a PET scan administered to
Clemons when there was not the availability of such a

203a
test in Alabama. The University of South Alabama
(Knollwood Hospital) did not obtain a PET machine
until June 26, 2002. See Respondent’s Exhibit 3. The
University of Alabama at Birmingham did not obtain
a PET machine until 2001. See Respondent’s Exhibit 4.
This claim fails on the very basic reality that there was
not a PET scan machine in Alabama at the time of
Clemons’s trial in 1994.
Now the Court turns to whether the PET scan and
Dr. Wu’s testimony interpreting the scan meets the
standards for admissibility of scientific evidence. “In
Alabama, the standard for determining the
admissibility of scientific evidence other than DNA
evidence is that set forth in Frye v. United States, 293
F. 1013 {D.C. Cir. 1923).” Minor v. State, 2004 WL
1909380, *17 (Ala. Crim. App. 2004). “Under the Frye
standard, expert testimony concerning a scientific or
medical principle will be admissible only when the
proponent of the evidence establishes that the
principle has achieved general acceptance in the
scientific field to which it belongs.” Hoosier v. State,
612 so. 2d 1352, 1353 (Ala. Crim. App. 1992). In other
words, the Frye standard refires that the generally the
proponent of scientific evidence to establish theory and
method used by the expert witness were accepted
within the relevant scientific community. Clemons
clearly failed to meet his burden of demonstrating
compliance with the Frye test.
As the Court best understands Clemons’s
contention, it is that a PET scan can be used to
diagnose a brain trauma or ‘injury even if the event
precipitating such an injury occurred thirty years
before the administration of the PET scan. Clemons’s
Rule 32 petition asserts that Clemons has “poor
executive functioning because he suffered a brain

204a
injury at or near birth. 10 R32 at 632. Because Clemons
was born on September 28, 1971, see R32 at 1314, and
Dr. Wu performed a PET test thirty three years later
in 2004, the Court has to assume that Clemons is
asserting a PET scan can be used to determine
whether he sustained a brain injury or trauma at or
near the time of his birth which occurred 33 years
before the administration of the PET brain scan.
In order for Dr. Wu’s testimony to be admissible,
Clemons has to demonstrate that the use of PET scan
imaging to 1diagnose brain trauma or injury from a
non-specific event that occurred thirty plus years from
the administration of the brain scan is generally
accepted in the field of brain imaging and neurology.
Dr. Wu’s overall conclusion is that Clemons’s brain
scan pattern “is consistent with an abnormal frontal
lobe function and consistent with ... a history of
traumatic brain injury.” EH at 414. However, none of
the journal articles mentioned during Dr. Wu’s
testimony state that a PET scan can be used to
diagnose a non-specific brain injury that occurred 33
years before the administration of the brain scan.
Dr. Wu conceded that the articles used during his
direct examination to support the notion that a PET
scan can be used to diagnose brain trauma actually are
all case studies where the subject has suffered a severe
or documented closed head injury and lost

10 Clemons has not offered any evidence to support the theory that
he suffered a brain injury at or near birth. To the extent that
Clemons has offered non­specific testimony that his mother
drank during her pregnancy with him, there is np medical
documentation demonstrating that Clemons was born suffering
from the effects of fetal alcohol syndrome. Indeed, Clemons does
not make that assertion.

205a
consciousness or was in a coma. EH at 479-80, 480-81,
481-82, 485, 485-86, 486-87. Moreover, none of these
articles support using a PET scan to diagnose a brain
trauma or injury 33 years after a severe closed head
injury.
In addition, Dr. Wu had to concede that one of the
journal articles disproved his testimony that
decreased metabolism in the frontal lobes is the
consistent pattern of one suffering from a brain injury
or trauma. Dr. Wu admitted that the findings in a case
study of 20 persons who. had suffered a mild to
moderate closed head injury with altered
consciousness showed that the frontal lobes were not
usually affected. EH at 482-85. This same case study
demonstrated that when the frontal lobes were
affected by a closed head injury, the glucose metabolic
rates in the frontal lobes were typically statistically
higher (i.e., two standard deviations above the
average) than the- rate in a normal control group, and
not lower as Dr. Wu found was present in Clemons’s
brain scan. EH at 483-85. Dr. Wu conceded that
Clemons’s brain scan pattern is different than the
brain scan patterns documented in the case study of
the 20 persons that sustained a documented head
injury. EH at 482.
Dr. Mayberg testified that it is not generally
accepted in the field of nuclear medicine and neurology
to use a PET scan to diagnose a brain injury twenty
plus years after the alleged injury or incident occurred.
EH at 540-41. Dr. Mayberg testified that a PET scan
offers a snapshot of how the brain is functioning at the
time of the scan and therefore no inferences can be
made on how the brain was functioning a week before
the scan. EH at 542-43. Indeed, Dr. Mayberg stated
that the results of a PET scan can be affected by what

206a
a person is doing during the administration of the
radioactive chemical or by how the subject is feeling
that day. Dr. Mayberg testified that there is no
consistent scan pattern for a moderate brain injury.
EH at 677. Dr. Mayberg testified that the literature
that poor performance on the Wisconsin Card Sort
Test correlates with decreased frontal lobe activity as
shown on a PET test relates to testing of persons with
schizophrenia and “in the context of head injury where
there is actually brain abnormalities.” EH at 687.
The Frye test requires the proponent of scientific
evidence to establish that the theory and method used
by the expert witness were generally accepted within
the relevant scientific community. Clemons clearly
failed to meet his “burden of demonstrating
compliance with the Frye test.” Prewitt v. State, 460
so. 2d 296, 302 (Ala. Crim. App. 1984). In order to
establish general acceptance of the use of PET scans to
diagnose brain trauma from a non-specific event that
occurred thirty plus years ago, Clemons has to show
substantial agreement among a cross-section of the
relevant scientific community. Clemons has to
demonstrate a consensus in the field, which Dr. Wu’s
testimony did not. This Court’s review of the testimony
of Doctors Wu and Mayberg and the references to the
pertinent medical journals mentioned at the remand
hearing reveals that no one (with the exception of Dr.
Wu) in the neurology and brain imaging community
supports the use of PET scans to diagnose brain injury
or brain trauma from a non- specific event that
occurred thirty plus years before the administration of
the brain scan. Therefore, Dr. Wu’s testimony is
inadmissible because it does not meet the Frye test.
Even if Dr. Wu’s testimony is admissible, it does
not prove that Clemons’s trial counsel were ineffective.

207a
This Court is quite skeptical of Dr. Wu’s testimony and
wholeheartedly agrees with the sentiment of other
courts who have examined Dr. Wu’s testimony. In
excluding Dr. Wu’s testimony that was very similar to
the testimony he gave in this Court, a California
appellate court found the opinion of Dr. Waxman, the
neurologist called by the State, to be more credible.
People
v.
Protsman,
105
Cal.Rptr.2d
819
(2001)(unpublished opinion). The Court stated that
experts in the field “had not accepted the use of PET
scans for detecting or evaluating brain traumas at a
time remote from the injury.” Id. at 822. The Court
credited the State’s neurologist’s testimony that “Dr.
Wu’s use of PET scan imaging to purportedly diagnose
head trauma in people who were walking and
functioning was not acceptable.” Id. In another case, a
federal district judge, after considering the testimony
of Dr. Wu, ruled that “the Court had the uneasy feeling
that Dr. Wu’s testimony was so flawed that it was
listening to a hired gun anxious to make the PET scan
the instrument of truth.” Jackson v. Caderon, 1997 WL
855516, *73 (C.D. Cal. 1997)(unpublished order).
Dr. Wu conceded that the method he used to
determine that
Clemons’s
brain
scan
was
abnormal was to visually compare it to the brain
scans of his normal control group. EH at 493.
However, he conceded that Clemons’s brain scan was
displayed using a different scaling procedure from
the one he uses to display his normal control group.
EH at 454, 460, 468. As Dr. Mayberg testified,
Dr. Wu used unreliable scientific methods to make
his visual comparison. Dr. Mayberg explained that
if you displayed one person’s brain scans in the
two different scaling procedures, those brain scans
would look different. EH at 590. Dr. Mayberg
testified that if you make a visual

208a
comparison between two different brain scans then
they have to be displayed in the same scaling
procedure. EH at 588.
Another reason why Dr. Wu’s testimony fails to
establish ineffective assistance of counsel is because
his methods in using particular computer file formats
were unreliable. Dr. Wu was given Clemons’s brain
scan images in the DICOM file format that allowed
him to make a statistical comparison and to display
Clemons’s brain image in the same scaling procedure
that he uses to display his normal control group.
Instead, Dr. Wu asked the medical technician at
Knollwood Hospital to display Clemons’s brain scan
images in the JPEG file format which does not allow
for any manipulation of the data. In addition, as Dr.
Mayberg explained, data images in the JPEG file
format have been compressed and lose any scientific
reliability because that format “removes data.” EH at
580. Dr. Mayberg concluded that a comparison study
using a brain scan in a JPEG file format is “unreliable”
and “invalid.” EH at 581-82. Clemons did not provide
any rebuttal to Dr. Mayberg’s testimony despite being
given the opportunity to do so. Because it does appear
that Dr. Wu used invalid methods to arrive at his
opinions, the Court finds that trial counsel were not
ineffective for not presenting his testimony.
Even assuming Dr. Wu’s methods were not invalid
and unreliable, his testimony still does not prove
ineffective assistance of counsel. Dr. Wu’s overall
conclusion was that Clemons’ brain scan was
abnormal because of decreased metabolism in the
frontal and temporal lobes. EH at 328. However, Dr.
Mayberg testified that Clemons’s brain scan “is a

209a
normal study. I don’t see any brain abnormalities.”
EH at 566. The Court of Criminal Appeals has
stated that when the “evidence concerning the [Rule
32 petitioner’s] mental condition was conflicting, we do
not conclude that counsel rendered ineffective
assistance by not presenting this evidence during the
penalty phase. Taylor v. State, 2004 WL 1909278, *22
(Ala. Crim. App. 2004). This Court concludes in the
face of conflicting evidence it cannot find that trial
counsel was ineffective.
Finally, this part of the ineffectiveness claim is
rejected because there is nothing in the record that
demonstrates trial counsel had any indication he
should have a brain scan performed on Clemons by Dr.
Wu. “To prove that he was prejudiced by counsel’s
failure to investigate and to produce a certain type of
expert [Rule 32] petitioner must demonstrate a
reasonable likelihood that an ordinarily competent
attorney conducting a reasonable investigation would
have found an expert similar to the one eventually
produced.” Elledge v. Dugger, 823 F.2d 1439, 1446
(11th Cir. 1987), opinion withdrawn on a different
issue on denial of rehearing by, Elledge v. Dugger, 833
F.2d 250 (11th Cir. 1987). This court is not prepared to
say that a reasonable investigation required trial
counsel to find a PET scan expert. There were no
indications in any of Clemons’s mental health
evaluations that such a test should be performed.
Additionally, in 1994, because there were no PET scan
machines in Alabama, it was impossible to have such
a test performed. Furthermore, it can be viewed that
Dr. Wu is a “hired gun,” as indicated by his testimony
that in criminal cases he always testified on behalf of
criminal defendants and in every case but one he found
a brain abnormality. EH at 435-36. Although hiring

210a
Dr. Wu produces a virtual certainty that he will testify
that a criminal defendant has a brain abnormality,
this fact only produces the very unremarkable fact
that trial counsel can always find an expert who will
testify to something that is possibly helpful to a
criminal defendant. Additionally, it is impractical to
believe that trial counsel would have been approved
funds to hire an expert like Dr. Wu who charged well
over $10,000 for his work in this case. This Court finds
that a reasonable investigation for mitigating evidence
does not include presenting the testimony of a PET
scan expert.
2. Evidence
relating
neuropsychological Testing

to

The Court now turns to whether trial counsel were
ineffective for not having a neuropsychological
evaluation performed to investigate Clemons’ s alleged
“limited mental capacity.” Clemons, 2003 WL
22047260, *4. As previously trial counsel’s
investigation into mitigating evidence was hampered
by Clemons’ s family who were uncooperative and even
hostile to trial counsel. Despite this, trial counsel
developed a strategy of presenting evidence that
Clemons had a difficult life and waslaw abiding until
he fell in with the wrong crowd. R32 Vol. 33 at 646970. To that end, trial counsel planned to present the
testimony of Clemons’ s grandmother to testify as to
Clemons’ s difficult upbringing and the effect it had on
Clemons joining the wrong crowd. R32 Vol. 33 at 646970.
As a part of this strategy to humanize Clemons,
trial counsel also wanted Clemons to apologize and
admit his guilt and beg for mercy. R32 Vol. 33 at 6470.
The United States Supreme Court states the following

211a
in regards to trial counsel making strategic choices
after conducting a reasonable investigation:
...strategic choices made after thorough
investigation of law and facts relevant are
virtually unchallengeable; and strategic
choices made after less than complete
investigation are reasonable precisely to the
extent
that
reasonable
professional
judgments support the limitations on
investigation. In other words, counsel has a
duty to make reasonable investigations or to
make a reasonable decision that makes
particular investigations unnecessary. In
any ineffectiveness case, a particular
decision not to investigate must be directly
assessed for reasonableness in all the
circumstances, applying a heavy measure of
deference to counsel’s judgments.
Strickland, 466 U.S. at 690-91. This Court finds
that the record demonstrates trial counsel made a
strategic decision after considering all of his options,
including having a mental health evaluation
performed, to humanize Clemons. The fact that
Clemons’s grandmother and Clemons refused to testify
after Clemons’s outburst does not make trial counsel’s
decision unreasonable.
Clemons presented testimony at the remand
hearing from Dr. Golden, a neuropsychologist
psychological evaluation on Clemons, who performed a
psychological evaluation on Clemons.
Dr. Golden’s overall conclusion was that Clemons
had a cognitive disorder not otherwise specified, which
he called a catch-all diagnosis used for an individual

212a
“with a brain injury or brain dysfunction of some kind
that doesn’t rise to the level of dementia or deliria,”
which he stated Clemons does not have. EH at 20. Dr.
Golden gave Clemons’s tests from the Luria- Neb
raska test battery and concluded, based on the results
of those tests, that Clemons has “frontal lobe
dysfunction.” EH at 51. Dr. Golden further concluded
that, because of these conditions, Clemons was more
“susceptible to the suggestions of others,” impulsive,
and not aware of the consequences of his behavior. EH
at 193, 199.
Dr. Golden’s testimony fails for several reasons to
establish ineffective assistance of counsel, perhaps
most notably because his overall conclusions about
Clemons are wrong. Contrary to Dr. Golden’s
conclusion that Clemons was a dull-witted follower,
Clemon’s post-crime conduct supports the notion that
he was a crafty criminal intent on minimizing his
culpability and establishing a defense to his crime.
This finding is perhaps best supported by examining
Clemons’s statement to the FBI. Supp.R.-Exhibits Vol.
4 at pp. 1-5. In the statement, Clemons stated he was
picked up by Kenny Reid and Dedrick Smith who both
had guns and were talking about taking cars at
gunpoint. Id. at p. 1. As they were riding around
looking for cars, Clemons told them, “if you’re going to
take cars, take me home.” Id. at p. 1.
They saw a black Camara at a convenience store
and Reid and Smith told Clemons to take the car. Id.
at p. 2. When Clemons hesitated, they taunted him. Id.
As Clemons exited the, car, they threw a gun for him
to use.
Id. Clemons stated he only fired his gun after Agent
Althouse drew his gun’. Id.

213a
Other facts presented at Clemons’s trial
demonstrate that Clemons’s statement contained
numerous false statements. A week before the murder,
Herman Shannon testified that Clemons came to his
house and asked if anyone had a gun. R. 1423.
Shannnon [sic] gave Clemons a gun and testified that
it was the same gun Clemons was in possession of
immediately after the crime occurred. Id. Shannon’s
testimony indicates that Clemons acted with
premeditation by obtaining a gun a week before he
carried out the carjacking.
Kenny Reid, who was in the car with Clemons right
before the murder occurred, testified that it was
Clemons who told the driver to pull into the Chevron
gas station.
R. 1327-28. Clemons, referring to a car parked at
the gas station, yelled “that’s it, right there.” R. 1329.
Smith let Clemons out and parked at the Wendy’s next
door to the gas station. R. 1330. Soon thereafter, Reid
heard two gunshots and then several more rounds of
shots and saw Clemons drive through a red light at a
high rate of speed.
R. 1331-32. Reid said that when he saw Clemons
later that night, Clemons instructed him not to talk
because he had killed a DEA man. R. 1335. Leon
Johnson, who was at the house where Clemons drove
immediately after the murder, stated that Clemons
said he would kill him if he talked to the police. R.
1449. These facts demonstrate that Clemons was not
a dull-witted follower but rather that he had a
deliberate plan to carjack a car and that he was willing
to silence anyone who talked to the police. In addition,
Clemons’s facile attempt to allege “self-defense” is
disproved by the pathologist’s testimony that showed

214a
the two gunshot wounds indicated Agent Althouse was
attempting to exit the car while he was being shot. R.
1574.
Other facts disproving Dr. Golden’s conclusions are
that Clemons repeatedly engaged in similar criminal
activity. There was evidence presented at trial that
indicated Clemons carjacked cars on three separate
occasions at gunpoint. R. 1478-80, 1493-99, 1503-08.
In all of these crimes, Clemons committed the forcible
taking of the car without any assistance. Clemons’s
ability to repeatedly engage in illegal behavior refutes
the notion that he was a follower that never acted on
his own criminal instincts.
The second reason that Dr. Golden’s testimony does
not establish ineffective assistance of counsel is that
trial counsel conducted a reasonable investigation into
presenting mental health testimony. Trial counsel had
available four different psychological evaluations that
had been done before Clemons’s federal trial. The
reports from all four evaluations noted that Clemons
had malingered in an effort to feign mental illness.
R32 Vol. 7 at 1281 (“I am strongly suspicious of
malingering especially in regard to his supposed
psychosis.”); R32 Vol. 7 at 1299, 1324 (overall
conclusions in both reports were that Clemons was
malingering). Trial counsel testified at the first Rule
32 evidentiary hearing that he talked with Dr. Grant,
a psychiatrist, who had performed an evaluation
before Clemons’s federal trial. Trial counsel recalls
talking to Dr. Grant about testifying and he recalls Dr.
Grant stating that his testimony would not be helpful.
R32 Vol. 33 at 6477-78. In addition, if he called Dr.
Grant the State could have inquired into Dr. Grant’s
opinion that Clemons malingered during the
evaluation. R32 Vol. 33 at 6480-81.

215a
In fact, the only psychologists who have performed
evaluations of Clemons and concluded that he was not
malingering were Dr. Golden and Dr. Ackerson, the
two psychologists hired by Clemon’s present counsel.
Dr. King, who administered a neuropsychological test
battery in 2004 as a part of the remand proceedings,
found that his results indicated that Clemons was
malingering. EH at 837. Dr. King’s findings are
consistent with all of the psychological evaluations
performed before Clemons’s trial. Because of
Clemons’s history of malingering, trial counsel cannot
be held ineffective because there has been no evidence
presented that shows Clemons would have cooperated
with a psychologist in 1994.
The third reason that Dr. Golden’s testimony did
not establish ineffective assistance of counsel is that
his testimony that Clemons is “brain damaged” is
incredible. Dr. Golden’s conclusions are based upon
the results of testing that are dubious at best
considering Clemons’s past and present history of
malingering. Moreover, Dr. Golden seems to use the
results of the tests that he gave as evidence of brain
dysfunction even though the only basis for inferring
brain disease is the socially unacceptable act that
Clemons committed. Dr. Golden’s testimony that
Clemons’s “brain damage” explains this crime is
implausible. In fact, there is no evidence that supports
the notion that Clemons is “brain damaged.”
Clemons’s intellectual functioning has been consistent
over time, beginning with the intelligence test that he
took when he was six years old. Clemons borderline
intellectual functioning, which Dr. Golden seems to
equate with someone being brain damaged, see EH at
140, is not the reason that he committed this murder
nor does it explain his other criminal acts.

216a
Finally, this part of the ineffectiveness claim is
rejected because seemingly hiring a “hired gun” such
as Dr. Golden to perform a mental health evaluation
does not establish trial counsel did not conduct a
reasonable investigation. Dr. Golden revealed that
when he testified in criminal cases it is always on
behalf of criminal defendants and never on behalf of
the prosecutor. EH at 201-02. In addition, it is
impractical to believe that any court would authorize
funds of $25,000-$30,000 to hire Dr. Golden, which is
the amount that Clemons’s present counsel paid him
for his work in this case. Although hiring Dr. Golden
produces a virtual certainty that he will testify that a
criminal defendant has “brain damage,” this fact only
produces the very unremarkable fact that an expert
can always be found who will testify to something to
something that is possibly helpful to a criminal
defendant. This court finds that a reasonable
investigation for mitigating evidence does not include
presenting the testimony of a neuropsychologist,
especially when none of the psychologists who had
evaluated Clemons made such a recommendation.
E. Wiggins and Williams
In the final part of this order, the court considers
the United States Supreme Court’s decisions in
Wiggins v. Smith, 539 U.S. 510 (2003), and
Williams v. Taylor, 529 U.S. 362 (2000), in reviewing
Clemons’s claim that his death sentence is
“unauthorized as a matter of law.” Clemons, at *4 n.
8. Before addressing the reasons why those cases can
be distinguished from this case, it is important to
remember what the Eleventh Circuit stated in
rejecting the claim that Williams v. Taylor
imposed a duty to investigate for mitigating
evidence.

217a
Specifically, the Eleventh Circuit stated the
following: We understand Williams to create no
mechanistic rule of law at all for investigation or for
presentation of evidence in capital cases. See generally
Cohens v. Virginia, 19 U.S. (6 Wheat.) 264, 399, 5
L.Ed. 257 (1821) (Marshall, C.J.) (1). It is a maxim not
to be disregarded, that general expressions, in every
opinion, are to be taken in connection with the case in
which those expressions are used. 11); Crawford-El v.
Britton [sic], 523 U.S. 574, 118 S.Ct. 1584, 1590 (1998)
(“There is, of course, an important difference between
the holding in a case and the reasoning that supports
that holding.”) Chandler v. U.S., 218 F.3d 1305, 1317
n. 21 (11th Cir. 2000). In other words, these cases turn
on their own facts and Williams or Wiggins do not
command the outcome of this case.
The additional “mitigating” evidence presented by
Clemons stands in stark contrast to evidence
presented in Williams v. Taylor. In Williams, 529 U.S.
362, 120 S.Ct. 1495 (2000), the Supreme Court stated
that the evidence which was not presented included:
“documents prepared in connection with Williams
commitment when he was 11 years old that
dramatically described mistreatment, abuse, and
neglect during his early childhood, as well as
testimony that he was borderline mentally retarded,
had suffered repeated head injuries, and might have
mental impairments organic in origin.” Id., 529 U.S. at
370, 120 S.Ct. at 1501. In addition, there was evidence
that Williams had received commendations for helping
to crack a prison drug ring and for returning a prison’s
guard’s wallet, and testimony from prison officials who
described Williams as being nonviolent. The United
States Supreme Court, in finding trial counsel
ineffective at the penalty phase, noticed that trial

218a
counsel did not present evidence describing Williams’s
nightmarish childhood because they incorrectly
believed state law barred access to such records. Id. In
contrast, Clemons offered evidence in this remand
hearing of two expert witnesses who were paid
approximately $40,000 to offer dubious evidence that
Clemons is “brain damaged.”
In addition, this case does not present the situation
like the one in Wiggins v. Smith, 539 U.S. 510, 123
S.Ct. 2527 (2003), especially when considering that
trial counsel had a plan to present mitigating evidence
that would humanize Clemons. For example, the
evidence the jury did not hear was the defendant’s long
history of severe physical and sexual abuse at the
hands of his alcoholic mother and various foster
parents. That abuse included going for days without
food, his hospitalization for physical injury, and
repeated rapes and gang-rapes.
Wiggins, 539 U.S. at ___, 123 S.Ct. at 2533. The
abuse occurred throughout his childhood, teenage
years, and even into early adulthood and was
documented in medical, school, and social services
records. Id. The United States Supreme Court
described the mitigating evidence that was not
presented at trial as the defendant’s “excruciating life
history.” Id. at 123 S.Ct. at 2543. All that was offered
in mitigation in Wiggins was that the defendant had
no prior convictions. Id. at 123 S.Ct. at 2533.
This case is not Wiggins or Williams. Even though
trial counsel was hampered in his investigation by
Clemons’s family, they settled upon a strategy of
presenting evidence that Clemons had a difficult life
and was law abiding until he fell in with the wrong
crowd. To that end, trial counsel planned to present

219a
the testimony of Clemons’s grandmother to testify as
to Clemons’s difficult upbringing and the effect it had
on Clemons getting in with the wrong crowd. As a part
of this strategy to humanize Clemons, trial counsel
also wanted Clemons to apologize and admit his guilt
and beg for mercy. As previously stated, trial counsel
did not present this testimony because Clemons and
his family refused to come to court after they both
caused an outburst in the courtroom. In addition, trial
counsel investigated for mental health testimony by
contacting one of the psychiatrists who had examined
Clemons before the federal trial but were told the
testimony would not be favorable. Furthermore,
Clemons’s history of malingering on mental health
evaluations would have been brought out if any mental
health professional would have testified.
Clemons has not established by a reasonable
probability that the balance of aggravating and
mitigating circumstances did not warrant a death
sentence.
For all of the reasons stated above, this Court
denies Clemons’s claims raised as a result of the
remand in this cause.
DONE and ORDERED this 28th day of October,
2004.
s/ D. Al Crowson
D. Al Crowson
Circuit Judge

220a
APPENDIX J
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF
ALABAMA SOUTHERN DIVISION
EUGENE MILTON
CLEMONS, II,
Petitioner,
v.
KIM T. THOMAS,
Commissioner, et al.
Respondents.

)
) 2:10-cv-02218-LSC
)
)
)
)
)
)
)
)
)

ORDER
This is a petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254 filed by Petitioner Eugene
Milton Clemons, II (“Clemons”), a death row inmate at
Holman Correctional Facility in Atmore, Alabama. The
only claim that remains pending before this Court is
Clemons’s claim that he is mentally retarded 1 and,
Although the clinical field now uses the term “intellectually
disabled” rather than “mentally retarded,” the Court will use the
latter terminology in keeping with that used by the state and federal
authorities, the parties, and the experts at the time of Clemons’s
hearing on this issue.

1

221a
therefore, ineligible for the death penalty, pursuant to the
Eighth and Fourteenth Amendments to the United States
Constitution. See Atkins v. Virginia, 536 U.S. 304, 321, 122
S. Ct. 2422, 2242 (2002) (holding that under the Eighth
Amendment “death is not a suitable punishment for a
mentally retarded criminal”). After conducting an
evidentiary hearing, the Alabama courts denied
Clemons’s Atkins claim on the merits. This Court’s
review is thus circumscribed by the parameters of 28
U.S.C. § 2254(d). If Clemons is mentally retarded, then
Atkins will require that his death sentence be vacated. The
Court is currently reviewing the record and briefs of the
parties, including Clemons’s motion for an evidentiary
hearing, in preparation for final adjudication of this
matter.
The Court is of the opinion that the Eleventh
Circuit’s reasoning in its recent unpublished decision of
Smith v. Campbell, 620 F. App’x 734 (11th Cir. 2015), has
some applicability and bearing on this case. Because
Respondent has not had the opportunity to distinguish or
otherwise discuss that opinion, Respondent is hereby
ORDERED to do so in a written brief filed with this Court
within fifteen (15) days from entry of this Order.
Further, in the interest of court administration
and for planning purposes, the Court hereby ORDERS
both parties to respond in writing to the following inquiry:
If this Court were to find, pursuant to 28 U.S.C. §
2254(d)(1) and/or (2), that the Alabama court’s decision
rejecting Clemons’s Atkins claim was either “contrary
to . . . clearly established Federal law,” or “involved an
unreasonable application of clearly established Federal
law,” or unreasonably determined the facts in light of
the evidence presented in that court, can and should this
Court find that Clemons is mentally retarded based

222a
solely on the record that was before the Alabama courts
and thus render an opinion directing the Alabama courts
to vacate Clemons’s death sentence and resentence him
to life without the possibility of parole, or must the Court
grant Clemons an evidentiary hearing to determine de
novo whether he is mentally retarded?
Responses shall be filed with this Court no later than
fifteen (15) days from the date of entry of this Order.
Further, unless a party believes that this Court cannot
legally grant such relief, each party is hereby DIRECTED
to submit a proposed order that would appropriately direct
the Alabama courts to vacate Clemons’s death sentence
and resentence him to life without the possibility of
parole.
DONE AND ORDERED ON JANUARY 13, 2016.
s/ L. Scott Coogler
L. SCOTT COOGLER
UNITED STATES DISTRICT JUDGE

223a
______________
APPENDIX K
______________

IN THE EIGHTEENTH JUDICIAL CIRCUIT
COURT, SHELBY COUNTY, ALABAMA
EUGENE MILTON CLEMONS, II,
Petitioner,
v.
STATE OF ALABAMA,
Respondent.
______________
PETITION FOR RELIEF FROM JUDGMENT
PURSUANT TO RULE 32 OF THE
ALABAMA RULES OF CRIMINAL
PROCEDURE

224a
Petitioner Eugene Milton Clemons II (#Z570),
presently incarcerated on death row at Holman State
Prison in Atmore, Alabama, petitions this Court for
relief from his unconstitutionally obtained conviction
and death sentence. In support of this Petition, Mr.
Clemons states the following:
PROCEDURAL HISTORY
1.
Mr. Clemons was indicted in Shelby
County on March 12, 1993 on two counts of capital
murder in violation of ALA. CODE §§ 13A-5-40(a)(2) &
(a)(5).
2.
On September 25, 1994, Mr. Clemons
was convicted of one count of capital murder. Later
that day, the jury returned a unanimous death
recommendation.
3.
On November 7, 1994, the Court
sentenced Mr. Clemons to death after finding one
aggravating factor and two mitigating factors.
4.
The Alabama Court of Criminal Appeals
affirmed Mr. Clemons’s conviction and sentence on
December 20, 1996. It denied Mr. Clemons’s request
for rehearing on January 17, 1997. Clemons v. State,
720 So. 2d 961 (Ala. Crim. App. 1997).
5.
The Supreme Court of Alabama affirmed
the judgment of the Court of Criminal Appeals on
January 16, 1998. It denied Mr. Clemons’s request for
rehearing on August 21, 1998. Clemons v. State, 720
So. 2d 985 (Ala. 1998).
6.
Mr. Clemons filed a timely petition for
writ of certiorari to the United States Supreme Court

225a
on November 19, 1998. The Supreme Court denied the
petition on January 25, 1999. Clemons v. Alabama,
119 S. Ct. 907 (1999).
7.
This timely petition pursuant to Rule 32
of the Alabama Rules of Criminal Procedure followed.
GROUNDS SUPPORTING THE PETITION FOR
RELIEF
8.
As described below, violations of Mr.
Clemons’s fundamental constitutional rights deprived
him of a fair and impartial trial. He is entitled to both
a new trial and sentencing hearing to fairly--and
constitutionally--determine his culpability for the
crime for which he was convicted.
I.

COUNSEL WAS INEFFECTIVE DURING
THE PRETRIAL STAGE OF MR.
CLEMONS’S TRIAL.

9.
Bob Williams and William R. Hill, Jr. of
the Public Defender’s Office initially represented Mr.
Clemons. Mr. Clemons sought new counsel after his
relationship with Messrs. Williams and Hill
deteriorated when he raised concerns about their
competency. The Court subsequently appointed
Mickey L. Johnson and Rodger D. Bass.
10.
Messrs. Williams, Hill, Johnson, and
Bass (collectively “Trial Counsel”) did not render
reasonably effective assistance of counsel during
pretrial proceedings thereby denying Mr. Clemons’s
his rights pursuant to the Fourth, Fifth, Sixth, Eighth,
and Fourteenth Amendments to the United States
Constitution; the Alabama Constitution; and Alabama
law. See Strickland v. Washington, 466 U.S. 668 (1984).

226a
A.

Trial Counsel Failed To Investigate
Adequately the Charges Against Mr.
Clemons.

11.
Trial
Counsel
must
adequately
investigate the charges against a capital defendant to
prepare an effective defense. Goodwin v. Balkcom, 684
F.2d 794, 805 (11th Cir. 1982) (“At the very heart of
effective representation is the independent duty to
investigate and prepare [the client’s case].”). Counsel
must investigate every avenue, challenge each
assertion by the State, and rigorously examine and
test the State’s case. Strickland, 466 U.S. at 691; see
also Code v. Montgomery, 799 F.2d 1481, 1483 (11th
Cir. 1986) (holding trial counsel was ineffective by
failing to interview all potential alibi witnesses).
12.
Trial
Counsel
conducted
little
independent investigation of the case. They met with
Mr. Clemons on only a few occasions prior to trial and
failed to establish a relationship of trust essential to
adequate representation. Moreover, counsel did not
sufficiently interview Mr. Clemons’s family, defense
witnesses, prosecution witnesses, or expert witnesses.
13.
Because
of
their
inadequate
investigation, Trial Counsel did not discover and use
for Mr. Clemons’ s defense information concerning,
inter alia, Mr. Clemons’s capacity to waive his
constitutional rights and his ability to stand trial. Mr.
Clemons’s defense was severely prejudiced as a result
of this failure because, without full information, Trial
Counsel abandoned these otherwise meritorious
defenses.

227a
B.

Trial Counsel Failed to Present,
Adequately Argue, and Obtain
Favorable Rulings on Numerous
Pretrial Motions.

14.
Trial Counsel failed to argue and obtain
favorable rulings regarding various pretrial motions,
did not adequately oppose various motions by the
State, and did not raise several crucial issues during
pretrial proceedings. These failures hindered Mr.
Clemons’s defense and resulted in the admission of
extremely prejudicial and otherwise inadmissible
evidence.
15.
Trial Counsel failed to brief and argue
adequately:
a. Motions to dismiss based on double
jeopardy and Ala. Code § 15-3-8;
b. A motion to exclude involuntary
admissions and confessions;
c. A motion for change of venue; and
d. An application for youthful offender
status.
16.
Trial Counsel failed to present an
adequate opposition to the State’s motion to consider
collateral crimes.
17.
During pretrial proceedings, counsel
neglected to:
a. Seek a fully sequestered voir dire and
demonstrate the necessity for individual
voir dire; and

228a
b. Seek a continuance after accepting the
representation less than three months
before trial which gave counsel
insufficient time to investigate the case
and prepare an adequate defense.
II.

TRIAL COUNSEL WAS INEFFECTIVE
DURING THE GUILT PHASE OF MR.
CLEMONS’S TRIAL.

18.
Trial Counsel did not render reasonably
effective assistance of counsel during the guilt phase
of Mr. Clemons’s trial. Consequently, Mr. Clemons
was denied effective assistance of counsel in violation
of the Fourth, Fifth, Sixth, Eighth, and Fourteenth
Amendments to the United States Constitution; the
Alabama Constitution, and Alabama law. See
Strickland, 466 U.S. 668.
A.

Trial Counsel Presented No Defense
Case.

19.
Trial Counsel offered no evidence on Mr.
Clemons’s behalf. Although Mr. Clemons was facing
the most serious and irrevocable punishment
available, counsel called no witnesses and offered no
tangible evidence. The State presented a virtually
unchallenged case. The jury, faced with only the
district attorney’s theory of Agent Althouse’s murder,
not surprisingly chose to convict Mr. Clemons. The
prejudice caused by Trial Counsel’s nonfeasance, in
light of the many possible defenses available to Mr.
Clemons, is self-evident.

229a
B.

Trial Counsel Failed to Challenge
Adequately the State’s Investigation
and Presentation of the Case.

20.
Mr. Clemons’s counsel failed to challenge
the State’s investigation and presentation of its case,
inadequately cross-examined State witnesses, and
neglected to object to irrelevant and prejudicial
evidence introduced by the State. As a result, the jury
was allowed to consider significant inculpatory
evidence that properly was excludable.
21.
Trial Counsel was ineffective in
challenging the admissibility of evidence introduced
by State witnesses. Counsel made few objections and,
on the rare occasions when objecting, offered little if
any legal or factual support.
22.
Trial Counsel failed to object to the
admission of gory, irrelevant photographs of the
victim. (Tr. 1121-30.)
23.
Trial Counsel did not object when the
State failed to establish a chain of custody for many of
the State’s exhibits.
24.
Trial Counsel did not object when the
State offered inadmissible hearsay evidence to prove
Mr. Clemons’s alleged motive. (Tr. 1410, 1424-25,
1439, 1445-46.)
25.
Trial Counsel allowed the State to use
Exhibit 67, a “mug shot”-like photograph of Mr.
Clemons, for purposes of in-court identification. (Tr.
1257-58.) As discussed infra, the use of a single-photo
array is unconstitutional because it is unduly
suggestive and corrupts the identification process.

230a
Manson v. Brathwaite, 432 U.S. 98, 114 (1977);
Fitchard v. State, 424 So. 2d 674,676 (Ala. Crim. App.
1982).
26.
Trial Counsel failed to object when the
district attorney referred during closing argument to
facts not in evidence. (Tr. 1641, 1664-66, 1746-47.)
27.
Counsel failed to object to the district
attorney’s improper, highly inflammatory closing
argument, which, inter alia, encouraged the jury to
weigh Mr. Clemons’s rights against the rights of the
victim (Tr. 1739-40) and to consider nonstatutory
aggravating factors (Tr. 1740- 48).
C.

Trial Counsel Failed to Procure
Necessary Expert Assistance.

28. A defendant has a constitutional right to expert
assistance with his defense. See Ake v. Oklahoma, 470
U.S. 68 (1985).
29.
Trial Counsel failed to procure testimony
by a forensics expert concerning the significance of the
lack of physical evidence linking Mr. Clemons to the
crime.
30.
Trial Counsel failed to procure the
services of a juristic psychologist or other expert
experienced with jury selection. Such services would
have been particularly useful in this case because the
extensive pretrial publicity likely caused the venire to
form preconceptions concerning Mr. Clemons’s guilt.
31.
Trial Counsel failed to offer testimony of
a mental health expert concerning Mr. Clemons’s

231a
history of mental, behavioral, and emotional problems
and the role such problems played in the offense.
D.

Trial Counsel Failed to Object to
Improper Jury Instructions.

32.
The Court issued several erroneous jury
instructions. See infra Section XVII. Counsel did not
object to such improper instructions.
E.

Trial Counsels’ Ineffectiveness
Stemmed, in Part, from Their
Inadequate Compensation.

33.
At the time of Mr. Clemons’s trial,
Alabama law authorized compensation well below
market rates for court-appointed attorneys for
indigent clients. ALA. CODE § 15-12-21 (1994). Trial
Counsel received only forty dollars for each hour in
court and twenty dollars per hour for out-of-court
preparation.
34.
This inadequate and statutorily limited
compensation violated the separation of powers
doctrine, constituted a taking without just
compensation, deprived Mr. Clemons effective
assistance of counsel, and violated the Due Process
and Equal Protection Clauses. Bailey v. State, 424
S.E.2d 503, 508 (S.C. 1992); Makemson v. Martin
Cnty., 491 So. 2d 1109, 1115 (Fla. 1986); DeLisio v.
Alaska Superior Ct., 740 P.2d 437, 443 (Alaska 1987);
Walthrop v. State, 506 So. 2d 273, 275 (Miss. 1987).

232a
III.

TRIAL COUNSEL WAS INEFFECTIVE
DURING THE PENALTY PHASE OF MR.
CLEMONS’S TRIAL.
A.

Trial Counsel Failed to Investigate
Mitigating Factors.

35.
An attorney has a duty to conduct a
reasonable investigation for possible mitigating
evidence, including an investigation of the defendant’s
background. See Middleton v. Dugger, 849 F.2d 491,
493 (11th Cir. 1988). “Failure to investigate the
possibility of mitigating evidence is, per se, deficient.”
Ex parte Land, 1999 WL 588215, at 7 (Ala. 1999)
(citing Horton v. Zant, 941 F.2d 1449, 1462 (11th Cir.
1991)).
36.
In Middleton, the Eleventh Circuit
articulated the steps for properly analyzing a claim of
ineffective assistance for failure to investigate and
present mitigating evidence:
First, it must be determined whether a
reasonable investigation should have
uncovered such mitigating evidence. If so,
then a determination must be made
whether the failure to put this evidence
before the jury was a tactical choice by trial
counsel. If so, such a choice must be given a
strong presumption of correctness, and the
inquiry is generally at an end. Funchess v.
Wainwright, 772 F.2d 683, 689-90 (11th
Cir.1985). If, however, the failure to present
the mitigating evidence was an oversight,
and not a tactical decision, then a
harmlessness review must be made to

233a
determine if there is a reasonable
probability
that,
but for counsel’s
unprofessional errors, the result of the
proceeding would have been different.
849 F.2d at 493.
37.
A defendant is denied effective assistance
when trial counsel fails to investigate mitigating
evidence of the defendant’s mental history. See, e.g.,
Baxter v. Thomas, 45 F.3d 1501, 1513 (11th Cir. 1995)
(finding ineffective assistance when counsel failed to
request records from psychiatric hospital where
defendant had been committed for a three years and
when counsel was on notice of potential psychiatric
problems); Stephens v. Kemp, 846 F.2d 642, 653 (11th
Cir. 1988) (stating “professionally reasonable
representation” requires more of an investigation into
mitigating evidence of defendant’s mental history than
a reliance on court ordered psychiatrist’s written
evaluation concerning the defendant’s competency and
overall mental condition).
38.
In this case, Trial Counsel provided
ineffective assistance by failing to investigate
potentially mitigating circumstances, including,
among other things, mental and physical abuse of Mr.
Clemons at a very young age by parents and others,
drug and alcohol abuse in his family, his parents’
divorce, and his history of mental and cognitive
problems. Trial Counsel’s failure to investigate these
issues constitutes ineffective assistance.

234a
B.

Trial Counsel Failed to Present
Mitigating Evidence.

39.
Counsel need not present all available
mitigating evidence so long as the decision results
from counsel’s “reasonable strategic judgment.” See
Jackson v. Herring, 42 F.3d 1350, 1366 (11th Cir.
1995); see also Strickland, 466 U.S. at 690-91 (stating
“counsel has a duty to make a reasonable investigation
or to make a reasonable decision that makes particular
investigations unnecessary”). “[R]easonable strategic
judgment” requires counsel to “gather enough
knowledge of the potential mitigation evidence to
arrive at an ‘informed judgment’ in making that
decision.” Jackson, 42 F.3d at 1367.
40.
Likewise, Trial Counsel’s performance is
deficient when counsel fails to present mitigating
evidence of low intelligence or abuse. See Cunningham
v. Zant, 928 F.2d 1006 (11th Cir. 1991) (holding
assistance was ineffective when counsel failed to
present readily available evidence of defendant’s
mental retardation, head injury, socioeconomic
background, and reputation as a good father and
worker); Tyler v. Kemp, 755 F.2d 741 (11th Cir. 1985)
(holding assistance was ineffective when counsel failed
to present evidence that the husband-victim drank
and was abusive, the defendant had no prior record
and had a good reputation as a wife and mother, and
she and her children had moved away from the
husband-victim due to abuse).
41.
In this case, Trial Counsel failed to
present any mitigating evidence, even evidence that
required no investigation such as Mr. Clemons’ s work
with his church, his positive employment history, and

235a
his desire to have a family. Because Trial Counsel
failed to present mitigating evidence in the form of
defendant’s own testimony, a claim for ineffective
assistance arises.
IV.

COUNSEL WAS INEFFECTIVE DURING
POST-TRIAL PROCEEDINGS.

42.
The Court appointed William F. Mathews
to represent Mr. Clemons during post- trial motions.
Mr. Mathews filed a bare-boned Motion for New Trial,
but later missed the deadline for filing Mr. Clemons’s
appellate brief.1
43.
Mr. Mathews did not render reasonably
effective assistance of counsel during post-trial
proceedings. Consequently, Mr. Clemons was denied
effective assistance of counsel in violation of the
Fourth, Fifth, Sixth, Eighth, and Fourteenth
Amendments to the United States Constitution; the
Alabama Constitution; and Alabama law. See
Strickland, 466 U.S. 668.
44.
Upon information and belief, Mr.
Mathews has been disbarred for, inter alia, neglecting
court-appointed representations of indigent clients.
45.
Mr. Mathews failed to conduct an
adequate investigation concerning Mr. Clemons’s
trial. He met Mr. Clemons only once before arguing the
Motion for New Trial and failed to establish a
relationship of trust essential to the representation.
Further, Mr. Mathews did not interview witnesses,

He eventually filed a brief, but only in an attempt to be paid for his
services.

1

236a
trial counsel, the prosecution, jurors, or Mr. Clemons’s
family.
46.
Mr. Mathews was ill-prepared for the
motion hearing. For example, on the day of the
hearing, Mr. Mathews had not yet reviewed the
transcript of Mr. Clemons’s suppression hearing--a
key to one of Mr. Mathews’s primary arguments for a
new trial.
47.
Mr. Mathews failed to brief and argue
adequately the Motion for New Trial. While Mr.
Mathews raised thirty-three arguments, each was
perfunctory with little if any legal or factual support.
He neglected to raise numerous bases for a new trial,
including, for example, prosecutorial misconduct.
48.
Mr. Clemons was seriously prejudiced by
Mr. Mathews’s ineffective assistance because Mr.
Clemons was unable to raise numerous meritorious
grounds for a new trial.
V.

THE COURT ERRED IN PERMITTING
MR. CLEMONS TO STAND TRIAL IN
LIGHT OF HIS INCOMPETENCY.

49.
The test for competency to stand trial is
whether the defendant “has sufficient present ability
to consult with his lawyer with a reasonable degree of
rational understanding--and whether he has a rational
as well as factual understanding of the proceedings
against him.” Dusky v. United States, 362 U.S. 402,
402 (1960); see also Edgerson v. State, 302 So. 2d 556
(Ala. Crim. App. 1974); Agan v. Dugger, 835 F.2d 1337,
1338 (11th Cir. 1987). In Edgerson, for example, the.
court held “a criminal defendant must have an
understanding of the proceedings against him and an

237a
ability to communicate with his attorney in preparing
his defense before he may be proceeded against
criminally.” 302 So. 2d at 562.
50.
In this case, Mr. Clemons was not
competent to stand trial under the standards
articulated by the United States Supreme Court and
Alabama courts. Mr. Clemons did not, at the time of
his trial, have “sufficient” ability to consult with his
lawyer with a reasonable degree of understanding.
The trial record demonstrates Mr. Clemons could not-and did not--communicate with trial counsel. He
ignored his lawyers and was unable to communicate
with them. Moreover, Mr. Clemons did not have a
rational or factual understanding of the proceedings
against him. For these reasons, the Court erred by
requiring Mr. Clemons to stand trial.
VI.

THE COURT ERRED BY FAILING TO
HOLD A PATE HEARING TO
DETERMINE MR. CLEMONS’S
COMPETENCY TO STAND TRIAL.

51.
Courts must conduct a hearing on the
defendant’s competency to stand trial whenever there
is a “reasonable and bona fide doubt” as to the
defendant’s competence. Janezic v. State, 723 So. 2d
725, 728 (Ala. 1997); see also Pate v. Robinson, 383
U.S. 375 (1966); Drope v. Missouri, 420 U.S. 162
(1975); Agan v. Dugger, 835 F.2d 1337 (11th Cir. 1987).
Indeed, “evidence of a defendant’s irrational behavior,
his demeanor at trial, and any prior medical opinion
on competence to stand trial are all relevant in
determining whether further inquiry is required, [and]
even one of these factors standing alone may, in some
circumstances, be sufficient.” Drope, 420 U.S. at 180.

238a
If, during a later phase of the trial (even after a verdict
is rendered), a “reasonable and bona fide doubt” as to
the defendant’s competence to stand trial arises, the
court must hold a hearing to determine whether the
defendant was, or continues to be, competent to stand
trial. See Janezic, 723 So. 2d at 729 (requiring a
hearing when “facts that question the defendant’s
competency become available after a verdict has been
reached”). If the court finds a reasonable and bona fide
doubt regarding a defendant’s competency to stand
trial, the defendant is constitutionally entitled to a
jury trial on the issue of mental competency to stand
trial. See Ex parte LaFlore, 445 So. 2d 932 (Ala. 1983).
52.
When the trial record reveals a
reasonable and bona fide doubt as to the defendant’s
competency to stand trial, Alabama appellate courts
have found that the trial court’s failure to conduct a
competency hearing is error. See, e.g., Janezic, 723 So.
2d at 725; Wagner v. State, 489 So. 2d 623, 631 (Ala.
Crim. App. 1985). In Janezic, for example, the court
remanded the case to the trial court for a new
competency hearing when the only psychologist
testifying about the defendant’s competency to stand
trial later stated the defendant’s psychological
condition had deteriorated significantly during the
course of the trial. 723 So. 2d 725. In Wagner,
moreover, the court found, upon reviewing the trial
transcript, the facts before the trial judge raised
reasonable and bona fide doubt as to the defendant’s
competency to stand trial. 489 So. 2d at 629.
53.
In this case, the trial transcript reveals a
reasonable and bona fide doubt regarding Mr.
Clemons’s competency to stand trial. Mr. Clemons’s
behavior at trial, including his comments to the jury,

239a
his attempts to fire his counsel, and his refusal to
participate in his defense, raise such a doubt. Whether
Mr. Clemons was incompetent prior to trial, or
whether his competency deteriorated during trial, is of
no moment. Once the Court witnessed Mr. Clemons’s
odd, self-destructive behavior, it was required to
convene a hearing at which defense counsel could raise
and thoroughly discuss Mr. Clemons’s competency to
stand trial. The Court’s failure to halt the trial and
undertake a competency hearing constitutes
reversible error.
VII.

THE COURT ERRONEOUSLY
EXCLUDED MR. CLEMONS FROM THE
GUILT AND SENTENCING PORTIONS
OF HIS TRIAL.
A.

A Capital Defendant Cannot be
Excluded From Trial.

54.
A person charged with a felony has a
fundamental right to be present at every stage of trial.
U.S. CONST. amends. V, VI, XIV; see also ALABAMA
CONST. art. I, § 6; Neal v. State, 257 Ala. 496, 59 So. 2d
797 (1952). This right derives from the Confrontation
Clause of the Sixth Amendment and the Due Process
Clauses of the Fifth and Fourteenth Amendments.
United States v. Gagnon, 470 U.S. 522, 526 (1985).
55.
While a defendant may waive the right to
be present in a noncapital case, see Illinois v. Allen,
397 U.S. 337 (1970), the Supreme Court has ruled a
capital defendant must be present at all crucial stages
of trial. Diaz v. United States, 223 U.S. 442, 455 (1912);
Lewis v. United States, 146 U.S. 370, 372 (1892); Hopt
v. Utah, 110 U.S. 574, 579 (1884).

240a
56.
Due process requires courts to balance
the defendant’s right to a fair and reliable trial, the
severity of the possible punishment, and the court’s
interest in preserving courtroom decorum. Cf. Allen,
397 U.S. 337. In noncapital cases, the balance favors
the court because the potential punishment is less
severe and unreliable results can be remedied.
However, when the potential punishment is death, the
balance must favor the defendant. Because there is no
opportunity to remedy an unreliable verdict after the
penalty is enforced, due process requires courts to take
all reasonable measures necessary to ensure
reliability,
including
employing
reasonable
alternatives to removing an obstreperous defendant
(e.g., binding and gagging).
57.
The Court violated Mr. Clemons’s
constitutional right to be present at trial when it
ordered him removed from the courtroom. As a result,
Mr. Clemons was unable to assist in his defense or
confront witnesses against him. The prejudice caused
by his removal is self-evident.
B.

Under Illinois v. Allen, Mr.
Clemons’s Conduct Did Not Warrant
Removal.

58.
Even if Allen were applicable to capital
defendants, Mr. Clemons’s behavior did not warrant
removal his from the courtroom.
59.
Allen does not provide judges unfettered
discretion to remove defendants from the courtroom
for single incidents of minor misbehavior. At most,
Allen authorizes removal after repeated “ disorderly,

241a
disruptive, and disrespectful” behavior by a defendant.
387 U.S. at 343.
60.
Mr. Clemons’s “misbehavior” during trial
was trivial. He stood at his chair and notified the court
that he wanted to fire his attorneys. (Tr. at 1060-62.)
He neither swore nor acted disrespectful to the court.
He did not threaten the court, throw papers, or express
an intent to disrupt the proceedings. His minor
disruption, stemming from distrust of his legal counsel
and layman’s confusion concerning the propriety of
two trials on seemingly duplicative charges, simply
cannot be equated to the defendant’s behavior in Allen.
The Court erred by removing Mr. Clemons from the
courtroom under purported authority of Allen.
VIII. THE COURT ERRONEOUSLY ALLOWED
MR. CLEMONS TO WAIVE HIS RIGHT TO
BE PRESENT.
61.
Even if Mr. Clemons’s initial removal
from the courtroom was constitutionally permissible,
the Court’s acceptance of his subsequent waiver of the
right to be present was not.
62.
After Mr. Clemons’s initial removal from
the courtroom, he repeatedly refused to return despite
pleas from the Court, Trial Counsel, and various court
officials. (Tr. 1229-35, 1238-45, 1563-64, 1727-30.)
Both the Court and Trial Counsel recognized Mr.
Clemons’s continued absence was voluntary. (Tr. 1246,
1255-57.)
63.
Under Supreme Court precedent, “an
accused . . . charged with a capital offense [i]s
incapable of waiving the right [to presence].” Diaz v.
United States, 223 U.S. 442, 455 (1912). Thus, the

242a
Court erred by allowing Mr. Clemons to remain in his
jail cell, under the mistaken belief Allen permits
capital defendants to waive presence. (Tr. 1256.)
64.
Even if Mr. Clemons could waive his right
to be present, the Court did not conduct the necessary
inquiry to determine whether Mr. Clemons’s waiver
was knowing, intelligent, and voluntary. Johnson v.
Zerbst, 304 U.S. 458, 464 (1938). Given Mr. Clemons’s
incompetence (see supra Section V), any “waiver’’
would not pass muster under Johnson.
IX.

THE COURT FAILED TO ADVISE MR.
CLEMONS OF HIS RIGHT TO SELFREPRESENTATION.

65.
The Sixth Amendment provides both a
right to assistance of counsel and a right to selfrepresentation. Faretta v. California, 422 U.S. 806,
823 (1975). Invoking one constitutes a de facto waiver
of the other. Id. at 835.
66.
When a defendant invokes the right of
self-representation, the court has a duty to inquire
whether the defendant “knowingly and intelligently”
relinquishes the right to counsel. Id. This inquiry must
be an on-the-record discussion sufficient to determine
whether the defendant understands the choice
between proceeding pro se or with assigned counsel,
the advantage of having trained counsel, and the risks
associated with self-representation. United States v.
Torres, 140 F.3d 392, 40l (2d Cir. 1998), cert. denied,
119 S. Ct. 595 (1998).
67.
Mr. Clemons discharged Trial Counsel in
open court, thereby waiving his right to counsel. (Tr.
1060-64.) This waiver necessarily invoked Mr.

243a
Clemons’s right of self­representation. Nevertheless,
the Court failed to conduct a sufficient Faretta inquiry
because it did not inform Mr. Clemons of the absolute
right to self-representation, explain the meaning of
standby counsel, or identify the risks of selfrepresentation. (Tr. 1065-66.)
X.

THE COURT ERRED BY FORCING
COUNSEL ON MR. CLEMONS.

68.
The right to assistance of counsel
includes a “correlative right to dispense with a
lawyer’s help.” Adams v. United States, 317 U.S. 269,
279 (1942). Forcing an attorney on an unwilling client
violates the Sixth Amendment because it not only
diminishes the quality of the attorney-client
relationship (and hence the quality of the legal
representation) but also makes the defendant question
the intrinsic fairness of the legal system. Faretta, 422
U.S. at 834.
69.
The right to self-representation may be
circumscribed if a defendant engages in “serious and
obstructionist
misconduct”
while
representing
himself. Id. at 834 n.46. However, there is no similar
limitation on the right to discharge counsel.
70.
Mr.
Clemons
repeatedly
and
unequivocally fired Trial Counsel. (Tr. 1060-64, 122935, 1238-45, 1563-64, 1727-30.) By requiring Trial
Counsel to continue the representation, over the vocal
protests of both counsel and Clemons, the Court
violated Mr. Clemons’s Sixth Amendment right to
discharge counsel. Adams, 317 U.S. at 279. The result
was disastrous: Trial Counsel abandoned the defense

244a
selected by Mr. Clemons and instead chose to offer no
defense in either the guilt or sentencing phases.
XI.

MR. CLEMONS’S SUCCESSIVE FEDERAL
AND STATE CONVICTIONS
CONSTITUTE DOUBLE JEOPARDY.

71.
The Fifth and Fourteenth Amendments
to the United States Constitution prohibit punishing a
defendant more than once for the same crime.
Similarly, Alabama Code § 15-3-8 prohibits successive
prosecutions for a single crime.
72.
Mr. Clemons was tried and convicted in
federal court for the murder of Douglas Althouse; he
was tried and convicted by the State for the same
crime. Because the offense at issue in both courts was
the same (i.e., murder), Mr. Clemons’s successive
prosecutions are not authorized by the common
doctrine of dual sovereignty. See Heath v. Alabama,
474 U.S. 82, 89 (1985) (holding the doctrine of dual
sovereignty is applicable only when “by one act [a
defendant] has committed two offenses”).
XII.

THE COURT ERRED BY DENYING MR.
CLEMONS’S APPLICATION FOR
YOUTHFUL OFFENDER STATUS.

73.
The Court denied Mr. Clemons’s
application for youthful offender status based on the
recommendation
contained
in
a
prehearing
investigation report. The information in the report was
inaccurate, unreliable, and highly prejudicial. In
addition, the report did not afford sufficient weight to
Mr. Clemons’s borderline mental retardation and
minimal prior contacts with the criminal justice
system.

245a
74.
In capital cases, courts must take special
precautions to ensure reliability and due process.
Woodson v. North Carolina, 428 U.S. 280, 305 (1976).
Here, the Court deprived Mr. Clemons of due process
by considering unreliable information when ruling on
his application for youthful offender status.
XIII. THE COURT ERRONEOUSLY ADMITTED
STATEMENTS MADE BY MR. CLEMONS
WHILE IN CUSTODY.
75.
Every defendant has an absolute right to
remain silent during custodial interrogation. U.S.
CONST. amends. V, XIV. The police must fully inform
a defendant of this right and the right to counsel.
Miranda v. Arizona, 384 U.S. 436 (1966). Custodial
interrogation may not proceed unless a defendant
freely, knowingly, and unequivocally waives these
rights. Id. In addition, no statement made by a
defendant during custodial interrogation may be
admitted into evidence unless, under the totality of the
circumstances, it appears the statement was
voluntary. Johnson v. Zerbst, 304 U.S. 458 (1937).
76.
Under these standards, the Court erred
by admitting statements made by Mr. Clemons during
custodial interrogation by four officers of the Federal
Bureau of Investigation because:
a.
Mr. Clemons did not waive his
Fifth and Fourteenth Amendment rights to silence and
counsel before making inculpatory statements. (Tr.
1162.)
b.
FBI officers offered Mr. Clemons
inducements for his confession (e.g., a promise to “make

246a
[Mr. Clemons’s] cooperation known” to prosecutors and
law enforcement officials). (Tr. 1172-74.)
c.
Mr. Clemons was not competent
to waive his Fifth and Fourteenth Amendment rights.
d.
Based on the totality of the
circumstances (including Mr. Clemons borderline
mental retardation and learning disabilities, his
problems understanding language, his prior head
injuries, and the coercive environment of the
interrogation room), Mr. Clemons’s statements were
not voluntary.
XIV. THE COURT ERRED BY ADMITTING
EVIDENCE OF PRIOR BAD ACTS AND
BAD CHARACTER EVIDENCE TO
PROVE MR. CLEMONS’S GUILT.
77.
Generally, evidence of prior bad acts or
bad character is inadmissible to prove the elements of
an offense or to buttress inferences created by other
evidence. Ex parte Cofer, 440 So. 2d 1121, 1123-24;
MCELROY’S ALABAMA EVIDENCE § 26.01(1) (4th ed.
1991). Exceptions to this rule are narrowly drawn,
especially in capital cases. Aaron v. State, 596 So. 2d
29 (Ala. Crim. App. 1991) (holding evidence of
defendant’s prior bad acts was inadmissible to show
intent to kill victim).
78.
During the guilt phase of the trial, the
State called numerous witnesses to testify about other
crimes allegedly committed by Mr. Clemons. (Tr. 14751548.) Mr. Clemons had not been tried (much less
convicted) of these crimes, yet the Court allowed the
State to introduce evidence about them to convince the
jury Mr. Clemons had killed Agent Althouse.

247a
79.
In a pretrial motions hearing, the State
argued evidence of prior bad acts by Mr. Clemons was
admissible to prove identity. However, there were
more differences than similarities between the prior
bad acts and the murder of Agent Althouse. Moreover,
the State offered an abundance of other evidence to
prove identity, including two eyewitnesses and
numerous other persons who testified that Mr.
Clemons had talked to them about Althouse’s death.
80.
Evidence of prior bad acts and bad
character generally is inadmissible because it tends
unduly to prejudice the trier of fact. Here, the jury was
allowed to consider unsubstantiated bad act and bad
character evidence, which necessarily influenced their
verdict in both the guilt and sentencing phases.
XV.

IN-COURT IDENTIFICATION OF MR.
CLEMONS FROM A CUSTODIAL
PHOTOGRAPH WAS
UNCONSTITUTIONAL.

81.
The State called three victims of prior
carjackings to identify Mr. Clemons as their purported
assailant. Because the Court had excluded Mr.
Clemons from his trial, the State showed each witness
a “mug shot”-like photograph of Mr. Clemons (State’s
Exhibit 67) and asked whether the man in the
photograph was the same person who had taken their
cars. None previously had identified Mr. Clemons in a
line-up, photo array, or prior proceeding. Not
surprisingly, each identified Mr. Clemons as their
assailant.
82.
The single photograph array offered by
the State virtually assured the identification of Mr.

248a
Clemons by these witnesses. Identification based on a
single photograph array is unduly suggestive,
conducive to misidentification, and, consequently,
unconstitutional. Brazwell v. State, 369 So. 2d 25, 29
(Ala. Crim. App. 1979); Fitchard v. State, 424 So. 2d
674, 676 (Ala. Crim. App. 1982).
83.
Even if using a single photograph array
to identify an absent defendant were not per se
unconstitutional, the use of such procedure in Mr.
Clemons’s trial would be unlawful. Due process
requires the exclusion of any unreliable identification
testimony resulting from procedures that are
“unnecessarily
suggestive
and
conducive
to
irreparable mistaken identification.” Stovall v. Denno,
388 U.S. 293, 301-02 (1967).
84. Under the test established by the Supreme
Court in Neil v. Biggers, 409 U.S. 188 (1972), the single
photograph array used at Mr. Clemons’s trial was
suggestive and conducive to misidentification. The
witnesses had little opportunity to view their
assailants at the time of the crimes. (Tr. 1521-39,
1542-47.) The State did not show that the witnesses’
degree of attention at the time of their alleged assaults
was sufficient to provide an independent basis for
identification. (Tr. 1522-28, 1534-35, 1546.) None of
the witnesses had ever identified Mr. Clemons prior to
his trial. Only one witness could express any certainty
that Mr. Clemons was indeed his assailant. (Tr. 1538.)
Finally, more than two years had elapsed between the
carjackings and the witness’ identification of Mr.
Clemons. Thus, the totality of the circumstances
indicate the witnesses could not reliably identify Mr.
Clemons.

249a
85.
The admission of the identifications
provided by the victims of three prior carjackings
seriously prejudiced Mr. Clemons’s defense. Without
such unreliable evidence, the State had only Mr.
Clemons’s illegally obtained confession and the
statements of purported co­conspirators to prove
identity.
XVI. THE JURY WAS TAINTED BY EX PARTE
CONTACTS AND INFLUENCES.
86.
While the jury was sequestered at a
hotel, an unidentified person awakened at least one
juror in the early morning hours by clapping his hands
and yelling, “Guilty, guilty, guilty.” (Tr. 1263-65.)
Despite this clearly prejudicial influence, the Court
declined to inquire whether the event affected the jury.
(Tr. 1271-75.)
87.
An unidentified African-American man
in his mid-twenties closely watched the jury while they
were eating dinner at a restaurant. (Tr. 1266.) When
the jurors left the restaurant, the man attempted to
follow them. The bailiff became concerned when he
noticed the man’ s license plate was covered with a rag.
(Tr. 1267.) Although the Court heard the bailiff’s
testimony about this strange incident, it never
inquired into the affect on the jurors.
88.
Alabama law mandates a new trial if any
extraneous influence may have influenced the jury’s
verdict. Ex parte Troha, 462 So. 2d 953 (Ala. 1984).
The ex parte contacts with Mr. Clemons’s jury may
have generated fear among the jury and impermissibly
tainted their deliberations. Mr. Clemons was deprived
of a fair and impartial trial guaranteed by the Sixth

250a
Amendment to the United States Constitution because
the Court failed to grant a mistrial or ensure that no
member of the jury was influenced by the contacts.
XVII. THE COURT’S JURY INSTRUCTIONS
WERE ERRONEOUS.
89.
The Court’s instruction concerning
aggravating and mitigating circumstances was in
error because the Court neglected to instruct the jury
that the jury cannot impose the death penalty if the
aggravating and mitigating circumstances are in
equipoise. (Tr. 1764-65); see Ex parte Stewart, 659 So.
2d 122 (Ala. 1993).
90.
The Court improperly instructed the jury
that only one mitigating circumstance had been
proven. (Tr. 1769-71.) This instruction left no room for
the jury to consider other mitigating circumstances as
provided by ALA. CODE § 13A-5-52.
XVIII. THE COURT UNLAWFULLY LIMITED
THE JURORS’ CONSIDERATION OF
MITIGATING CIRCUMSTANCES.
91.
Due process guarantees every defendant
the right to full consideration of every mitigating
circumstance in favor of life without parole and
against death. Eddings v. Oklahoma, 455 U.S. 104
(1982); Lockett v. Ohio, 438 U.S. 586 (1978). Under
Alabama’s capital sentencing statute, “a mitigating
circumstance shall include any aspect of a defendant’s
character or record and any of the circumstances of the
offense that the defendant offers as a basis for a
sentence of life imprisonment without parole instead
of death, and any other relevant mitigating

251a
circumstances” offered by the defense. ALA. CODE § l
3A-5-52 (emphasis added).
92.
As discussed supra in Section XVII, the
Court improperly limited the jury’s consideration to a
single mitigating circumstance, Mr. Clemons’s age at
the time of the offense. (Tr. 1756.) When the jury
became confused about the mitigation instruction, the
Court gave a reinstruction. During the reinstruction,
the Court told the jury--twice--that only one mitigating
circumstance had been proven. (Tr. 1769-71.)
Although the Court recognized its instructions were in
error (Tr. 1775), it never corrected the error and, not
surprisingly, the jury quickly returned a unanimous
death verdict.
XIX. THE STATE FAILED TO COMPLY WITH
ITS DISCOVERY OBLIGATIONS UNDER
BRADY V. MARYLAND.
93.
The State is obligated to provide criminal
defendants with all exculpatory evidence, including
statements, impeachment evidence, and physical
evidence. Brady v. Maryland, 373 U.S. 83 (1963); see
also Giglio v. United States, 405 U.S. 150 (1972); Ex
parte Womack, 541 So. 2d 47 (Ala. 1988). In a capital
case, this obligation is heightened given the severity of
the potential punishment. Ex parte Monk, 557 So. 2d
832 (Ala. 1989).
94.
Upon information and belief, the State
failed to provide Mr. Clemons with crucial exculpatory
and impeachment evidence. The investigation of Agent
Althouse’s death was massive, involving more than
five federal, state, and local law enforcement agencies.
These authorities investigated a multitude of leads,

252a
many of which pointed to suspects other than Mr.
Clemons. For example, a “hotline” was set up to allow
the public to provide tips concerning Agent Althouse’s
death. Many tips implicated persons other than Mr.
Clemons . In addition, the clerk at the convenience
store where the shooting occurred reportedly told
prosecutors that Mr. Clemons was not the person she
saw shoot Agent Althouse. The State never gave Mr.
Clemons’s counsel access to this crucial exculpatory
information. These Brady failures prevented Mr.
Clemons from preparing and presenting an effective
defense, denying him his rights under the Fourth,
Fifth, Sixth, Eighth, and Fourteenth Amendments to
the United States Constitution, the Alabama
Constitution, and Alabama law.
XX.

PRETRIAL PUBLICITY MADE IT
IMPOSSIBLE FOR MR. CLEMONS TO
RECEIVE A FAIR TRIAL IN SHELBY
COUNTY.

95.
Extensive pretrial publicity made it
impossible for Mr. Clemons to receive a fair trial in
Shelby County.
96.
The Fourteenth Amendment’s Due
Process Clause protects a defendant’s Sixth
Amendment right to be tried by “a panel of impartial,
‘indifferent’ jurors.” Irwin v. Dowd, 366 U.S. 717, 722
(1961). When pretrial publicity is pervasive,
prejudicial, or inflammatory, a change of venue is
necessary. Rideau v. Louisiana, 373 U.S. 723 (1963).
97.
Publicity concerning Mr. Clemons’s case
was pervasive, prejudicial, and inflammatory. Agent
Althouse’s death, the massive investigation thereafter,

253a
and Mr. Clemons’s subsequent arrest were featured
stories in newspaper, radio, and television reports
throughout the Birmingham area. Mr. Clemons’s
federal trial, conviction, and sentencing and the
pretrial proceedings in his state case also were
prominently featured.
98.
At least forty-six members of the seventyone person venire were exposed to this extensive
pretrial publicity. (Tr. 42-52.) The Court concluded,
without questioning the individual members of the
venire, that none would be influenced by the dramatic
news reports they had seen in the months before Mr.
Clemons’s trial. (Tr. 52.) Nine of the venire who
admitted seeing the news reports eventually were
seated on the jury. (Tr. 52, 727-29.)
99.
Given the pervasive and prejudicial
publicity surrounding Mr. Clemons’s case, he did not,
indeed could not, receive a fair trial in Shelby County.
The Court erred by denying Mr. Clemons’s motion for
a change of venue.
XXI. IRRELEVANT AND PREJUDICIAL
EVIDENCE WAS INTRODUCED AT
TRIAL.
100. Only relevant, probative evidence is
admissible at trial. ALA. R. CRIM. P. 402; Old Chief v.
United States, 519 U.S. 172 (1997). Otherwise relevant
evidence may be excluded if its prejudicial effect
outweighs its probative value. C. GAMBLE, MCELROY’S
ALABAMA EVIDENCE § 21.01(4).
101. Here, the State introduced thirteen gory
photographs of Agent Althouse’s body. (Tr. 1135.)
These included close-ups of Agent Althouse’s body

254a
with his eyes open halfway and tubes protruding from
his mouth, his bloody torso lying in a pool of blood, and
similar scenes. (Tr. 1124-29.)
102. These photographs were not relevant to
any issue in the case; it was undisputed that Agent
Althouse had died of gunshot wounds. The pictures,
however, were highly prejudicial because they
suggested Agent Althouse died a painful, gory.
XXII. ELIMINATION OF ALL JURORS
OPPOSED TO THE DEATH PENALTY
DENIED MR. CLEMONS A FAIR TRIAL.
103. When death certifying a jury, courts may
excuse potential jurors for cause only if the potential
jurors express reservations about the death penalty
which are so strong that their ability to decide the case
in accordance with their oath would be substantially
impaired. Witherspoon v. Illinois, 391 U.S. 510 (1968).
104. Here, the Court excused six persons who
expressed reservations about the death penalty. (Tr.
204, 210, 235, 248, 347-48, 600-08.) Nevertheless, none
had expressed reservations so strong they would not
be able to decide Mr. Clemons’s case in accordance
with their oath. Because the Court’s systematic
exclusion of all potential jurors with reservations
about the death penalty was not authorized by
Witherspoon, the Court violated Mr. Clemons’s Fifth,
Sixth, Eighth, and Fourteenth Amendment rights.

255a
XXIII. THE COURT ERRED BY NOT STRIKING
FOR CAUSE JURORS WHO STATED
THEY WOULD AUTOMATICALLY VOTE
FOR THE DEATH PENALTY.
105. Courts must strike for cause all potential
jurors whose views in favor of the death penalty would
prevent or substantially impair their performance in
accordance with their oath as a juror. Morgan v.
Illinois, 504 U.S. 719 (1992).
106. Two members of Mr. Clemons’s venire
stated they would vote automatically for the death
penalty under certain circumstances. (Tr. 464-69, 55051.) The Court committed reversible error by refusing
to strike these jurors for cause despite their fixed
views on the death penalty. Witherspoon, 391 U.S. at
520-21.
XXIV. PROSECUTORIAL MISCONDUCT
DENIED MR. CLEMONS A FAIR TRIAL
AND SENTENCING DETERMINATION.
107. The State offered inadmissible hearsay in
an attempt to prove motive. The State argued Mr.
Clemons carjacked Agent Althouse because Mr.
Clemons wanted to get an engine for Dedrick Smith’s
car. To prove this purported motive, the State
presented four witnesses, each of whom testified that
Dedrick Smith said he needed a new engine. (Tr. 1410,
1424-25, 1438-40, 1445-46.) This testimony was
inadmissible hearsay. Dedrick Smith did not testify at
trial, and no exception to the hearsay rule was
applicable. The admission of this evidence was highly
prejudicial because it was the only evidence offered by
the State to prove motive.

256a
108. The State violated Mr. Clemons’s Fifth,
Sixth, Eighth, and Fourteenth Amendment rights and
rights provided by Alabama law by arguing facts not
in evidence to obtain a conviction and death sentence.
Prosecutors are prohibited from arguing facts not in
evidence. Donnelly v. DeChristoforo, 416 U.S. 637
(1974). Nevertheless, during both the guilt and
sentencing phases of Mr. Clemons’s trial, the district
attorney frequently referred to facts not in the record.
For example, the district attorney argued about the
victim’s character (Tr. 1641, 1664-66), Mr. Clemons’s
character (Tr. 1746-47), and the supposedly plush
amenities available to Mr. Clemons if he were
sentenced to life without parole (id.). None of these
“facts” were supported by testimony or tangible
evidence, and Mr. Clemons had no opportunity to
challenge their validity. Each, however, was
prejudicial to Mr. Clemons because they suggested Mr.
Althouse’s life was more valuable than Mr. Clemons’s,
and Mr. Clemons would lead a life of relative luxury if
he were incarcerated.
109. The district attorney impermissibly
implied a duty to impose death and expressed his
personal opinion that Mr. Clemons deserved the death
penalty. A prosecutor may not “ imply to the jury that
he or his office has already made the judgment that [a
particular] case, above most other capital cases
warrants the death penalty.” Arthur v. State, 575 So.
2d 1165, 1185 (Ala. Crim. App. 1990). Yet in Mr.
Clemons’s case, the district attorney instructed the
jury that the only “fair’’ punishment was the same
“punishment” suffered by Mr. Althouse. In fact, the
prosecutor expressly violated the court’s ruling in
Arthur by stating “If ever there’ s a case for the death
penalty, this is it.” (Tr. 1740.) These statements caused

257a
the jury to believe the district attorney’s office already
had decided the appropriate sentence and thereby
reducing the jury’s sense of responsibility for the death
sentence. Arthur, 575 So. 2d at 1185; Caldwell v.
Mississippi, 472 U.S. 320 (1985).
110. The State impermissibly urged the jury
to weigh Mr. Clemons’s rights against the rights of the
victim. (Tr. 1739-40,1746.) This argument is “clearly
improper.” McNair v. State, 653 So. 2d 320, 337 (Ala.
Crim. App. 1992).
111. The
State
argued
nonstatutory
aggravating factors to convince the jury to impose the
death penalty. The jury may consider only statutory
aggravating factors. See Keller v. State, 380 So. 2d 926
(Ala. Crim. App. 1979). Nevertheless, the district
attorney urged the jury to consider nonstatutory
factors such as the low price for which Mr. Clemons
purportedly sold stolen cars, the need to send a
“message” to society, and the fact that Agent Althouse
was shot twice. (Tr. 1740, 1745-48.)
XXV. ELECTROCUTION--THE SOLE METHOD
OF IMPOSING THE DEATH PENALTY IN
ALABAMA--IS CRUEL AND UNUSUAL.
112. Alabama executes condemned prisoners
by electrocution, a method that is cruel and torturous
in violation of federal and state law.
113. The Eighth Amendment proscribes
“punishments which are incompatible with ‘the
evolving standards of decency that mark the progress
of a maturing society.’” Estelle v. Gamble, 429 U.S. 97,
102 (quoting Trap v. Dulles, 356 U.S. 86, 101 (1958)).

258a
Section 15 of Alabama’s 1901 Constitution likewise
prohibits “cruel or unusual punishment.”
114. Of the thirty-eight states that impose the
death penalty, only Alabama and three others
mandate death by electrocution. The majority rely on
lethal injection, a less painful, more dignified, and
more humane method of execution.
115. Following the particularly gruesome
execution of Allen Lee Davis in Florida’s electric chair
in July 1999, the United States Supreme Court agreed
to consider whether electrocution constitutes cruel and
unusual punishment. Bryan v. Moore, 1999 U.S.
LEXIS 7058 (Oct. 26, 1999) (granting stay of execution
and writ of certiorari). The Court’s ruling, anticipated
by late-June 2000, may well outlaw Alabama’s use of
electrocution.
XXVI. THE DEATH PENALTY AS IMPOSED BY
THE STATE OF ALABAMA IS
UNCONSTITUTIONAL BECAUSE IT IS
USED DISPROPORTION­ATELY
AGAINST AFRICAN-AMERICANS.
116. Since the reintroduction of the death
penalty m 1976, sixty-eight percent of persons
executed by the State of Alabama were AfricanAmericans. By comparison, African­Americans
constituted only thirty-five percent of persons
executed nationwide.
117. Racial prejudice permeates every step of
the criminal process in Alabama--from deciding whom
to target in a criminal investigation to determining
which persons are given the death penalty and which
receive life without parole. If Mr. Clemons were white

259a
and Agent Althouse were black, statistics indicate
there is little chance Mr. Clemons would have received
the death penalty. Because racial prejudice
contributed to the imposition of the death penalty in
Mr. Clemons’s case, he was deprived of his rights
under the Eighth Amendment and the Due Process
Clause of the Fourteenth Amendment.
XXVII. AS A MATTER OF LAW, THE
EVIDENCE WAS INSUFFICIENT TO
SUPPORT MR. CLEMONS’S CAPITAL
MURDER CONVICTION AND DEATH
SENTENCE.
118. The State failed to prove beyond a
reasonable doubt each element of the offense with
which Mr. Clemons was charged.
119. No forensic evidence linked Mr. Clemons
to the crime. (Tr. 1054.) The only unequivocal
“eyewitness” testimony came from witnesses who had
been granted immunity or not charged in exchange for
the testimony. Other purported identifications were
dubious at best. Naylor Braswell, a trained law
enforcement officer, identified Mr. Clemons solely
based on Mr. Clemons’s race and general size. Other
witnesses identified Mr. Clemons only when presented
with an unduly suggestive single photo array. Such
weak, unreliable evidence is insufficient to support a
capital conviction and death sentence. The State’s
failure to meet its burden of proof violates Mr.
Clemons’s rights under the Fourth, Fifth, Sixth,
Eighth, and Fourteenth Amendments to the United
States Constitution and under Alabama law.

260a
CONCLUSION
120. Mr. Clemons was deprived of effective
assistance of counsel during every portion of his trial,
including pre- and post-trial proceedings. Counsel
failed to investigate the crime, investigate mitigation,
make critical objections, present crucial expert
testimony, offer a defense during the guilt phase, and
present a case for life without parole instead of the
death penalty.
121. The Court committed constitutional
violations mandating reversal of Mr. Clemons’s
conviction and death sentence.
122. The Stated committed constitutional
violations mandating reversal of Mr. Clemons’s
conviction and death sentence.
123. Accordingly, the Court should hold a full
evidentiary hearing conceding all claims raised herein
or in any supplement to this Petition and should set
aside Mr. Clemons’s conviction and grant him a new
trial.
PRAYER FOR RELIEF
124. For the foregoing reasons, any reason
subsequently offered by amendment to this Petition,
and any reason revealed during an evidentiary
hearing, Mr. Clemons respectfully asks the Court to
grant the following relief:
a.
Conduct a
full
and
fair
evidentiary hearing that is recorded and transcribed, at
which Mr. Clemons may offer proof concerning the

261a
allegations in this Petition and any amendments
thereto;
b.
Provide Mr. Clemons, who is
indigent and incarcerated, funds sufficient to present
witnesses, experts, and other evidence in support of the
allegations in this Petition and any amendments
thereto;
c.
Issue an order relieving Mr.
Clemons’s of his unconstitutionally obtained conviction
and death sentence; and
d.
Grant Mr. Clemons any such
additional relief as is just, equitable, and proper and
federal and state law.
Respectfully Submitted,
s/ James. S. Christie, Jr.
James S. Christie, Jr. (CHR011)
Bradley Arant Rose & White, LLP
200l Park Place
Suite 1400
P.O. Box 830709
Birmingham, AL 35283-0709
(205) 521-8387
Timothy M. Broas
Jared R. Silverman
Marc Z. Michael
Winston & Strawn
1400 L Street, N.W.
Washington, D.C. 20005
(202) 371-5700
Counsel for Petitioner
Eugene M. Clemons II

262a
Dated: December 23, 1999

263a
I swear under penalty of perjury that, upon
information and belief, the foregoing is true and correct.
s/ James. S. Christie, Jr.
James S. Christie, Jr.
Executed on this 23rd day of December, 1999
SWORN TO AND SUBSCRIBED before me this
23rd day of December,
s/
Notary Public
Commission expires 9-19-02

